<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2009</title>
<body><pre>[Senate Hearing 110-]
[From the U.S. Government Publishing Office]


 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2009 

                              ----------                              


                        THURSDAY, APRIL 10, 2008

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Barbara A. Mikulski (chairman) 
presiding.
    Present: Senators Mikulski, Leahy, Feinstein, Shelby, and 
Alexander.

                         DEPARTMENT OF JUSTICE

                            Attorney General

STATEMENT OF HON. MICHAEL B. MUKASEY, ATTORNEY GENERAL

            OPENING STATEMENT OF SENATOR BARBARA A. MIKULSKI

    Senator Mikulski. Good morning, everyone. The Subcommittee 
on Commerce, Justice, and Science will come to order.
    Today, the subcommittee will take testimony from the 
Attorney General of the United States, Mr. Mukasey. We welcome 
him for his first appearance here and look forward to a very 
straightforward, candid conversation.
    We have been informed that at approximately 11 o'clock, 
there will be a series of votes on budget issues affecting our 
housing foreclosure situation.
    We're going to do our best to finish the hearing in the 
next hour. To that end, I'm going to ask unanimous consent that 
my full opening statement be in the record. I'll say a few 
remarks, turn to my able colleague, Senator Shelby of Alabama, 
who, too, has responsibilities on the floor this morning. We 
understand our colleague, Senator Alexander, is offering an 
amendment in 15 minutes on the Senate floor and we know he 
wants to pose a question to the Attorney General and get an 
answer in writing from the Department.
    This morning is a hearing on the budget for the Department 
of Justice (DOJ). It is a very important hearing because this 
year's appropriation, when we pass it, will be the operating 
budget for the first year of the next president.
    We need to understand that the fiscal year begins October 
1. We'll get a new president on January 20. That new President 
will inherit what we present to him in the operating budget of 
the Department of Justice.
    To that end, we have to be very clear on what our national 
priorities are. We have to do all we can to work with the 
Attorney General in restoring the integrity of the Justice 
Department, improving morale at the Justice Department, and at 
the same time meeting our very serious domestic 
responsibilities of: fighting violent crime, protecting women, 
protecting children, and making sure that the grassroots law 
enforcement is a partner with the Federal Government. This is 
what our focus of our hearing will be.
    We'll also look at accountability at the Justice Department 
and make sure that we are stewards of the taxpayers' dollars. 
We know that the Justice Department has faced many challenges 
over the last several months. There's been the torture memos, 
the firing of U.S. Attorneys, the FBI's national security 
letters being mismanaged and problems with the terrorist watch 
list, and the reforms called for in the 9/11 Commission report 
have not been fully implemented.
    We're also deeply concerned about the overall budget at the 
Justice Department. The Justice Department has been cut by 2 
percent. That doesn't sound like a lot but when we look at the 
responsibilities of the Justice Department, we see they have 
responsibilities ranging from enforcing our antitrust laws to 
enforcing our civil rights laws as well as the role the Justice 
Department is supposed play by offering grants to State and 
local governments.
    Number 1, to fight violent crime where there is a terrible 
surge in violent crime. Violent crime is up, murders, rapes, 
and other heinous activity continue to rise. We need to make 
sure local law enforcement is partner with us and we're a 
partner with them. We're deeply concerned about the slashing 
cuts to the COPS Program and to the Byrne JAG program.
    Then we look at those crimes that are just despicable. 
Despicable crimes are crimes against children. As a former 
child abuse worker, I feel very passionate about this. Sexual 
predators stalking our children, child abuse, and attacks on 
women continue to plague our communities. So, we do not cut 
these important programs as the President proposes--we're very 
concerned about the drastic cuts and the elimination of 
programs like Adam Walsh, and the Violence Against Women Act 
proposed by the President.
    We note that the YWCA is here, as they always are, standing 
up for women. We wear our colors with you today in solidarity.
    You can applaud but just know that we and the good men up 
here are in solidarity with you.
    We also want to be accountable and we want to look at the 
grant programs to make sure that every dollar we have counts. 
No more $4 Swedish meatballs. We're going to make sure that 
when we issue those grants, that they are done in a timely 
manner and subject to rigorous peer-review process.
    There are many issues that I will raise in my questioning, 
but I think it's time now to move to the substance of our 
hearing and I would turn to Senator Shelby.

                 STATEMENT OF SENATOR RICHARD C. SHELBY

    Senator Shelby. Thank you, Madam Chairwoman, and Mr. 
Attorney General, thank you for joining us here today to 
discuss your budget with the Department of Justice.
    The total Department of Justice budget for the fiscal year 
2009 is $22.9 billion. This is $500 million or 2 percent 
decrease below the fiscal year 2008 level.
    While the Department of Homeland Security request from the 
administration has grown seven to 10 percent each year since 
its inception, the Justice Department request continues to 
shrink by 2 to 3 percent each year.
    The chairwoman and I are concerned about the Justice 
Department continuing to be the world's premier law enforcement 
entity with these continuous decreasing budgets.
    As I've said in the past, the budget constraints placed 
upon us will once again force us to make touch decisions. The 
chairwoman has covered most of the budget in her opening 
statement, so I won't repeat all that, but I do have a number 
of issues I think we need to discuss here today.
    First, I want to recognize and extend my appreciation to 
the men and women of the Justice Department who protect this 
country from terrorism and crime each and every day. We all owe 
them a debt of gratitude.
    As in past years, the administration continues to propose 
eliminating State and local law enforcement programs which is 
troubling. These programs are the lifeblood of police 
departments throughout the Nation. I will join with the 
chairwoman in rejecting the proposals.
    The U.S. Marshals Service, regional fugitives task force, 
track down and apprehend the dangerous fugitives on our 
streets. The fugitives are some of the worst of the worst, 
usually averaging more than four prior arrests per fugitive.
    The six regional task forces arrested approximately 95,000 
felony fugitives last year. These task forces are proven and 
multiply. The Marshals Service may be the smallest Federal law 
enforcement agency but they have arrested more fugitives than 
all other Federal agencies combined, yet there are no new 
resources for their efforts in the budget.
    The National Center for Missing and Exploited Children, 
which Senator Mikulski mentioned, estimates there are currently 
more than 100,000 sex offenders who have failed to register as 
required under the Adam Walsh Act. These predators are working, 
attending school, and living in proximity to our children 
unbeknownst to the parents and law enforcement officials.
    The Marshals Service is the lead agency in the enforcement 
of the Adam Walsh Act. The Congressional Budget Office 
conservatively estimates it would cost $220 million over a 5-
year period for the Marshals Service to hire 350 new deputy 
marshals as required by the law, to locate and hunt down these 
unregistered sex offenders.
    John Walsh said the following after the signing of the act, 
and I quote, ``Legislation without the resources to back it up 
is nothing more than a photo op and yet the Department has 
requested no new resources for 2009 to reduce the number of sex 
offenders from our streets.''
    Is this giving sex offenders a free ride? What kind of 
message does this budget send? The administration also proposes 
to task the Bureau of Alcohol, Tobacco, Firearms and Explosives 
(ATF) with additional Southwest border responsibilities, 
highlighting cross-border arms trafficking, yet only a paltry 
$948,000 out of $100 million is requested to carry out this 
mission.
    This means that the ATF agents investigating violent crime, 
arson and gang-related activities will be relocated to the 
border. The baseline request in this budget doesn't even 
support the existing missions of the law enforcement agencies 
in the Department of Justice.
    There's no doubt we have a crisis on the Southwest border. 
Fund the Southwest border enhancement at the levels requested 
will remove the Drug Enforcement Administration (DEA), ATF, the 
Federal Bureau of Investigation (FBI) and U.S. Marshals Service 
from our communities. These communities are already stretched 
in dealing with increased crime and receive less fiscal support 
from the Department of Justice.
    Mr. Attorney General, it's been brought to my attention 
that individuals in the National Institute of Justice (NIJ) 
have attempted to derail the 2006 report language that we 
requested directing the National Academy of Sciences to conduct 
an independent forensics study.
    Once completed, this study will produce an unbiased and, we 
hope, independent assessment of the present and future needs of 
the forensics community, providing a roadmap of best practices.
    Current and former employees of the National Institute of 
Justice, along with lobbyists and contractors, have attempted 
to undermine and influence the National Academy study. On 
December 17 and 18 of this past year, the Deputy Director of 
the National Institute of Justice even convened a 
counterproductive forensic summit here in Washington. Many of 
the attendees deemed the summit a huge waste of more than 
$300,000 in taxpayers' funds.
    Also while investigating this matter, our staff discovered 
potential conflicts of interest, unethical behavior and a 
serious void of transparency where lobbyists, including former 
DOJ employees, were contracted to NIJ to conduct policy-forming 
studies and surveys. These same lobbyists, while writing these 
unbiased policies for the Department of Justice, are also 
representing clients whose business success depends on the 
results of the studies and surveys that lobbyists conducted.
    I'm not so sure the seriousness of this matter has the full 
attention of the leadership of the Department of Justice. I 
hope and encourage you to check into this matter.
    I would be remiss if I did not express my dismay at the 
Department's position or lack thereof on the recent passage of 
the Second Chance Act. In what will be a year of tough budget 
decisions, numerous re-entry, recidivism prevention, and 
prisoner education studies and programs were created.
    Most of the programs and studies already exist, yet the 
Department of Justice was silent throughout the process. A lot 
of us are troubled by section 231 related to prisoner re-entry 
procedures that ``ensure that priority is given to the re-entry 
needs of high-risk populations, such as sex offenders and 
career criminals.
    To a degree, I believe in re-entry and any recidivism 
programs, but in a tight budget year when we have to make 
choices, I think we should prioritize and ensure that the needs 
of victims and law enforcement officers are supported before 
giving any consideration whatsoever to the welfare of 
criminals.
    There are currently more than 70 programs at DOJ. Each 
program has its own constituency, you know. This legislation 
provides more welfare and career counseling by pedophiles and 
career criminals on our bill than we give to victims and most 
of our children.
    Sex offenders, a lot of people believe, cannot be 
rehabilitated, yet this bill would give them priority in 
receiving Federal taxpayer assistance to reintegrate into our 
neighborhoods.
    The Department should be extremely proud of its personnel 
stationed overseas. The ATF, FBI, DEA, Marshals Service, and 
U.S. attorneys all play vital roles in protecting our country.
    I understand the chairwoman has endorsed the efforts to 
provide Byrne State and local law enforcement funding in the 
upcoming emergency supplemental bill and Senator Mikulski knows 
we all have our support.
    Last, Mr. Attorney General, you have a lifetime appointment 
as a Federal judge in the Department of Justice. Since your 
arrival, morale has risen and we're seeing signs that you're 
having success in the rising shift. I commend you for that and 
congratulate you for your efforts and your commitment.
    Thank you for appearing before us today.
    Senator Mikulski. Thank you, Senator Shelby. We are not 
having opening statements by other members, but we want to get 
to their points quickly, Mr. Attorney General, but we note that 
Senator Alexander has to leave at 10:20 to offer an amendment 
on the Senate floor.
    Senator, I know you want to just ask your question and that 
way, it will ensure that your question gets asked, but we'll 
save the answer when the Attorney General gets the answers to 
questions.
    Senator Alexander. Thank you very much, Madam Chairman, and 
thank you for your service, Mr. Attorney General.
    I can pose my question in 2 minutes. This is the 1-year 
anniversary of Nashville's participation in the 287(g) program 
whereby local law enforcement officials are trained to identify 
illegal immigrants. The number identified has risen from 150 to 
3,000. The majority of those are transported to Oakdale, 
Louisiana, through Perry, Alabama, for their bond hearing.
    My question is: Given the increase from 150 to 3,000, and 
given the fact that it would save Federal tax dollars not to 
transport them to Oakdale, Louisiana, where they have a 26-hour 
bus ride home, and given the fact that we'd like to process 
illegal immigrants more speedily, and as an element of fairness 
to the defendants who have to pay for their own bus ride home, 
would you be willing to seriously consider placing an 
immigration judge in Nashville where there are 400 vacant beds 
in the metro jail and all this could be done more quickly?
    I thank the chairwoman for her time and I'll look forward 
to a written answer.
    Senator Mikulski. Thank you very much, Senator Alexander.
    Mr. Attorney General.
    Attorney General Mukasey. Good morning, Chairwoman 
Mikulski, Ranking Member Shelby, Senator Leahy, Senator 
Feinstein, Senator Alexander, other members of the 
subcommittee.
    I'm here to present the president's fiscal year 2009 budget 
for the Department of Justice. I was advised both before the 
hearing and during the chairwoman's remarks that this will be a 
somewhat abbreviated hearing and so I'm going to try to 
abbreviate my own introductory remarks on the fly as I give 
them so that I don't use up an inordinate amount of time.
    But I do want to say that since my nomination was approved 
by the Senate and I arrived at the Department, I've confirmed 
what I hoped and expected to find, namely men and women who are 
talented, who are hard working, who are dedicated to fulfilling 
the Department's historic mission. As you're aware, the 
Department is charged with defending the interests of the 
United States, according to the law, ensuring public safety 
against threats, both foreign and domestic, and seeking just 
punishment for law-breakers, assisting our State and local 
partners and ensuring fair and impartial administration of 
justice for all Americans.
    I have looked for opportunities during my tenure to work 
with Congress to ensure that the Department is provided the 
statutory tools and the necessary resources to fulfill those 
important mandates and I'm here to continue to do that.
    The Department relies on funding from this subcommittee to 
pursue our mission and enhance our efforts in the areas that 
need it, and I thank you very much for your continued support 
of the Department.
    I very much look forward to continuing to work with each of 
you this year to advance the budget that will help achieve that 
mission.
    My written statement addresses in detail the Department's 
budget. Obviously I'm not going to go into the detail that's 
addressed in that statement.
    The total request is $22.7 billion. Those funds will allow 
us to accomplish our broadbased mission and to focus on several 
of the priorities that I've had occasion to discuss in other 
settings. Those priorities include national security, violent 
crime, immigration and border security as well as public 
corruption.
    Now, we've advanced enhancements. First, the proposal to 
increase the resources dedicated to the national security in 
counterterrorism by $492.7 million, which includes resources 
that are necessary to improve the counterterrorism programs 
that are contained in the National Security Division and the 
Federal Bureau of Investigation.
    Second, the budget dedicates an additional $100 million to 
the Southwest Border Enforcement Program. Those funds will 
provide essential resources, personnel and infrastructure that 
are required to address illegal immigration, drug trafficking, 
gun smuggling across the Southwest border.
    Third, the budget requests funds to support essential 
Federal detention and incarceration programs that provide the 
infrastructure necessary to the Department's law enforcement 
personnel and prosecutors to carry out those responsibilities. 
I believe the enhancements there total approximately $67 
million.
    As programs, such as Project Safe Neighborhoods and the 
Southwest border initiative, investigate and prosecute 
dangerous criminals, the Department has to be ready to keep 
those individuals in a safe, secure and humane environment that 
also assures the safety of our staff in those prisons.
    And finally, the budget fully funds the base and reflects 
the Department's strategy to work in partnership with State and 
local and tribal authorities and to target funding to address 
the most significant needs in each of our communities. It's our 
collective obligation to ensure that those resources, whether 
spent on Federal efforts or in support of our State and local 
partners, are used wisely and in a way that's calculated to 
achieve the most significant impact.
    Thank you for the opportunity to present this budget, and I 
thank you for inviting me to be here today. I'm going to try to 
answer any questions that you might have, including the 
questions that were posed by Senator Alexander before he had to 
leave.
    [The information follows:]

                    Immigration Judges in Nashville

    The Department of Homeland Security (DHS) is responsible 
for the detention and transportation of aliens within their 
custody. Immigration judges are part of the Department of 
Justice, Executive Office for Immigration Review (EOIR). 
Immigration judges adjudicate cases of aliens who are placed in 
removal proceedings by DHS and charged with violations of the 
immigration laws.
    The volume, nature, and geographic concentration of 
immigration judge caseload is tied directly to initiatives 
undertaken by DHS. In general, however, not all cases 
identified under 287(g) programs are cases that necessarily 
result in a hearing before an immigration judge. In appropriate 
cases, DHS may elect to use alternatives, such as reinstatement 
of removal orders against aliens who had previously been 
ordered removed.
    With respect to the location of hearings before an 
immigration judge, EOIR holds immigration hearings in over 50 
immigration courts and numerous other hearing locations. For 
cases involving detained aliens, immigration hearings can occur 
at certain federal, state, and local correctional facilities 
and DHS detention facilities. When the caseload does not 
support the opening of a full-time, independent court, EOIR 
works with DHS to maximize immigration judge resources by use 
of video or telephone conferencing at various hearing locations 
or scheduling traveling immigration judges to appear on a 
routine basis.
    In fiscal year 2007, over 9,100 cases were received and 
completed in the Oakdale Louisiana Immigration court, a 
significant increase over previous fiscal years. Most 
individuals who are detained for immigration violations in 
Nashville and who need to go before an immigration judge are 
ultimately transported by DHS to Oakdale, based on DHS's 
regional processing plan.
    Currently, Tennessee has an immigration court in Memphis 
with two immigration judges. Cases received in Memphis are 
adjudicated in a timely manner and include cases of aliens 
primarily from Tennessee and Arkansas. Individuals detained in 
Nashville, Tennessee who seek bond hearings may file in the 
Memphis court for a telephonic hearing. Should DHS begin 
detaining aliens in Nashville, the Department of Justice would 
work with DHS to identify the appropriate immigration judge 
resources needed to adjudicate the cases.

    Attorney General Mukasey. Thank you very much.
    Senator Mikulski. Thank you very much, Mr. Attorney 
General.
    [The statement follows:]
                Prepared Statement of Michael B. Mukasey
    Good morning Chairwoman Mikulski, Ranking Member Shelby, and 
Members of the Subcommittee. It is my pleasure to appear before you 
today to present the President's fiscal year 2009 budget for the U.S. 
Department of Justice (Department). Before I begin, I would like to 
thank you for your continued support of the Department's mission and 
your recognition of the important work that we do.
    The Department is charged with defending the interests of the 
United States according to the law; ensuring public safety against 
threats both foreign and domestic; seeking just punishment for 
lawbreakers; assisting our state and local partners; and ensuring fair 
and impartial administration of justice for all Americans. The 
Department's ability to pursue this mission is dependent on the funding 
that supports our operations and allows us to enhance our efforts in 
the areas that need it.
    The President's budget request for the Department in fiscal year 
2009 is $22.7 billion, which will allow us to accomplish our broad-
based mission and provide a particular focus on the following critical 
areas: national security, violent crime, immigration and border 
security, and public corruption. More specifically, the President's 
fiscal year 2009 budget request:
  --reflects a 6 percent total increase over the fiscal year 2008 
        enacted budget for law enforcement and prosecution programs;
  --increases the resources dedicated to national security and 
        counterterrorism efforts by $492.7 million;
  --enhances the Department's capacity to address violent crime through 
        a strategy to target grant funding to the places and problems 
        that need it most;
  --dedicates an additional $100 million for the Southwest Border 
        Enforcement Initiative to enforce federal laws, including 
        immigration laws, along the border; and
  --continues the Department's focus on prosecuting public corruption.
    During a time of limited resources and tough decisions, I am 
grateful that the Committee continues to support the Department's 
mission and these priorities.
    Understanding that our time together is limited, my testimony today 
highlights key budget priorities that support our efforts to enhance 
national security and protect our homeland. Although we have a number 
of key priorities for which we are requesting enhancements, I want to 
emphasize that one of our goals is also to fund base operations for the 
Department and its missions. I will also discuss the Department's 
proposal to target state and local funding in a way that supports these 
priorities and leverages our limited resources.
    First, since the devastating attacks of September 11, 2001, the 
Department has mobilized its resources to help protect the Nation. In 
that time, this Committee has strongly and repeatedly shown its support 
of the Department's efforts in the war against terror. The President's 
fiscal year 2009 proposal asks this Committee to continue its support 
by providing the Department with the resources necessary to expand and 
improve the counterterrorism programs of the National Security Division 
and the Federal Bureau of Investigation.
    Second, the budget seeks funds to improve the Department's ability 
to combat crime along the Southwest Border. This budget request takes 
into account the full range of essential resources, personnel, and 
infrastructure required to address illegal immigration, drug 
trafficking, and gun smuggling across that border.
    Third, the budget requests funds to support essential federal 
detention and incarceration programs that provide the infrastructure 
necessary for the Department's law enforcement personnel and 
prosecutors to carry out their responsibilities. As programs such as 
Project Safe Neighborhoods and the Southwest Border Enforcement 
Initiative investigate and prosecute dangerous criminals, the 
Department must be ready to segregate those individuals from the 
general population in a safe and secure environment.
    Finally, the budget reflects the Department's strategy to work in 
partnership with state, local, and tribal authorities and target 
funding to address the most significant needs in those communities. It 
is our collective obligation to ensure that our resources--whether 
expended on federal efforts or in support of our state and local 
partners--are used wisely and in a way calculated to achieve the most 
significant impact.
    national security: protecting the american people by preventing 
                             terrorist acts
    As I testified during the Department's oversight hearings earlier 
this year, since the terrorist attacks of September 11, 2001, the first 
priority of the Justice Department has been to protect Americans from 
the threat of international terrorism. All aspects of what the 
Department does, from budget, to allocation of resources, to policy 
development and legislative priorities, must continue to reflect this 
critical aspect of our mission and the reality of the world in which we 
live. According to the National Intelligence Estimate released last 
summer, al Qaeda has ``protected or regenerated key elements of its 
Homeland attack capability'' and continues to look for ``prominent . . 
. targets with the goal of producing mass casualties . . .'' As a 
result, the Department must continue to work aggressively to 
investigate and prosecute terrorists, and we must do so effectively and 
efficiently. To that end, the Department has expended substantial time, 
energy, and resources in improving and streamlining the organization 
and operations of its counterterrorism assets. In just two years, the 
Department has created and brought into full operation the National 
Security Division (NSD), which is dedicated to centralizing and 
improving the Department's ability to carry out its primary national 
security functions. Similarly, the FBI has dramatically improved and, 
in some instances, completely recreated its counterterrorism and 
intelligence collection activities. These improved efforts have allowed 
the Department to utilize its resources and its expertise to 
investigate, thwart, and prosecute terrorist conspiracies more swiftly 
and more effectively.
    The importance of the Department's national security efforts is 
reflected in the President's fiscal year 2009 budget, which requests an 
additional $492.7 million to improve the Nation's counterterrorism 
capabilities to investigate, identify, track, and dismantle terrorist 
cells operating in the United States and abroad. Although these funds 
are allocated for numerous programs and policies, I would like to 
discuss three particular priorities in the national security realm: (1) 
providing the National Security Division with the resources it needs to 
continue its successful and critical operations; (2) providing the FBI 
with necessary funding; and (3) creating a critical wireless network 
for law enforcement operations.
National Security Division
    The Department created the National Security Division (NSD) in 2006 
to combat terrorism and other national security threats more 
effectively. NSD has been critical to coordinating the Department's law 
enforcement, prosecution, and intelligence functions in the fight 
against terror. As a result of the nature of its work, the Division's 
successes are not always public. But some efforts are, for example the 
trial and conviction of Jose Padilla in the Southern District of 
Florida, and the indictment and conviction of several individuals who 
sought to profit from illegally providing sensitive national security 
information to China. To ensure the continued viability of this 
important contributor to the Department's counterterrorism efforts, the 
President's fiscal year 2009 budget requests $84 million in total 
resources to maintain the operations of the National Security Division.
Federal Bureau of Investigation
    The men and women of the FBI have provided a visible and vital role 
in protecting the Nation's security. Since the attacks of September 
2001, the FBI has implemented a comprehensive plan that has overhauled 
the FBI's counterterrorism operations, expanded its intelligence 
capabilities, begun to modernize its technology, and improved its 
coordination with federal, state, local, and tribal partners. The more 
than 30,000 agents and professional staff of the FBI work tirelessly to 
protect this country. They do so from 56 domestic field offices and 60 
additional locations around the globe. In recognition of the broad 
scope of the FBI's role in protecting the American people, the fiscal 
year 2009 President's budget requests $7.1 billion for the FBI, an 
increase of 6.77 percent. An investment of $447.4 million will support 
the FBI's intelligence and counterterrorism programs, improve 
surveillance capabilities, guard against and respond to incidents 
involving weapons of mass destruction, protect the security of the 
Nation's cyber systems, and add 280 new agents and 271 new intelligence 
analysts.
    Investigations, intelligence, and surveillance are the key tools in 
the fight against terrorism. The fiscal year 2009 President's budget 
recognizes the importance of the investigative and intelligence arms of 
the FBI with an enhancement of $235.5 million slated for operations 
focused on identifying and analyzing national security and criminal 
threats. This amount includes resources for national security 
investigations; cyber security detection and prevention; and foreign 
intelligence gathering and operations. To meet the expanding demands to 
produce and use intelligence to protect the Nation from threats, an 
additional $43.4 million will be used to strengthen the FBI's 
professional workforce to ensure that it has the critical skills, 
competencies, and training to fulfill the FBI's mission. To support 
surveillance technology, an additional $88.5 million is requested to 
sustain operational requirements, including physical and electronic 
surveillance and collection processing exploitation, analysis and 
reporting.
    Promoting partnerships both here and abroad is critical to the 
success of many initiatives. Since September 11, the Department of 
Homeland Security has supported the establishment of approximately 35 
operational fusion centers. These fusion centers foster information-
sharing between local, state, and federal partners to identify and 
assess emerging threats to the United States. The Department of Justice 
has been an integral partner in these efforts and has dedicated 
personnel and resources to the fusion centers. Together, we have been 
able to leverage existing information-sharing tools and resources. The 
FBI request includes funds to provide secure connectivity to fusion 
centers. Further, our partners in the war against terror extend beyond 
our borders and enhancements totaling $5.7 million will not only 
provide resources for the fusion center program, but also to expand the 
Legal Attache program overseas.
    Finally, the fiscal year 2009 budget seeks additional funds to 
improve the FBI National Academy, one of the premier training 
facilities for law enforcement. An enhancement of $9.8 million is 
requested to augment architectural and engineering services, construct 
roads, and install a new substation to handle an increase in electrical 
power loads. These improvements will address the training facility's 
maintenance issues and allow the FBI Academy to focus on its core 
responsibility of training.
Improved Communications Capabilities
    All of our law enforcement components--especially those involved in 
national security efforts--need wireless communication capabilities 
that will enable them to fulfill their responsibilities. The current 
DOJ radio systems used nationwide are, on average, between 15 and 20 
years old. We must modernize this technology, even though doing so is 
complicated and expensive. When I visited the border in January, I was 
shown how smugglers have better radio equipment than we provide to our 
federal agents. For example, these criminals have deployed car-battery 
operated surveillance equipment to listen to, and track the movement 
of, our law enforcement agents. Such practices put the lives of our 
brave men and women in great danger.
    To date, our funding has essentially just repaired and maintained 
our legacy systems. The fiscal year 2009 budget requests $43.9 million 
for the creation of an integrated wireless network (IWN) in the 
Washington, D.C. area. This network will allow the Department to begin 
modernizing communication technology so that we can effectively and 
securely communicate across the law enforcement community. The IWN will 
provide new equipment, better security, an improved range, and better 
interoperability among the many jurisdictions that protect the National 
Capital area. The Department intends to implement the IWN on a 
nationwide basis over the next several years.
                      southwest border initiative
    Enforcing the Nation's immigration laws and reducing violent crime 
are two of the Department's significant priorities. Earlier this year, 
I had the opportunity to meet some of the prosecutors and law 
enforcement officers who work every day to secure our borders. For 
those who work along the Southwest Border, their job is particularly 
challenging. In addition to functioning as the point of entry of many 
illegal immigrants coming into this country, the Southwest Border is an 
access point for smuggling drugs into, and guns out of, the United 
States.
    Reducing crime along the Southwest Border requires a wide variety 
of personnel, resources, and infrastructure, spanning a number of 
Department components, including the Bureau of Alcohol, Tobacco, 
Firearms and Explosives (ATF), the U.S. Marshals Service (USMS), the 
Drug Enforcement Administration (DEA), and the U.S. Attorney's Offices 
(USAO). Investigators and law enforcement personnel are necessary to 
police the borders and identify and prevent criminal activity, to 
detain those who are arrested, and to prosecute those who have violated 
the law. Moreover, resources are needed for the immigration courts that 
hear a substantial percentage of the matters arising out of the 
Southwest Border. Each element of this chain is essential to preventing 
crime along the Border. Without adequate funding for all of these 
activities, the other activities will suffer. In recognition of the 
continuing importance of securing our Southwest Border, the President 
has requested an enhancement of $100 million for the Department's 
enforcement and prosecution efforts.
    To combat criminal activity on the Southwest Border, the Department 
will invest resources to prosecute criminals and immigration violators 
as well as to combat drug and gun traffickers and gangs. The Department 
is requesting an enhancement of $20.4 million for the DEA that includes 
funding for 30 additional agents. DEA has long played a central role in 
the counternarcotics strategy to combat the violent drug trafficking 
organizations along our border with Mexico. DEA's strong partnership 
with Mexico has led to success in drug seizures, money laundering, 
arrests, and extraditions. This budget request will allow DEA to add 
investigative and support personnel in locations in close proximity to 
the Southwest Border for purposes of targeted enforcement operations in 
the arrival zone. It will also provide funding to support two 
additional foreign-deployed Advisory and Support Teams (FAST) and 
Operation All-Inclusive, the enforcement arm of DEA's Drug Flow Attack 
Strategy.
    The President's budget also requests an enhancement of nearly a 
million dollars for the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF) to address firearms trafficking on the Southwest 
Border. The impact of firearms related violence has already been felt 
on both sides of the border in Laredo, Texas and Nuevo Laredo, Mexico. 
To address such threats, 12 positions are requested to expand ATF's 
ability to provide oversight in the region and to implement a focused 
inspection program to identify straw purchasers, traffickers, and non-
compliant licensees that are often the source of illegal firearms used 
by violent criminals. ATF agents have reported that weapons are 
flooding into Mexico each week from the United States, with a notable 
percentage linked to drug trafficking organizations. This enhancement 
to ATF's budget will help control the current illegal firearms 
trafficking along the Southwest Border.
    Increased enforcement operations will likely lead to an increased 
number of detainees. More detainees means a greater burden will be 
placed on the U.S. Marshals Service, which apprehends fugitives, 
transports and manages prisoners, protects witnesses, serves court 
documents, manages seized assets, and protects federal judges and 
courts. In just one fiscal year, from fiscal year 2006 to fiscal year 
2007, the U.S. Marshals Service prisoner operations along the Southwest 
Border increased by 9 percent, compared to a 2 percent increase in the 
other districts. The President's fiscal year 2009 budget requests an 
additional $12.7 million for 79 new positions, including 58 Deputy U.S. 
Marshals to handle the increased workload expected on the Southwest 
Border.
    An increase in detainees also means an added responsibility for the 
Office of the Federal Detention Trustee (OFDT) to provide more 
detainees with housing, medical and hospital care, guard services, 
transportation and other detention-related services. It is anticipated 
that in fiscal year 2009 OFDT will house more than 200,000 detainees in 
both Federal and non-federal facilities. To accommodate this 
anticipated increase, the President's budget requests an additional 
$37.6 million for OFDT.
    Another $10 million in enhancements will provide much needed IT 
equipment for the Executive Office for Immigration and Review (EOIR)'s 
immigration courts. This new IT equipment will improve court hearing 
records and will support the Immigration Review Information Exchange 
System, which will allow mission critical information to be shared with 
the Department of Homeland Security and other federal agencies. This 
new digital recording system itself will significantly improve the 
audio quality of immigration court hearings and will also allow the 
immigration judges to operate the system through desk-top computers.
    With an increase in detainees and immigration court hearings, comes 
the need for additional prosecutors. To meet this need, the President's 
fiscal year 2009 budget requests an additional $8.4 million for the 
U.S. Attorneys to support 83 new positions, including 50 Assistant U.S. 
Attorneys who will prosecute cases along the Southwest Border. 
Prosecutors will be focused on human smuggling, drug smuggling, 
homicide, robbery, immigration, hostage taking, money laundering, and 
immigration violation cases. To support the additional attorneys, 
paralegals will also be hired to help keep pace with the mounting 
workload which is expected to significantly increase over the 12,000 
felony cases filed in fiscal year 2007. This increase is attributed to 
more Border Patrol agents who are expected to generate an estimated 
24,000 criminal immigration cases during the next two years.
    The remaining Department enhancements for the Southwest Border 
Initiative includes support for the Criminal Division's efforts to 
reduce gang violence; the Office of Justice Programs to provide funding 
for local prosecutor offices in the four Border States (California, 
Texas, Arizona, and New Mexico); and the Organized Crime Drug 
Enforcement Task Force to improve its IT infrastructure and increase 
attorney resources along the Southwest Border.
   supporting essential federal detention and incarceration programs
    Since the beginning of this Administration, the Department has 
successfully increased its enforcement efforts in several key areas. 
These enhanced enforcement efforts have led to significant increases in 
the federal detention and prison populations. For example, through the 
Project Safe Neighborhoods (PSN) initiative, the Department has doubled 
the number of prosecutions for federal firearms crimes over the past 
seven years. As a result of programs such as PSN, the Federal 
government has taken on defendants who would have been prosecuted and 
imprisoned by state and local authorities, resulting in harsher 
penalties. To enable the Department to continue its focus on programs 
such as PSN, the Department requires additional funds to support 
adequate infrastructure to hold those who are arrested and successfully 
prosecuted. The President has requested $67.1 million for the fiscal 
year 2009 budget in order to respond to this need.
    I would also like to take the time to thank the Subcommittee for 
working with the Department so quickly to address the Bureau of 
Prisons' fiscal year 2008 funding needs. There is still more work to be 
done, and your continued support is appreciated.
    Last fiscal year, 7,436 inmates were added to a Federal Prison 
System that was already above rated capacity. As a result, the 
Department needs to increase prison capacity to house the growing 
prison population. The President's fiscal year 2009 budget requests an 
enhancement of $50 million and 16 positions to add 4,000 beds in 
contract facilities to house low security inmates in fiscal year 2009.
    The Bureau of Prisons (BOP) confines offenders in controlled 
environments of prisons and community-based facilities to help protect 
society from those who violate the law. As a result of tighter 
enforcement along the Southwest Border and an increase in conviction 
rates, BOP estimates that more than 13,000 inmates will be added to the 
federal prison system between fiscal year 2008 and fiscal year 2009. To 
prepare and care for these new inmates, an additional $17.1 million is 
requested to meet the managed costs of providing security, food, 
medical care, clothing, utilities, unit management, education, records 
and maintenance. Health care costs alone have risen from $9.16 per 
inmate per day in fiscal year 2001 to $11.91 in fiscal year 2007 for 
the more than 200,000 inmates in the Federal Prison System system, 
which includes 114 minimum, low, medium, and high security facilities.
    The request also includes additional funds to recruit, train, and 
employ essential staff for these facilities. Research has shown that 
when the inmate-to-staff ratio increases so does the number of serious 
assaults. The current BOP inmate population exceeds capacity by 37 
percent. While BOP has increased the number of beds and improved 
architectural designs in newer facilities to take advantage of improved 
technology and security measures, this has not been enough to keep pace 
with the increasing population. In addition, the ratio of staff to 
inmates keeps widening. As a result, filling staff positions that have 
direct contact with inmates is a critical priority.
    It is not only the inmate population that has increased, but also 
the number of pre-sentenced detainees housed in detention facilities. 
The President's fiscal year 2009 budget, as part of the Southwest 
Border Initiative, requests $37.6 million for the Office of the Federal 
Detention Trustee (OFDT) to handle this increase of pre-trial 
detainees.
 supporting our state, local, and tribal partners in the fight against 
                                 crime
    The Nation's safety depends on the combined work of law enforcement 
personnel acting at the federal, state, and local levels. The 
Department significantly values the partnerships it has forged with 
state and local authorities to investigate and prosecute serious 
crimes, including matters of national security. We also understand that 
these partnerships, in some cases, require additional funding to 
support local participation.
    In an effort to utilize its resources and target them effectively 
to the areas of greatest need, the Department proposes consolidating 70 
grant programs into four new competitive grant programs: (1) Violent 
Crime Reduction Partnership Initiative; (2) Byrne Public Safety and 
Protection Program; (3) Child Safety and Juvenile Justice Program; and 
(4) Violence Against Women Grants. Through these combined grant 
programs, more than $1 billion will be available in discretionary grant 
assistance for state, local, and tribal governments.
    The President's budget requests $200 million to fund the Violent 
Crime Reduction Partnership Initiative to provide necessary funding to 
those communities who need assistance in responding to violent crime. 
Many communities continue to struggle with violent crime. To assist our 
local partners, last fall the Department invested $75 million in 106 
jurisdictions to combat violent crime through multi-agency and multi-
jurisdictional partnerships that include at least one federal law 
enforcement agency. The flexibility to meet the needs of those 106 
communities came from the 2007 Joint Resolution, which gave the 
Department discretion in administering crime fighting funds.
    In order to build on the success of that $75 million investment, 
the President's fiscal year 2009 budget requests $200 million for the 
Violent Crime Reduction Partnership Initiative. The Initiative will 
address violent crime through multi-jurisdictional law enforcement 
partnerships like those funded this past fall and will use competitive 
grants to combat a jurisdiction's specific violent crime problems. The 
program is designed to address crimes that range from drug trafficking 
to gang activity and to address the crime problems of both large and 
small communities. In addition to providing necessary funds to those 
localities that need assistance, the program is designed to retain the 
flexibility to adjust to changing trends in criminal behavior.
    In fiscal year 2009, the President has requested $200 million for a 
competitive grant program entitled the ``Byrne Public Safety and 
Protection Program.'' This grant program will address several critical 
concerns that confront many law enforcement agencies and the 
jurisdictions they serve, including reducing violent crime; addressing 
substance abuse; enhancing law enforcement information sharing efforts; 
improving the capacity of law enforcement to use forensic evidence and 
reduce the DNA evidence backlogs; addressing human trafficking; 
expanding prisoner re-entry initiatives; and improving services to 
victims of crime. Both government and non-government entities will be 
eligible to apply for the fiscal year 2009 Byrne program.
    With the advent of new technology, we have seen a devastating 
increase in the number of children that are exploited through the 
Internet. In order to help address this problem, the Department is 
proposing the consolidation of several juvenile justice and exploited 
children programs into one new grant program entitled the ``Child 
Safety and Juvenile Justice Program'' for which the President has 
requested $185 million. This new grant program will be both flexible 
and competitive and will focus on reducing incidents of child 
exploitation and abuse through cybercrimes, improving juvenile justice 
outcomes, and addressing school safety needs.
    The fourth new program is entitled ``Violence Against Women 
Grants'' and $280 million has been requested for this initiative. Like 
the other grant programs, this one also consolidates existing programs 
to allow grantees to request funding through a single application to 
support activities previously authorized under multiple grant programs. 
Whereas the other three grant programs I mentioned will be administered 
by the Office of Justice Programs, this one will be administered 
through the Office on Violence Against Women (OVW). This new grant 
program will continue to emphasize OVW's focus on enhancing 
collaboration, measuring effectiveness, and maintaining a 
sustainability focus related to ending domestic violence, date rape, 
sexual assaults, and stalking.
    In addition to these four consolidated grant programs, the 
President has also requested funds for the Regional Information Sharing 
System (RISS); the Crime Victims Fund, the Bureau of Justice Statistics 
(BJS); and the National Institute of Justice (NIJ).
                               conclusion
    Chairwoman Mikulski, Senator Shelby, and Members of the 
Subcommittee, I want to thank you for this opportunity to present the 
President's fiscal year 2009 budget. As you know, my tenure in the 
Department to date has been brief, but over the past several months my 
knowledge of, and respect for, the men and women who are protecting and 
serving this country has only grown. And it is with your continued 
support that they can continue to do their jobs to ensure that justice 
is served.
    Today I have highlighted critical areas that require attention and 
resources so that the Department can fulfill its mission to enforce the 
Nation's laws and help protect national security. I hope you agree that 
these are worthy investments for fiscal year 2009. As always, we are 
aware that there are tough decisions and challenges ahead and I look 
forward to working with you as we move forward.
    Once again, thank you for inviting me to be here today. I would be 
pleased to answer any questions you may have.

                          TERRORIST WATCH LIST

    Senator Mikulski. There are many questions related to 
national security and also the role of the Justice Department 
in writing certain legal memos related to everything from wire-
tapping and surveillance to torture.
    We note that the chairman of the Judiciary Committee is 
here and we're sure that he's going to have a robust set of 
questions about these issues.
    I have one question related to the investigations 
surrounding the events around 9/11 and it goes like this. After 
9/11, we found out that terrorists came into this country 
because of the failure of the watch list. The watch list failed 
because there were too many of them and they didn't talk to 
each other, so that if you were a watch list, you essentially 
were a dysfunctional situation.
    Now, 6 years after 9/11, the inspector general recently 
reported unacceptable errors in the terrorist watch lists. I, 
the Attorney General, this isn't Senator Mikulski speaking, 
said DOJ law enforcement agencies do not have a functional 
system for reporting names to the terror watch list, for taking 
names off that are inadvertently placed on there or have a 
similar or identical name to someone we have to keep an eye on. 
The report notes that the FBI is delayed in reporting names to 
the watch list by up to 4 months.
    Now, we're part of the DNI's coordinating team, the 
Director of National Intelligence. Would you tell us what role 
your leadership is playing in ensuring that we have a 
functional watch list system?
    Attorney General Mukasey. Well, we're playing two roles. 
One is in attempting to address the concerns that were 
addressed in the inspector general's report that you mentioned; 
that is, getting people on the watch list that belong there and 
getting people off who don't.
    The difficulty, as you mentioned, has to do in part with 
the way names are placed on the watch list and the way names 
are formulated. There are numerous variations in the spelling 
and formulations of particular names.
    Without getting into details, there are various ways of 
spelling a particular name. Each of those may have to be 
entered on the watch list. Each of those may then have to be 
removed. This is not an easy process, but it's one which we are 
addressing, both in getting names on the list as well as----
    Senator Mikulski. But, Mr. Attorney General, I'm just going 
to jump in here. It's been 6 years since 9/11, 6 years. We've 
also had tremendous breakthroughs in technology. We understand 
the difficulties. It's the same difficulty that always existed.
    What are we doing to end the difficulty and what are we 
doing--do you have a set of--do you have a methodology for 
resolving this problem? Do you have time tables for fixing this 
problem? Do we have the right people solving this problem?
    Every time we turn around, we hear about how hard it is to 
do it. We know it's hard. If it would have been easy, it would 
have been done.
    Attorney General Mukasey. The DNI is the principal person 
who is addressing it. He's the principal person with whom I've 
had conversations.
    It's my understanding that there's an attempt to try to 
infuse technology to address this, but the fact is that because 
names are spelled in various ways, it is a difficult thing to 
make sure that we get everybody on that belongs on and then 
when somebody has to get off, get all the various formulations 
of his name off.
    They're trying to use technology to the extent that it can 
be used, but the variations in spelling of the same name which 
may add up to 6, 7, 8, or 10 variations accounts for the size 
of the list and accounts also for the difficulty of getting 
names off.
    Senator Mikulski. Well, in other words, you say it's the 
DNI's job. The DNI says that's the FBI's role and then we're 
back to where we started.
    I really do believe that there has to be a very high-level 
decision with the DNI, you as the Department of Justice, and 
the FBI and Homeland Security to really get these watch lists 
undertaken.

                             VIOLENT CRIME

    But, listen, I have a short amount of time. I want to talk 
about violent crime in our communities. Violent crime continues 
to plague our communities. More than ever, State and local 
governments need help putting more cops on the beat. Yet, when 
we look at the Department of Justice's budget, though there's 
an increase for Federal law enforcement, particularly the FBI, 
this has essentially been funded by restructuring State and 
local law enforcement and also eliminating those programs that 
are important to juvenile justice, the Adam Walsh bill, the 
Violence Against Women Act.
    Fiscal year 2009 eliminates the COPS Program which has been 
used to put more cops on the beat and better prepare them. It 
also restructures and eliminates the Byrne grants.
    Could you tell us, number one, what is the rationale in 
eliminating Byrne grants and eliminating the COPS Program which 
is the cops on the beat, and with the elimination of those 
programs, then how does the Department of Justice want to be a 
partner in fighting the surge in violent crime?
    We seem to be good at fighting the surge in Baghdad. I'd 
like to fight the surge in Baltimore.
    Attorney General Mukasey. There have been spikes in violent 
crime, but I think violent crime generally over the last 
several years is down, thanks to a focused effort using task 
forces to address violent crime issues, and we have tried to do 
that in as focused a way as we can.
    What we've tried to do with State and local grants is to 
put them essentially into four categories: violent crime 
reduction, public safety and protection grants generally, child 
safety and juvenile justice, and violence against women, and 
there's been $200 million allocated to violent crime reduction, 
Byrne public safety and protection, a $185 million for child 
safety and juvenile justice, and $280 million to violence 
against women.
    Those are only the grant programs. Our own efforts in that 
area--and you mentioned enforcing the Adam Walsh Act. We 
continue to enforce the Adam Walsh Act at the same level at 
which it was enforced before.
    You're correct in pointing out that the budget contains no 
enhancement for it, but I would point out that it's continuing 
to be enforced at the level it was before. This is the kind of 
effort that was addressed by it; that is, enforcing laws that 
inhibit and restrict and punish exploitation of children. It's 
something we were doing before the passage of the Adam Walsh 
Act. There are designated deputy U.S. Marshals in each district 
to coordinate Adam Walsh Act enforcement, so that potentially 
those deputy U.S. Marshals in each district can be brought to 
bear on the program as it may exist in that district. That's 
the way we're trying to approach it.
    Senator Mikulski. Well, my time is up. I want to turn to 
Senator Shelby. I fundamentally disagree with these premises. I 
think we need a COPS Program, we need a Byrne Program. Last 
year, we funded violence against women at $400 million. It has 
now been reduced.
    Fundamentally, we need to have more people and also one of 
the great ways to deal with violent crime is through these 
intervention efforts like we have in the Juvenile Justice Block 
Grant Program.
    I'm going to come back to my questions, if there's time 
before the vote, but let me turn to Senator Shelby.

                          EXPLOSIVES DATABASE

    Senator Shelby. Thank you, Madam Chairman. Mr. Attorney 
General, the establishment of the Office for Bombing Prevention 
was created under the jurisdiction of the Department of 
Homeland Security to address terrorist explosive threats and 
for other purposes.
    This proposal contains language that would provide yet 
another explosives database. The Department already has two 
databases with the ATF and the FBI. If the Department of 
Justice already has, and we do, two databases, you do, why is 
it necessary to create yet another explosives database? It 
seems to be duplication there.
    What will the Department of Homeland Security system 
provide that the Department's current systems do not? I guess 
basically how many computer databases with similar information 
do we need before we have so many, because you have two now and 
you're talking about creating another one. Are you familiar 
with that?
    Attorney General Mukasey. Well, I'm familiar with the fact 
because you mentioned it. I can't speak too precisely what 
would be addressed by the DHS database.
    I will say that the ATF and FBI databases, which you 
mentioned, are vital.
    Senator Shelby. They're very important.
    Attorney General Mukasey. And we appreciate your particular 
efforts to focus those and to center them in a facility that 
will enable us to really exploit the information that they 
gather.
    As you know, they are housed in what might perhaps be 
described, not very charitably, as an enhanced garage in 
Quantico and they're going to be moved to a suitable facility 
in Alabama when that's ready and we're deeply appreciative of 
that because they help not only with explosives analysis here 
but also improvised explosive devices (IEDs) that we get sent 
from Iraq and Afghanistan.
    Senator Shelby. Absolutely.
    Attorney General Mukasey. They're very helpful with that.
    Senator Shelby. Well, the FBI's working with the Army on a 
lot of that, are they not, and the ATF, on a lot of these 
explosives and provides explosive devices?
    Attorney General Mukasey. We want to continue that and 
obviously if there's anything that's added by DHS, we're happy 
to accept it. We think the principal effort should be where it 
is, namely with ATF, which does a terrific job, and the Bureau.
    Senator Shelby. Will you get your staff to see what they're 
doing there, and if this is duplication, we need to know?
    Attorney General Mukasey. I certainly will.
    [The information follows:]

 Proposed Creation of a Database Under the Jurisdiction of the Office 
       for Bombing Prevention/DHS With Information on Explosives

    The Department supports a multi-layered defense to 
adequately defend against the threat presented by explosives, 
with each layer reducing the ability of terrorists to acquire 
and use IEDs. Training is an important component in ensuring a 
successful defense against IEDs. The Department is not aware of 
DHS' specific IED training curriculum and cannot comment. State 
and local agencies also offer varied curriculums on IED 
training.
    Department of Justice bomb databases located at ATF and the 
FBI are targeted toward investigation of bombing and analysis 
of explosives cases and forensic information.
    ATF's Bomb Arson Tracking System (BATS) is a case 
management system used by federal, State, and local agencies 
investigating arsons, bombings, and other explosives incidents. 
ATF developed BATS to allow law enforcement agencies to solve 
arson and bombings crimes by tracking and sharing information 
on these cases and to determine national trends and patterns. 
The system provides law enforcement and fire service officials 
with access to information collected in ATF's U.S. Bomb Data 
Center (USBDC), the repository for all domestic bombing 
incidents. The USBDC, with an information management system 
containing more than 140,000 arson and explosives incidents, 
provides intelligence to ensure the highest degree of 
investigative coordination throughout the law enforcement 
community. The USBDC also supports ATF Certified Explosives 
Specialists (CESs) and Explosives Enforcement Officers (EEOs) 
who are assigned to the Department of Defense Combined 
Explosives Exploitation Cells (CEXC) in Iraq.
    EXPeRT is the FBI's document management system and 
electronic reference library for organizing and making 
available for future reference all the documents, reference 
material, photos, and other information related to explosives 
forensic examinations conducted by the FBI Lab Explosives Unit 
and the Department's Terrorist Explosive Device Analytical 
Center (TEDAC). The EXPeRT systems contain searchable tables of 
information on explosives components such as detonators or 
detonating cord, evidence chain of custody data, or other 
tables of information that can be linked to the documents and 
photos in the system based on case ID or other user established 
criteria. EXPeRT is used within the FBI to share case data and 
reference material that support forensic exams and 
investigations, within TEDAC in the DOJ/DOD/INTEL Community to 
share information.
    The DHS Office for Bombing Prevention (OBP) database 
referenced in proposed legislation already exists as the 
National Capability Database (NCAD). The DHS database collects 
and shares information about federal, state, and local law 
enforcement and emergency service capabilities including bomb 
squad, dive teams, explosives detection canine teams, and SWAT 
teams. State and local planners use NCAD to identify gaps and 
apply ``best practices'' to improve their security posture and 
develop multi-jurisdiction plans to respond to emergencies.

                             ADAM WALSH ACT

    Senator Shelby. Thank you. The Adam Walsh Act, Mr. Attorney 
General, as you know, was enacted on July 27, 2006. The act 
directs the Attorney General, you, sir, to use the resources of 
Federal law enforcement, including the U.S. Marshals Service, 
to assist jurisdictions in locating and apprehending sex 
offenders who violate sex offender registration requirements.
    The act also deems as a fugitive any sex offender who 
violates a sex offender registration requirement.
    The President's budget that I mentioned earlier does not 
appear to sufficiently request Marshals Service funding 
specifically for implementation of the Adam Walsh Act and this 
is troubling to a lot of us.
    Based on the President's budget request, should this 
subcommittee be concerned that the Department is inadequately 
prioritizing the need to identify and apprehend absconders from 
the sex offender registry, given that the risk of recidivism 
among the pedophiles and sex offenders is so high?
    Attorney General Mukasey. I think, given the Department's 
historic commitment, which really antedates the Adam Walsh Act, 
to enforcing crimes of violence against children, as well as 
the presence in each district of coordinating deputy U.S. 
Marshals, should provide some reassurance to the subcommittee. 
I agree that we have to be vigilant about the use of resources 
to make sure that, to the extent the function of the U.S. 
Marshals Service is to apprehend fugitives and that's part of 
the mandate, that they address the fugitives from this 
registration program and fugitives who commit child molestation 
offenses generally. That's a scourge and that's always been a 
priority of the Justice Department historically and will remain 
so.
    Senator Shelby. How committed are you as the Attorney 
General, and you head up the Justice Department, to use Federal 
law enforcement, including the Marshals Service, of course, to 
apprehend sex offenders?
    Attorney General Mukasey. Senator, I visited the National 
Center for Missing and Exploited Children in Alexandria and I 
recommend that to anybody who hasn't seen it because it's a 
life-changing experience.
    We have deputy U.S. Marshals there full time who receive 
information and get it out to the law enforcement authorities 
who can use it to apprehend these people. We are and remain 
very committed and we're happy for your support because we 
share that concern.
    Senator Shelby. There are a number of Adam Walsh provisions 
expiring in fiscal year 2009 and they include the following. 
Given the landmark importance of the Adam Walsh Act and its 
many provisions, has the Department at this point contemplated 
a legislative plan regarding these expiring provisions and, if 
not, will you and will you get back with us?
    Attorney General Mukasey. I will get back to you. I am not 
particularly familiar with those. I know that we're trying to 
fund the ongoing ones and to make sure that our deputy U.S. 
Marshals address the problem that you mentioned.
    [The information follows:]
                             Adam Walsh Act
    Below is a list of the expiring provisions of the Adam Walsh Act. 
At present the Department is still evaluating the necessity (utility?) 
of each and anticipates working with authorizing and appropriations 
committees to ensure that all relevant (necessary?) provisions remain 
in force before they expire.
    Expiring sections of the Adam Walsh Act:
  --126--Sex Offender Management Assistance (SOMA) Program
  --142--Federal assistance with respect to violations of registration 
        requirements
  --621--Pilot program for monitoring sexual offenders
  --623--Sex offender apprehension grants; juvenile sex offender 
        treatment grants
  --625--Grants to combat sexual abuse of children
  --631--Jessica Lunsford Address Verification Grant Program
  --632--Fugitive safe surrender

    Senator Shelby. Thank you.
    Senator Mikulski. Thank you very much. It was a whole line 
of questioning that I had hoped we would ask. It's a very 
serious issue.
    Senator Leahy, also the chairman of the Judiciary 
Committee.
    Senator Leahy. Thank you very much. Attorney General, good 
morning.
    Attorney General Mukasey. Good morning.

                             VIOLENT CRIME

    Senator Leahy. Beginning with your immediate predecessor, 
Attorney General, we have seen the rate of violent crime go up 
during the past 2 years.
    Senator Mikulski has already gone into this to some extent, 
but I, too, am thinking about this because last month Senator 
Specter and I had a field hearing in Rutland, Vermont, about 
small cities and towns and rural crime, and the impact of drugs 
and violence on them. These are cities and towns that can't 
fight such kind of crime. It's totally different than what 
they're used to. We have Federal programs that funded State and 
local enforcement--the COPS Program, Byrne-JAG Program, Crime-
Free Rural States Program--that brought down crime 
considerably.
    The administration has tried to dismantle these, to 
eliminate them. You announced earlier this year $200 million in 
new Federal assistance for State and local law enforcement. 
That didn't even begin to make up for the billions that are 
being cut.
    I have a difficulty explaining to people in Vermont why we 
can spend over $20 billion on the Iraqi Police Force and then 
we don't even know what happened to their weapons, we don't 
know where much of the money went, but we have to cut money for 
a police force in America to pay for a police force in Iraq. 
And what do I say to them? Are we going to find monies that are 
going to come back to our own police forces, this money that's 
been cut, or do we have to just continually send it to the 
Iraqi Police Force?
    Attorney General Mukasey. I can't address the question of 
whether money in Iraq is being used effectively or not being 
used effectively.
    What I can say is that we----
    Senator Leahy. Trust me, it's not from every hearing we've 
had, but go ahead.
    Attorney General Mukasey. I don't know about that. I've 
visited Iraq, and I saw the rule of law efforts that are being 
made by our people there and by their people there.
    Senator Leahy. We still can't find a whole lot of the 
handguns we sent over there. We have no idea what happened to 
them.
    Attorney General Mukasey. It's a war zone, and I understand 
that things happen in a war zone that don't happen in a peace--
--
    Senator Leahy. We have found some of them and they've been 
used against us, against our forces. Go ahead.
    Attorney General Mukasey. The--we continue to believe in 
the use of the task force approach toward fighting crime, 
particularly toward fighting methamphetamine, which is an 
increasing scourge, particularly in our rural areas, and we've 
had great success with that.
    We believe that organizing the grant allocation program the 
way that I described initially is the best way to make use of 
scant resources. We're not pretending that less money is more 
money, but we're trying to use it as intelligently as we can.
    Senator Leahy. Well, let us work together and work with 
members of both sides of the aisle here because we've found 
success in the COPS Program and other programs like that, 
because with them crime did come down. They are now being cut 
out and crime's going up. I think there's more than a 
corollary.
    I would also hope that all these inquiries being made, by 
whether this committee or the Judiciary Committee, that are not 
being answered, will be answered. We've had no answers to 
questions we asked after a hearing weeks ago.

                          MONITORSHIP PROGRAMS

    I'll tell you one I'm especially interested in. I asked 
months ago about the lucrative no bid contracts awarded to 
former political appointees at the Justice Department for 
monitoring compliance with settlements and deferred prosecution 
agreements in criminal cases.
    According to press reports, these contracts include one 
funneled by former New Jersey U.S. attorney, Christopher 
Christy, to his former boss, Attorney General Ashcroft's 
consulting firm, worth somewhere between $28 million and $52 
million. The story on the front page of yesterday's New York 
Times suggests that the Department could use these agreements 
in the subprime mortgage investigations. Many are concerned 
that that's nothing more than a get out of jail free card for 
corporations.
    Any chance that I might get an answer to the questions I 
asked 3 months ago about who got these contracts, their 
amounts, and how they were rewarded and implemented?
    Attorney General Mukasey. Well, I'm aware of your 
correspondence and it will be responded to, but I can answer 
some of your questions now in the order in which you asked 
them.
    [The information follows:]

                            No-bid Contracts

    On May 15, 2008, the Department submitted a letter to 
Senator Leahy in response to his letters of January 10 and 
February 26, 2008. The May 15 letter addresses the issues 
raised in this question, including the process by which 
monitors are selected. In particular, as noted in the May 15 
letter, the current policy governing the selection and use of 
corporate monitors is set forth in a memorandum dated March 7, 
2008, from Acting Deputy Attorney General Craig S. Morford, 
entitled ``Selection and Use of Monitors in Deferred 
Prosecution Agreements and Non-Prosecution Agreements with 
Corporations'' (the ``Monitor Principles''). Section II of that 
memorandum describes key aspects of monitor selection, 
including oversight. Among other things, monitor candidates 
must be considered by a committee, and the Office of the Deputy 
Attorney General must approve the monitor.
    The Monitor Principles are designed to ensure that the 
monitor selection process produces a high-quality and conflict-
free monitor. Political and personal favoritism have no place 
in this process. Toward that end, the Monitor Principles 
require, among other things, that (a) Government attorneys must 
be mindful of their obligation to comply with existing 
conflict-of-interest guidelines; (b) the Government must create 
a committee in the Department component or office at issue to 
consider monitor candidates; (c) United States Attorneys and 
Assistant Attorneys General may not make, accept, or veto the 
selection of monitor candidates unilaterally, and (d) the 
Office of the Deputy Attorney General must approve the monitor.

    Attorney General Mukasey. The issue of grants to 
monitorship programs was addressed in a March memorandum to all 
United States attorneys setting forth best practices. It 
includes a requirement that the Deputy Attorney General monitor 
who is appointed by a United States attorney. These are--I 
should add that the compensation under a monitorship program 
comes not from public funds but comes from the corporation 
that's being monitored.
    Senator Leahy. I understand that. Mr. Attorney General, I 
think we're going to have to have another hearing on this 
because people are losing their pension funds, they're losing 
their homes and they're losing their investments, and we want 
them to know that somebody's not being given a sweetheart deal. 
That's why I urge you to answer.
    My time is virtually up, but I would like to ask one more 
question and feel free to answer what you want on this.

                          PRE-9/11 PHONE CALL

    You recently gave a speech at the Commonwealth Club, at 
which you made reference to a pre-9/11 phone call from 
Afghanistan to the United States. Here's what you said. This 
was an open meeting. ``That's the call we didn't know about. We 
knew there'd been a call from someplace that was known to be a 
safe house in Afghanistan, and we knew that it came to the 
United States. We didn't know precisely where it went.'' You 
indicated the failure to intercept this was responsible for the 
deaths of more than 3,000 people on September 11. You also 
suggested that we didn't intercept this phone call because the 
Foreign Intelligence Surveillance Act prevented it.
    I've gone back through the 9/11 Commission report. Nobody 
else seems to have known about this call you made or that----
    Attorney General Mukasey. I didn't make the call.
    Senator Leahy. Hmm?
    Attorney General Mukasey. I didn't make the call. I 
mentioned it.
    Senator Leahy. No, you mentioned the call, but nobody else 
seems to know about this.
    So, can you tell me what the circumstances were on that and 
why somebody would have stopped it because nobody else seems to 
know about this call from Afghanistan? You talked about it.
    We do know about the Department of Justice failing to even 
listen to their own FBI agents who told them about these 
hijackers were learning to fly--Agent Bill Kurtz, among 
others--have said so--and were told we've got this under 
control. We know that the Department of Justice wanted to cut 
the budget on counterterrorism on September 10. We know that a 
lot of those signals were missed, but nobody seems to know 
about this phone call you talked about.
    Attorney General Mukasey. The phone call I referenced in--
by the way, it was not in the speech. It was a question and 
answer session following the speech, relates to an incoming 
call that is referred to in a letter, dated February 22 of this 
year, from the DNI and me to Chairman Reyes of the House 
Intelligence Committee, with copies to principal members and 
the chairman of the Senate Intelligence Committee.
    The underlying reference is contained in a joint 
intelligence report of the House Intelligence Committee and a 
Senate Intelligence Committee. I'm happy to provide you with a 
copy of that reference.
    Senator Leahy. Would you, please?
    [The information follows:]
              Information Regarding a Terrorist Phone Call
    The Department has previously clarified the details of the 
intelligence collection discussed by the Attorney General and provided 
additional information in a letter dated April 10, 2008 from Principal 
Deputy Assistant Attorney General Brian Benczkowski to Chairmen Conyers 
and Scott, a copy of which was sent to Chairman Leahy, among others. A 
copy of that letter and associated attachments is attached for the 
Committee's review:

    Dear Chairmen Conyers, Nadler, and Scott: This responds to your 
letter of April 3, 2008, in which you discuss press reports regarding a 
question and answer session following a speech on public corruption 
where the Attorney General, in response to a question, discussed the 
Administration's effort to work with Congress to modernize the Foreign 
Intelligence Surveillance Act of 1978 (FISA).
    In his remarks, the Attorney General discussed a pre-September 11, 
2001, intelligence collection under Executive Order 12333 of 
communications between a terrorist facility abroad and one of the 9/11 
hijackers. The Attorney General and the Director of National 
Intelligence have discussed this particular intelligence collection 
before, in a joint letter they sent to Chairman Reyes on February 22, 
2008. In that letter, which is enclosed for your convenience, the 
Attorney General and the Director of National Intelligence (DNI) 
explained that because of the nature of the collection, the 
Intelligence Community missed the opportunity to identify the domestic 
end of the communication prior to September 11, 2001. This episode is 
also referenced in the report of the Joint Inquiry by the Senate and 
House Intelligence Committees into the 9/11 attacks. Some of the 
confusion regarding the Attorney General's remarks may have arisen from 
the details provided by the Attorney General of the nature and location 
of the terrorist facility. We note that while the Attorney General 
referenced a communication between a 9/11 hijacker and a location in 
Afghanistan, he was, in fact, referring to communication between a 9/11 
hijacker and a terrorist facility located in a different country. Apart 
from your questions concerning the particulars of the response the 
Attorney General provided at the Commonwealth Club, your letter appears 
to question the very premise for the joint congressional and executive 
branch effort over the past year to modernize FISA. We believe there is 
a broad bipartisan agreement among Members of Congress that FISA has 
become outdated in large part because of changes in communications 
technology and the nature of national security threats facing the 
country in the past thirty years. This mutual understanding led to the 
passage of the Protect America Act last year and underlies the 
continued bipartisan effort to place HSA modernization on a long-term 
footing. Your letter, for instance, asks whether a FISA order could 
have been required in 2001, to intercept a communication with a 
terrorist suspect overseas. Prior to the passage of the Protect America 
Act, our intelligence officials were frequently required to seek a 
court order based upon probable cause to target the communications of 
terrorists located overseas; indeed, this requirement, which was 
discussed extensively both in public hearings and in closed session, 
was the primary impetus for the Executive Branch's efforts to modernize 
FISA. As the Attorney General and the Director of National Intelligence 
explained in their letter of February 22:
    . . . HSA's requirements, unlike those of the Protect America Act 
and the bipartisan Senate bill, impair our ability to collect 
information on foreign intelligence targets located overseas. Most 
importantly, FISA was designed to govern foreign intelligence 
surveillance of persons in the United States and therefore requires a 
showing of ``probable cause'' before such surveillance can begin. This 
standard makes sense in the context of targeting persons in the United 
States for surveillance, where the Fourth Amendment itself often 
requires probable cause and where the civil liberties of Americans are 
most implicated. But it makes no sense to require a showing of probable 
cause for surveillance of overseas foreign targets who are not entitled 
to the Fourth Amendment protections guaranteed by our Constitution. Put 
simply, imposing this requirement in the context of surveillance of 
foreign targets located overseas results in the loss of potentially 
vital intelligence by, for example, delaying intelligence collection 
and thereby losing some intelligence forever. In addition, the 
requirement to make such a showing requires us to divert our linguists 
and analysts covering al-Qa'ida and other foreign threats from their 
core role--protecting the Nation--to the task of providing detailed 
facts for FISA Court applications related to surveillance of such 
foreign targets. Our intelligence professionals need to be able to 
obtain foreign intelligence from foreign targets with speed and 
agility. If we revert to a legal framework in which the Intelligence 
Community needs to make probable cause showings for foreign terrorists 
and other national security threats located overseas, we are certain to 
experience more intelligence gaps and miss collecting information.
    We are also enclosing public testimony from a senior Justice 
Department official explaining why FISA, prior to the passage of the 
Protect America Act, often required a court order to surveil overseas 
intelligence targets.
    Your letter also inquires why FISA's emergency provisions were not 
an adequate substitute for the authorities the Government has obtained 
under the Protect America Act (Public Law 110-55). This issue has also 
been repeatedly addressed by the Executive Branch, most recently in the 
February 22 letter:
    You imply that the emergency authorization process under FISA is an 
adequate substitute for the legislative authorities that have lapsed. 
This assertion reflects a basic misunderstanding about FISA's emergency 
authorization provisions. Specifically, you assert that the National 
Security Agency (NSA) or the Federal Bureau of Investigation (FBI) 
``may begin surveillance immediately'' in an emergency situation. FISA 
requires far more, and it would be illegal to proceed as you suggest. 
Before surveillance begins the Attorney General must determine that 
there is probable cause that the target of the surveillance is a 
foreign power or an agent of a foreign power and that FISA's other 
requirements are met. As explained above, the process of compiling the 
facts necessary for such a determination and preparing applications for 
emergency authorizations takes time and results in delays. Again, it 
makes no sense to impose this requirement in the context of foreign 
intelligence surveillance of targets located overseas. Because of the 
hurdles under FISA's emergency authorization provisions and the 
requirement to go to the FISA Court within 72 hours, our resource 
constraints limit our use of emergency authorizations to certain high-
priority circumstances and cannot simply be employed for every foreign 
intelligence target. The fact is that not every threat meets the 
emergency exception because many do not appear to be emergencies until 
it is too late. Indeed, the job of the Intelligence Community is to 
obtain intelligence information that permits us to act before an 
emergency arises, and our intelligence professionals should be 
authorized to obtain intelligence information in an expeditious and 
efficient manner. Given the catastrophic nature of the threats we face 
from foreign terrorists abroad, the Government should not be forced to 
wait for an emergency before it can take steps to gather information 
needed to prevent these terrorists from creating such an emergency. It 
is quite easy to say, after the fact, that the Government could have or 
should have used FISA to conduct surveillance of a particular overseas 
intelligence target. If the Government had the requisite probable cause 
before the fact and could have met the remaining legal requirements of 
FISA (and known that this particular target among numerous others would 
turn out to be so important), that might have been possible. But doing 
so comes at the price of diverting analysts from their primary purpose 
of tracking terrorist and other foreign threats to drafting probable 
cause determinations every time they become aware of a new target or 
that target acquires a new method of communication. Considering the 
sheer volume of foreign intelligence targets abroad and the speed and 
agility with which the Intelligence Community must react, this 
process--as we have learned from experience--is simply not sustainable. 
This, of course, begs the policy question currently before the 
Congress: namely, why would we willingly impose these requirements, 
which impede and at times can prevent effective intelligence 
collection, on the government when it targets foreigners overseas? As 
discussed in the letter to Chairman Reyes quoted above, although the 
probable cause findings required by FISA make a great deal of sense 
when we target people in the United States, they do not with respect to 
foreigners in foreign lands. We hope that this letter and the 
enclosures are responsive to your recent letter and help you understand 
the critical need for FISA modernization. The passage of legislation to 
modernize FISA--like the bipartisan bill passed overwhelmingly by the 
Senate--will help ensure that the Intelligence Community has the tools 
it needs to protect the Nation.
            Sincerely,
                                      Brian A. Benczkowski,
                       Principal Deputy Assistant Attorney General.

    Attorney General Mukasey. One thing--the one thing I got 
wrong was the geography. It did not come from Afghanistan. I 
got the country wrong. But other than that, it was spot on, and 
I will be happy to provide you with the page.
    The point to be made there was not that we could not have 
monitored their visa but rather that no visa application should 
have been necessary to monitor a foreign target in a foreign 
country. I was speaking generally to the desirability of 
getting a bill passed. As you know, we've had a lot of trouble 
with that.
    But I'd be happy to get you the reference. You're right. 
It's not in the 9/11----
    Senator Leahy. We don't need visas to monitor foreign 
source.
    Attorney General Mukasey. We shouldn't need it.
    Senator Leahy. We didn't need it then and we don't today. 
Thank you, Madam Chairwoman.
    Senator Mikulski. Thank you very much. Senator Feinstein.

                CUTS TO STATE AND LOCAL LAW ENFORCEMENT

    Senator Feinstein. Mr. Attorney General, I just want you to 
know I totally agree with what Senator Mikulski said. In 13 
years on this committee, 15 years in the Senate, have never had 
more letters from local law enforcement in the State of 
California of deep concern and here is why.
    Your budget cuts local and State law enforcement by 65 
percent and since 2002, the administration has slashed the 
grant programs for State and local law enforcement by 85 
percent or $3.2 billion.
    This is enormous. I am having chiefs of police throughout 
the State of California tell me they're unable to fill the 
FBI's investigative gap. It's a very serious situation.
    In California, 22 drug task forces are going to end if this 
budget is pursued, and I think not to fund, to slash, to cut 
out both COPS and Byrne-JAG is an impossible situation for 
local law enforcement, and this cannot be left to stand.
    So, clearly, we've got our job to do in this area, but I 
want to ask you a question about John Mew's OLC memos.

                     OFFICE OF LEGAL COUNCIL'S MEMO

    On April 1, 2008, the DOJ released a March 2003 Office of 
Legal Counsel (OLC) memo written by John Mew. That memo 
asserted that President Bush had unlimited power to order 
brutal interrogations to exact information from detainees. The 
memo references, on page 8, footnote 10, another OLC memo 
written by John Mew in October 2001. In this memo, the OLC 
concluded that the Fourth Amendment had no application to 
domestic military operations. To date, your Department has 
refused to declassify and release this memo.
    Is the October 2001 OLC opinion still considered binding by 
the Department of Justice?
    Attorney General Mukasey. That opinion was withdrawn 9 
months after it was issued. It is not.
    Senator Feinstein. So it is not?
    Attorney General Mukasey. Correct.
    Senator Feinstein. It is not operative?
    Attorney General Mukasey. Correct.
    Senator Feinstein. Since when has it not been operative?
    Attorney General Mukasey. Since December 2000--you say this 
is the March 2003 memo?
    Senator Feinstein. This is a March 2003 memo.
    Attorney General Mukasey. Has not been----
    Senator Feinstein. It's the--it's basically the October 
2001 memo.
    Attorney General Mukasey. I can't speak to the October 2001 
memo, but the March 2003 memo was withdrawn 9 months after it 
was issued.
    We are aware of Congress' ongoing interest in this matter 
and oversight interest in this matter and proper interest in 
this matter and we're looking for ways to meet Congress' 
legitimate interest and our own regard for both the equities of 
other agencies that are involved with these memos as well as 
preserving a deliberative process within the Department that 
doesn't result in every piece of advice becoming the subject of 
public debate.
    We're trying to work with Congress to arrive at ways to 
meet your legitimate oversight which we recognize with the 
release of the 2003 memo.
    Senator Feinstein. If you'll excuse me, this isn't a 
question of oversight. I'm just asking you, is this memo in 
force, that the Fourth Amendment does not apply to the domestic 
military?
    Attorney General Mukasey. The principle that the Fourth 
Amendment doesn't apply in war time is not in force.
    Senator Feinstein. It--no. The principle that I asked you 
about, does it apply to domestic military operations? Is the 
Fourth Amendment today applicable to domestic military 
operations?
    Attorney General Mukasey. I don't know of any domestic 
military operations being carried out today.
    Senator Feinstein. I'm asking you a question. That's not 
the answer. The question is, does it apply?
    Attorney General Mukasey. I'm unaware of any domestic 
military operations being carried out today. In order for me 
to----
    Senator Feinstein. You're not answering my question.
    Attorney General Mukasey. The Fourth Amendment----
    Senator Feinstein. Is this memo binding today?
    Attorney General Mukasey. The Fourth Amendment applies 
across the board, regardless of whether we're in war time or 
war peace time. It applies across the board.
    Senator Feinstein. Thank you. Appreciate that. Thank you, 
Madam Chairman.
    Senator Mikulski. That's a pretty important answer.
    Senator Feinstein. Yes, it is, bearing in mind what the 
history of this is.
    Attorney General Mukasey. With due respect, I don't think 
it's--there's anything new about the answer because the 
discussion of which that was a part goes to the suggested 
inapplicability of the Fourth Amendment as an alternative basis 
for a finding that searches discussed there would be 
reasonable.
    But in any event,----
    Senator Feinstein. But Mr. Mew's contention was that the 
Fourth Amendment did not apply and that the president was free 
to order domestic military operations.
    Attorney General Mukasey. Without regard to the Fourth 
Amendment?
    Senator Feinstein. That's correct.
    Attorney General Mukasey. That's not my under----
    Senator Feinstein. And you're saying that is not operative?
    Attorney General Mukasey. That is not----
    Senator Feinstein. That is not binding?
    Attorney General Mukasey. To my understanding, that is not 
applicable.
    Senator Feinstein. Thank you very much. That's what I 
wanted to know.
    Thank you, Madam Chairwoman.
    Senator Mikulski. Well, that's something. We're glad to 
hear you say that. That's something somebody should have told 
Mr. Rumsfeld.
    Attorney General Mukasey. Respectfully, I don't think it's 
news.
    Senator Mikulski. Well, Senator Feinstein and I are also on 
the Intelligence Committee and Senator Shelby also once chaired 
it as well as membership and I'm on it now, and there's a lot 
of issues related to that which we believe now have come to an 
end, but we're deeply troubled by.
    Senator Feinstein. Madam Chairman, if this is true, I have 
a hard time understanding why the Department of Justice will 
not declassify that memo.
    Senator Mikulski. Did we ask for it?
    Senator Feinstein. We have asked for it. Chairman Leahy has 
asked for it on several occasions and we can't seem to spring 
it loose.
    Attorney General Mukasey. And that was one of the memos 
that was the subject of my statement that we are trying to 
figure out ways of making sure that portions of the memos are 
provided in a way that allows the oversight needs and equities 
of Congress to be served and yet recognizes the equities of 
other agencies that may be involved here, wholly apart from the 
Department, as well as our interests in preserving the 
deliberative processes, such that people can give us the 
benefit of their thinking without having their thinking then 
become the subject of the congressional hearings simply because 
they offered an idea.
    Senator Feinstein. I think we appreciate that. If I may 
just, Madam Chairman, this memo becomes a linchpin. It's a very 
important memo and in Intelligence, we've been unable to obtain 
it. In Judiciary, we've been unable to obtain it.
    I appreciate that you're trying to do it and I hope the 
decision will be forthcoming shortly.
    Attorney General Mukasey. And by trying to do it, I mean 
actively trying to do it. I don't mean it's down in some pile 
of papers. It's at the top. It's a priority of mine.
    Senator Feinstein. Well, may I ask this? When might we 
receive it?
    Attorney General Mukasey. When people asked me when I was a 
judge when a case is going to be decided, my usual response was 
if I knew that precisely, I would already have decided it. I'm 
going to try to do it as quickly as I can and I recognize that 
there's a degree of urgency about this. I have a great deal of 
urgency about it. I am not--my interests are not served by 
having this drag on.
    Senator Feinstein. Thank you. Thank you, Madam Chairman. I 
appreciate it.
    Senator Mikulski. I have a few questions. Mr. Attorney 
General, I have a few more, and I don't know if my colleagues 
do before the vote begins.

                     DEPARTMENT OF JUSTICE FUNDING

    Let me tell you the intent of the subcommittee working this 
all on a bipartisan basis. We're going to need your help with 
the Office of Management and Budget (OMB). First of all, when 
we pass our bill, we want to be sure that there's adequate 
funds to operate the Department of Justice with the highest 
level of personnel, not only in terms of volume but in terms of 
quality, and also to acknowledge what we call the worker bees 
at the Justice Department, those faithful people, those 
professional civil servants that every day are implementing the 
antitrust laws, the civil rights laws, issuing grants, et 
cetera.
    Second, we want Federal law enforcement to be adequately 
funded. That's the FBI, DEA, the Marshals Service, and the ATF. 
Senator Shelby has raised issues about the Marshals Service. We 
know the FBI does very well. We're concerned about the adequacy 
of DEA and the ATF.
    Then there's also the other pillar in local, which is our 
relationship with State and local law enforcement, and their 
involvement with the community.
    Now, that means that we really want to restore the funding 
to the Byrne grants and the COPS Programs. We really do want to 
do that, and it has wide bipartisan support. I've received 
numerous letters from senators asking us to do that.
    Where senators do ask for earmarks, it's usually around 
fighting gangs, fighting meth, and more technology to make them 
more effective. That's what the earmark is and usually they go 
to earmarks because the grants didn't work.
    Then there are those other issues related to either 
prevention or response. That's the juvenile justice block 
grants and then it is the violence against women which is not 
only to respond to sexual assault and domestic violence. Those 
two things are in and of themselves crucial, but it's also the 
prevention program, the kinds of things that must go on at so 
many levels, particularly against girls, which goes on in 
schools, which young boys often in communities where there's no 
father, no constructive male role model, need to occur, and 
it's unique.
    I remember when the wall came down and new emerging 
democracies came, they wanted to see how a national justice 
department worked with the community because they were used to 
KBG-type stuff. This was fantastic.
    So, this brings us to what we need to do. I met with a 
group called Surviving Parents. These are parents of children 
who endured the most heinous of crimes. These were children 
that were kidnapped, bullishly abused and in some instances 
murdered.
    Now let me tell you what they asked for. They asked for, 
first of all, U.S. Marshals to track down predators. Senator 
Shelby has just been a stalwart supporter in us working 
together on that. The other thing that they asked for was this. 
This was the lapse in technology when DOJ transfers sexual 
predator technology to a new system.

                       SEXUAL PREDATOR TECHNOLOGY

    Let me go to my question because, in addition to more 
marshals to go after the predators, technology is our friend 
and we understand there's been a very creative and effective 
program in Wyoming, actually very cost effective, that has been 
used to identify over 500,000 unique computers that are 
involved in the trafficking of repugnant movies and images of 
children, and I don't even want to identify the crimes against 
the children. They're just too despicable for civilized 
conversation.
    Essentially what we're worried about is DOJ's going to get 
a new technology system. Wyoming has been working well and we 
want to be sure that no child or no microchip falls between the 
cracks.
    So, my question to you, because Wyoming has such a great 
program and has been working so well and was developed in such 
a cost-effective way, can you promise me that the Wyoming-based 
system will be fully supported and funded until such time as an 
equal or better system is in place, so that no matter what, 
we've got this technology working with local law enforcement to 
protect against the trafficking against images which in and of 
themselves, the images, the photographs taken all indicate the 
most vile, the most vile of child abuse?
    Attorney General Mukasey. I want to respond both to your 
question and to one point in your preliminary comments.
    As far as the Wyoming project, what we are trying to do is 
transfer that highly innovative technology which is terrific to 
what's called the RISS System, which is a national system that 
allows intercommunication between and among various law 
enforcement agencies. So what we are trying to do is to get 
that very good innovative technology that was developed in the 
Wyoming project transferred to a national system and we hope to 
try to do that.
    Senator Mikulski. But in the meantime, are we going to keep 
Wyoming, the Wyoming model going, both operational and funded?
    Attorney General Mukasey. We are going to try to do that 
and try to----
    Senator Mikulski. Try, try, try, try. Pardon me. We 
appreciate the effort, but can we have your word that this, the 
Wyoming model, will stay operational until such time as the new 
model moves online?
    Attorney General Mukasey. I have no reason to believe that 
it won't and you have my word that it has my priority. Those 
you have.
    Senator Mikulski. Well, I accept your word. We want to 
continue to work with your staff. The third--yes, sir? Did you 
want to comment?

                      JUSTICE DEPARTMENT EMPLOYEES

    Attorney General Mukasey. One comment about the general 
quality of people of the Justice Department. I can't lose an 
opportunity to point out that the quality of the people at the 
Justice Department is, person for person, the highest of any 
group of lawyers that I've ever worked with. That's true of the 
career people. That's true of political appointees as well and 
that's what keeps us and me going.
    Senator Mikulski. What keeps you going?
    Attorney General Mukasey. Their ability and their 
commitment.
    Senator Mikulski. Right. Well, we don't dispute that. We 
want them to have the resources that they need. What we're 
concerned about is that the bean counters at OMB to fund FBI, 
which FBI should be funded, they've got really swell programs 
and eliminated them, and we're running a zero sum gain all to 
play let's pretend that we're going to balance the budget. 
That's what we're concerned about.
    We believe in the Justice Department in the sense that we 
believe in those folks, just like we believe in these programs. 
These aren't programs. We're not for the program. We're for the 
outcome of the program and it's how to do it. We were very, 
very, very disturbed last year when we had done an absolutely 
bipartisan bill to run into the President's veto threat. So, we 
had to meet a veto gun. We had to cut $3 billion out in this 
subcommittee. That's where we shave funds from things like weed 
and seed and juvenile justice block grants. We're for your 
Department. We wish OMB was. We really do and that's not laying 
it at your doorstop. You've come in. You're righting the ship. 
You're trying to do a good job. We have a great deal of respect 
for you, Mr. Attorney General, but OMB has to believe in this 
Department as much and we're very frustrated about it and 
that's what we're trying to get to.
    Senator Shelby, did you want to say something?
    Senator Shelby. I just have another question for the 
Attorney General.

                                 RADIOS

    In March 2007, the inspector general reported that of the 
30,000 Department of Justice radios, 79 percent are not airwave 
compliant, 95 percent lack federally mandated security, and 73 
percent are obsolete. That's troubling.
    The report found that this failure to upgrade the 
Department of Justice's components and antiquated 
communications represent an unnecessary risk to the safety of 
agents, among other things.
    I've heard cost estimates to seriously address this issue 
are in the $20 billion range, which seems high but it's a lot 
of money.
    Do you have any idea or do you have any numbers on what it 
would cost to upgrade the Department and make it compliant?
    Attorney General Mukasey. What we're asking for in the 
budget is $70 some odd million to do the, frankly, spit and 
bailing wire repair on the current system.
    Senator Shelby. Just keep it going?
    Attorney General Mukasey. Keep it going. But we've also 
asked for roughly $45 million for new interoperable radios that 
allow us to communicate in an encrypted way so that the bad 
guys aren't listening in on police band radios, so that we can 
do it in an effective way.
    We're on to the problem, and we've--that's the funding that 
we've asked for to help us to at least begin doing that.
    Senator Shelby. Are current communications, Mr. Attorney 
General, are the systems in compliance with the presidential 
narrow band mandate and the National Institute of Standards and 
Technology security guidelines?
    Attorney General Mukasey. I can't speak to that. I'll get 
back to you on that.
    [The information follows:]

              Compliance of Current Communication Systems

    No. The DOJ Inspector General's report on IWN from March of 
2007 estimated that 21 percent of the Department's radios are 
compliant with presidential narrowband mandates and 5 percent 
are capable of meeting NIST security guidelines. Since March of 
2007, the limited funds have been prudently used to improve 
narrowband compliance to 30 percent and NIST security 
compliance to 15 percent.

    Senator Shelby. And is the IWN, I-W-N, Seattle pilot 
project a feasible model for the future?
    Attorney General Mukasey. We believe it is a feasible model 
and that's the one that we're asking to have funded.
    Senator Shelby. Will you get us some information again on 
that?
    Attorney General Mukasey. I will get you as much 
information as I can. That's the one we've been working on. 
That's the one we want.
    [The information follows:]

         Information Regarding the Integrated Wireless Network

    The Seattle Blaine pilot is a feasible model for major 
metropolitan areas with high federal agent user densities. 
Areas of high user densities typically coincide with scarcity 
of spectrum resources. While the relative spectral efficiency 
of trunking radio technologies can be debated in remote or low-
density rural areas, high user-density areas always benefit 
from the implementation of trunking technologies.
    A few design criteria from the Seattle Blaine pilot have 
been re-evaluated and probably would not be implemented 
nationwide. The criteria include radio tower site improvements 
and backhaul redundancy. While overall system reliability in a 
trunked system is improved, nationwide implementation may be 
too costly. Selective application of redundancy at the most 
vulnerable system nodes, and site improvements commensurate 
with the equipment being installed would be the two major 
deviations from the Seattle Blaine model.
    The differences in ease-of-use between conventional and 
trunking radio are substantial. The WMO continually receives 
positive feedback from users on the Seattle Blaine IWN system 
regarding usability and roaming capabilities. The use of 
trunking technologies is not an explicit stated requirement for 
IWN, however, we feel the minimal incremental cost (estimated 
to be 30 percent) is well worth the significant improvement in 
radio usability and roaming capabilities for many areas, 
especially in urban settings.

    Senator Shelby. Mr. Attorney General, I know you'd be 
concerned, but in the event of another attack, absent 
communications interoperability, which is so important, how 
will the Federal law enforcement officers communicate with each 
other? There's got to be--that's got to be a high priority for 
you.
    Attorney General Mukasey. Only with great difficulty.
    Senator Shelby. So this--to make the interoperability and 
modernize the whole communications system is a high priority 
with the Department?
    Attorney General Mukasey. It is a very high priority.
    Senator Shelby. Okay. Thank you, Madam Chair.
    Senator Mikulski. As always, you're very insightful, 
Senator Shelby. I mean, it's 7 years after 9/11. We should at 
least be able to talk to each other.
    Senator Shelby. Absolutely.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Mikulski. Just like the watch list. Well, if there 
are no further questions this morning, Senators may submit 
additional questions for the subcommittee's official record. We 
request the Department's response within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
            Questions Submitted by Senator Patrick J. Leahy
                           corruption in iraq
    Question. You recently traveled to Iraq in February to view first 
hand the Justice Department's efforts at establishing the rule of law 
in that country. According to press accounts, you said, and I quote: 
``I'm encouraged by the work that's being accomplished here . . . My 
assessment is that the Iraqis are firmly committed to the notion of the 
rule of law.''
    But I recently chaired an Appropriations Committee Hearing on 
fraud, waste, and abuse in Iraq, and the testimony at that hearing made 
it absolutely clear that corruption in Iraq is rampant, and corruption 
remains among the most serious obstacles to progress in that country. 
At the moment, there are more than three thousand pending corruption 
investigations in Iraq, involving more than $18 billion lost to fraud, 
yet the Iraqi government has passed laws and taken other legal actions 
to immunize its public officials from prosecution and protect those 
engaged in corruption.
    The Special Inspector General for Iraq Reconstruction, the Jones 
Commission, and the Baker-Hamilton Commission have all been critical of 
the Administration's lack of effort to improving the Iraqi justice and 
police system, yet you say you are ``encouraged'' by what is being 
accomplished in Iraq.
    Do you believe that corruption persists as a very serious problem 
in Iraq and undermines the rule of law there?
    Answer. We do believe that corruption persists as a serious problem 
in Iraq and that corruption of any kind undermines the Rule of Law.
    The Prime Minister and other senior Iraqi officials have publicly 
announced their determination to tackle this problem. Corruption is a 
hidden crime in which individuals in positions of power or influence 
are able to extract for themselves benefits that should be reserved for 
the public. It is no secret that during the Saddam regime, corruption 
was a way of life for Saddam himself, his family, and favored officials 
under him. These practices are inconsistent with a democracy and with 
the Rule of Law because they deny the law the opportunity to govern all 
actions of the state. Instead, they relinquish that power to those 
willing to pay. This impropriety is obviously true when a corrupt 
official's action violates the law, but it is equally true when the 
corrupt official takes an action that would otherwise have been 
permitted by the law.
    For example, current Iraqi law requires amnesty for many Iraqi 
prisoners who have been convicted of or charged with certain crimes. We 
have heard widespread allegations that at some local police stations, 
processing the necessary paperwork would only happen if the detainee's 
family produced a substantial bribe. The corrupt act, of course, is not 
releasing the prisoner, which the law permits and requires; it is 
delaying that action and making it contingent on private payment, when 
the law guarantees it as of right. By contrast, the Iraqi government 
has recently made some high-level arrests in which the evidence 
suggests that officials released individuals under the guise of the 
amnesty statute when, in fact, their crimes were so serious that the 
law did not authorize their release.
    The Rule of Law (not to mention the security of the Iraqi people 
and our troops) is undermined when criminal justice matters proceed in 
any way other than according to the law itself. The same is true for 
run-of-the-mill corruption matters, such as no-show jobs at ministries 
or the diversion of government resources to friends or family of 
officials. In these cases, as well, self-interest rather than the law 
is what governs the actions of the state. When the people perceive that 
actions of any sort are taken for these reasons, they justifiably doubt 
the integrity of the government, and their own commitment to obeying 
the law inevitably declines.
    Question. Exactly what do you find to be encouraging about the 
current efforts to combat corruption in Iraq?
    Answer. As made clear above, we certainly agree that corruption is 
a very serious problem and that Iraq has a long road ahead of it before 
it can tackle that problem. Nevertheless, we believe that it is slowly 
getting better, rather than worsening.
    We are guardedly optimistic because the Government of Iraq, often 
with the assistance and encouragement of the United States, has taken 
substantial steps to transition to a regime in which corruption is 
identified and targeted. It bears repeating that under the previous 
regime, whose final breaths ended barely five years ago, corruption was 
a staple. We are all anxious that Iraq shed any remnants of that prior 
regime, including corruption, but as with every other problem, the 
Iraqi people must work their way through this one.
    They appear to be engaged in this process. A few of the reasons we 
are encouraged include:
  --The Commission on Integrity, Iraq's principal anti-corruption 
        investigative agency, has nearly 300 investigators, all of whom 
        have been trained by Department of Justice contract trainers 
        and funded by the Department of State. The Commission has 
        launched more than five thousand corruption investigations. The 
        Commission has plans to expand the number of investigators by 
        more than a third.
  --A number of recent arrests of government officials demonstrate that 
        investigators and judges are willing to risk even their 
        personal safety by finding and prosecuting corruption.
  --The judiciary is plainly stepping up to the plate. The well-known 
        case against the former Deputy Minister of Health generated an 
        acquittal in early March. The fact that the case was heard at 
        all was an important victory for the independence of the 
        judiciary and the message that corruption and illegal 
        government action would be pursued. But even more significant 
        is that the Chief Prosecutor has appealed the dismissal of the 
        charges to the Court of Cassation.
  --Police salaries have been increased, which will in turn increase 
        professionalism and decrease perceived needs to accept illegal 
        gratuities. The Directorate of Internal Affairs in the Ministry 
        of Interior (MOI), which supervises the police, opened 6,652 
        cases in 2007 against MOI employees, and 1,112 of them were 
        fired. Others were otherwise disciplined.
  --In January, Prime Minister Maliki issued an eighteen-point anti-
        corruption program and has given international attention to 
        anti-corruption efforts--for example, he highlighted them in 
        his speech at the International Compact with Iraq meeting in 
        Stockholm in May.
  --New draft laws are pending in the Council of Representatives to 
        better govern the chief anti-corruption entities in the Iraqi 
        government (the Commission on Integrity, the Board of Supreme 
        Audit, and the Directors General from the various ministries).
  --At least some parts of the government appear to be taking proactive 
        measures to reduce opportunities for corruption. Chief Justice 
        Medhat al-Mahmoud, whom the statute made responsible for 
        administering the nationwide system for adjudicating claims for 
        amnesty, recognized the likelihood that detainees and their 
        families would face demands for bribes throughout the process. 
        He therefore crafted extraordinarily simple claims forms of 
        only a single sheet of paper and made them widely available, 
        allowing not only detainees but their families to obtain forms 
        at courthouses throughout Iraq. He allowed the forms to be 
        distributed where they would most likely reach those in need, 
        including within prisons. From the very beginning, his view was 
        that if the forms were readily available, they would have no 
        value on the corruption mill. Since the completed forms were 
        then to be given directly to the courts, another opportunity 
        for corruption was squeezed out. Although this is only one 
        small example, it is an encouraging sign that the government 
        recognizes the problem and is trying to address it.
  --In March the Government of Iraq signed and ratified the U.N.'s 
        Convention Against Corruption which obligates the country to 
        take action against corruption.
    Question. Is it encouraging that the Maliki government passes laws 
to protect public officials from investigation?
    Answer. We are not aware of any law that the Maliki government has 
passed with the aim of protecting public officials from investigation. 
There is a provision of the Criminal Procedure Code which allows 
Ministers to stop investigations of all types including corruption. Our 
Embassy continues to urge the Government to rescind this provision but 
it remains on the books. The Department of Justice defers to the 
diplomatic efforts of our Embassy in this regard.
    Question. Specifically, what is the Justice Department doing to 
combat the corruption problem in Iraq?
    Answer. The Department of Justice's efforts in Iraq are aimed at 
strengthening Iraq's Rule of Law institutions. The Department of State 
has created a separate entity at the U.S. Embassy in Baghdad, the Anti-
Corruption Coordination Office (ACCO), which is charged with 
coordinating anti-corruption activities and policies. Anti-corruption 
principles are a key ingredient of any society living under the Rule of 
Law, so all Department of Justice employees in Iraq are fully aware 
that the Department of Justice mission includes assisting ACCO.
    There are some specific ways in which the Department of Justice is 
attempting to do that. The International Criminal Investigative 
Training Assistance Program (ICITAP) provides capacity building, 
training, and technical assistance, along with equipment and 
specialized training for Iraq's Commission on Integrity. The Federal 
Bureau of Investigation investigates alleged corruption involving the 
U.S. government (which affects both the Iraqi and the American people) 
and, through its work with the Major Crimes Task Force, helps Iraqi law 
enforcement investigate illegal behavior of Iraqi public officials. 
Department of Justice personnel across Iraq work closely to help build 
the capacity and enhance the integrity of the courts.
                              bullet lead
    Question. More than four months ago, in a letter I sent to you that 
remains unanswered, I expressed my concerns that flawed bullet lead 
analysis done by the FBI for many years may have led to wrongful 
convictions. The National Academy of Sciences issued a report in 2005 
discrediting bullet lead analysis, and the FBI stopped conducting 
bullet lead testing that same year. Over the last two years, however, 
the Justice Department has not taken steps to find or correct the cases 
where it was misused. As a former judge, I am sure you share my fear 
that this faulty forensic evidence may have been introduced in the 
estimated 2,500 cases where it was used. In my letter in November, I 
asked you to provide the Judiciary Committee with the list of cases 
where FBI bullet lead analysis was used, and to advise the Committee 
what steps you've taken to correct any unjust convictions resulting 
from bullet lead analysis.
    Please state whether you have taken any action in response to my 
letter and explain your response.
    Answer. As is discussed in more detail in the response to your 
November 2007 letter to the Attorney General, in 2005 the FBI sent to 
the National District Attorney's Association, the National Association 
of Criminal Defense Lawyers, the Innocence Project, and approximately 
300 agencies letters outlining the FBI's decision to discontinue these 
examinations. The letters were sent so the recipients could take 
whatever steps they deemed appropriate to ensure no one was convicted 
based on inappropriate bullet lead testimony.
    The FBI has committed to review all testimony provided by FBI 
Laboratory personnel in bullet lead cases that resulted in convictions 
in order to determine whether they testified within the scope of the 
science. Because the FBI performed bullet lead examinations for 
approximately 40 years, we cannot readily produce a list of all cases 
in which bullet lead analysis was performed. Because FBI laboratory 
personnel who conducted bullet lead examinations also conducted other 
types of forensic tests, the FBI has to examine all files worked by the 
universe of examiners who conducted bullet lead analysis. That process 
is ongoing. As of mid-May 2008, the FBI had identified approximately 
1,270 cases (covering the period of 1975 to 2004) in which bullet lead 
analyses resulted in ``positive'' results that may possibly have formed 
the basis of trial testimony.
    As the FBI Director has testified, the FBI will be working with the 
Innocence Project (IP) to ensure all appropriate parties are notified. 
Specifically, as the FBI identifies cases in which bullet lead analysis 
was performed, we will provide to the IP the FBI file number, the names 
of the contributor and prosecutor and their contact information, 
contributor and prosecutor file numbers, the FBI Laboratory examiner's 
name, the defendant's name, and the FBI's assessment of the 
appropriateness of the testimony provided. The FBI will also offer the 
IP copies of the transcripts received from prosecutors. By providing a 
dual notification track (that is, notification to both the prosecutor 
and the IP), the FBI is confident that appropriate notification will be 
made to any defendant who was or may have been adversely affected by 
inappropriate FBI bullet lead testimony.
    Question. When can I expect a response to my letter?
    Answer. DOJ is completing its response to the letter and will be 
transmitted to your office presently.
    Question. According to press accounts, the FBI agreed in November 
to provide a list of all cases where bullet lead analysis was used to 
the Innocence Project in order to begin working to identify cases where 
there may be problems.
    Please state whether you support this collaborative effort and 
explain your response.
    Answer. In an FBI press release on November 17, 2007, the FBI 
announced that it has undertaken an additional round of outreach, 
analysis, and review efforts concerning bullet lead analysis. This has 
included joint work with the Innocence Project, which has done legal 
research to identify criminal cases in which bullet lead analysis has 
been introduced at trial.
    The Department of Justice, including the FBI, takes this issue very 
seriously, and we are developing procedures to ensure that appropriate 
disclosures are made to the relevant parties. Thereafter, the parties 
involved can make an assessment of the effect of any potentially 
erroneous testimony.
    Question. Has anyone in the Justice Department taken any steps to 
support or oppose this agreement between the FBI and the Innocence 
Project?
    Answer. Please see the response to subpart a, above.
                          unanswered questions
    Question. As of May last year, the Justice Department reported to 
the Judiciary Committee that there was only one FBI agent assigned to 
Iraq and one assigned to Kuwait to investigate significant contracting 
fraud. Since May 2007, has the Justice Department assigned more full-
time FBI agents or other federal investigators to work on contracting 
fraud cases in Iraq and Afghanistan? If not, why not?
    Answer. The FBI currently has Special Agents (SAs) deployed in 
Iraq, Afghanistan, and Kuwait to provide full-time support to the 
International Contract Corruption Initiative, which addresses major 
fraud and corruption in the war and reconstruction efforts in Iraq and 
Afghanistan. These deployments are conducted in 120-day rotation cycles 
and SAs work jointly with the Defense Criminal Investigative Service, 
Army Criminal Investigation Command Major Procurement Fraud Unit, 
Special Inspector General for Iraq Reconstruction, and U.S. Agency for 
International Development, who also have agents deployed to address 
this crime problem. The FBI's overseas assignments in direct support of 
this multi-agency initiative are as follows: one SA in Kuwait; one 
Assistant Legal Attache and two SAs in Iraq; and two SAs in 
Afghanistan.
    Question. In November, I sent you a letter expressing my concerns 
that flawed bullet lead analysis done by the FBI for many years may 
have led to wrongful convictions. As you know, the National Academy of 
Sciences issued a report in 2005 discrediting bullet lead analysis, and 
the FBI stopped conducting bullet lead testing that same year. But over 
the last two years, the Justice Department has not taken steps to find 
or correct the cases where it was misused. As a former judge, I am sure 
you share my fear that this faulty forensic evidence may have been 
introduced in the estimated 2,500 cases where it was used. Two months 
ago, I asked you to provide the Judiciary Committee with the list of 
cases where FBI bullet lead analysis was used, and to advise the 
Committee what steps you've taken to correct any unjust convictions 
resulting from bullet lead analysis. When can I expect a response to my 
letter? Have you taken any action in response to my letter?
    Answer. Please see the response to Question 1, above.
    Question. According to press accounts, the FBI agreed in November 
to provide a list of where all bullet lead analysis was used to the 
Innocence Project in order to begin working to identify cases where 
there may be problems. Do you support this collaborative effort? Has 
anyone in the Justice Department taken any steps to support or oppose 
this agreement between the FBI and the Innocence Project?
    Answer. Please see the response to Question 2, above.
                      e-mail and e-mail retention
    Question. Have you begun any review of the White House's policies 
on e-mail and e-mail retention?
    Answer. No.
    Question. Have you investigated whether in the implementation of 
those policies there has been noncompliance with laws requiring 
retention of White House records that belong to the American people?
    Answer. We are not aware of any facts that would warrant a criminal 
investigation. The Presidential Records Act is not a criminal statute.
    Question. Are you going to inquire as to whether there has been an 
intentional effort to avoid those laws and Congressional oversight?
    Answer. We are aware of no facts that would suggest that such an 
inquiry would be warranted.
    Question. At last week's oversight hearing, you would not agree 
with me that waterboarding an American citizen anywhere in the world is 
torture and illegal. Under what circumstances or with what 
justifications would you consider waterboarding an American not torture 
and not illegal?
    Answer. As the Attorney General stated during his appearance before 
the Committee, because waterboarding is not among the practices 
currently authorized for use in the CIA program, we do not believe that 
it would be appropriate to answer categorically questions concerning 
the legality of waterboarding absent a set of circumstances that call 
for those answers.
    Question. While the Nisoor Square killings have drawn the most 
publicity, those shootings were not an isolated event. Blackwater 
forces have a documented history of shootings in Iraq where civilians 
have been seriously injured and killed. There were two other shooting 
incidents in the same month as the Nisoor square killings, where five 
civilians were killed and fifteen more were wounded. Since 2005, there 
have been nearly 200 other shootings by Blackwater guards in Iraq, and 
in more than 160 of those incidents, the Blackwater guards fired first. 
Is the Justice Department's investigation limited to the Blackwater 
killings in September, or will the Justice Department also investigate 
the other shooting incidents by Blackwater and other private security 
contractors in Iraq? If not, why not?
    Answer. As a general matter, the Department does not comment on 
referrals made to it by other Departments, including State and DOD. In 
addition to being law enforcement information that the Department 
generally does not disclose publicly, referral numbers paint an 
incomplete picture and raise law enforcement sensitive questions that 
the Department is unable to answer.
    Question. How many full time prosecutors and agents at the Justice 
Department are assigned to investigate criminal allegations against 
private security contractors overseas? What steps have you taken to 
make sure that shooting incidents by private security contractors in 
Iraq and Afghanistan are aggressively investigated and prosecuted?
    Answer. Most MEJA cases involving private security contractors are 
initially investigated by the Department of Defense or the Department 
of State. Department of Justice agents and prosecutors do not typically 
become involved until those Departments refer a given case to the 
Department of Justice for criminal prosecution. When MEJA cases are 
referred to the Department for prosecution, the Department assigns 
agents and prosecutors as needed from the FBI, the offices of the 
United States Attorneys, and the Criminal Division.
    The Department is committed to investigating and prosecuting 
criminal acts committed by private security contractors overseas. To 
that end, we continue to work with the Departments of Defense and State 
to ensure that there are clear procedures for those Departments to 
identify and, where appropriate, to refer for prosecution allegations 
of criminal misconduct involving private security contractors. We are 
also working with the Congress to explore legislative amendments that 
would increase the USG's ability to hold private security contractors 
accountable under federal law.
    Question. According to press accounts, on January 24, 2008, a 
federal grand jury in Alexandria issued a subpoena to New York Times 
reporter Jim Risen reportedly seeking information about his 
confidential sources for a chapter in his 2006 book, ``State of War'' 
focusing on the CIA's alleged efforts to infiltrate and destabilize 
Iran's nuclear program. Mr. Risen's book also expanded on his reporting 
about the Administration's warrantless wiretapping for which he and 
another New York Times reporter won the 2006 Pulitzer Prize. Under the 
Department's guidelines, a subpoena to the media must be approved by 
the Attorney General. Did you approve this subpoena? What process was 
followed by the Department in considering whether to subpoena Mr. 
Risen?
    Answer. Because Federal Rule of Criminal Procedure 6(e) imposes a 
secrecy requirement on all pending Grand Jury investigations, we cannot 
answer any questions pertaining to a specific Grand Jury subpoena or 
specific Grand Jury proceedings. We can say, however, that the 
Department's internal guidelines concerning media subpoenas, reprinted 
at 28 CFR 50.10, set out the specific factors to be considered before 
issuing a subpoena to a member of the media and require Attorney 
General approval before any such subpoena is issued.
    Question. The Department's time-honored guidelines, set forth in 
the Department's ``red book''--its guidebook on ``Federal Prosecution 
of Election Offenses''--were revised under the outgoing, discredited 
leadership group to turn the traditional practice of not bringing last-
minute investigations and actions on its head. The policies in the new 
``green book'' provide great latitude for the Department to influence 
the outcomes of elections. We learned of this shift last year and were 
made aware of its dangers in investigating the actions of interim U.S. 
Attorney Bradley Schlozman, who replaced fired U.S. Attorney Todd 
Graves and brought election-eve indictments in a highly contested 
election in Missouri. What steps are you and the Department taking to 
make sure that there is no repeat of this type of conduct?
    Answer. This question includes several components, which we address 
separately. As an initial matter, earlier this year, the Attorney 
General circulated a memorandum to all Department employees emphasizing 
the Department's existing policies with respect to political 
activities. The memorandum reiterated that ``politics must play no role 
in the decisions of federal investigators or prosecutors regarding any 
investigations or criminal charges.'' The Attorney General has also 
reiterated this message personally on numerous occasions in his 
meetings with Department personnel.
    With respect to the question, there was nothing improper about the 
timing of the registration fraud indictments in Missouri. Evidence 
submitted to the Department reflected that the subjects had submitted 
numerous bogus voter registrations to a get-out-the vote organization. 
No voters needed to be interviewed; the Department's consultation 
procedures for such matters were followed; and the charges did not 
violate the Department's policy against interfering with an ongoing 
election. This policy focuses on the timing of investigations of 
alleged voter fraud--not the timing of filing charges that have already 
been investigated--and discourages overt criminal investigation during 
the period immediately prior to an election or on Election Day in order 
to avoid chilling lawful voting activity or interjecting a criminal 
investigation into an ongoing campaign.
    Simply stated, the Department's 1995 election crime manual was 
revised because it was out of date. The main authors of the 2007 manual 
are two career prosecutors in the Criminal Division's Public Integrity 
Section. These senior prosecutors are the Department's experts on 
election crimes and collectively have over sixty years of experience in 
the investigation and prosecution of election fraud and campaign 
financing crimes. The updated draft went through several revisions by 
its authors. After review and approval by the Section and Criminal 
Division, the manual was forwarded to other Department components prior 
to publication. Its authors received no substantive suggestions from 
anyone outside the Criminal Division.
    The 2007 manual incorporates the landmark changes enacted by 
Congress in the Bipartisan Campaign Reform Act of 2002 (BCRA), and 
especially the enhanced criminal penalties for campaign financing 
crimes included in these reforms. It also incorporates the Department's 
renewed commitment to addressing election fraud and campaign financing 
crimes that is exemplified by the Department's Ballot Access and Voting 
Integrity Initiative. The initiative was created in 2002 to increase 
the Department's efforts to protect voting rights and deter and 
prosecute election crimes, and recognizes that it does little good to 
protect a person's right to vote if that person's vote is subsequently 
diluted or eliminated by fraud.
    As in other areas of criminal law enforcement, the effect of 
vigorous and impartial enforcement of the federal statutes 
criminalizing various types of election crimes is likely to extend 
beyond the defendants charged in specific cases and deter others who 
are considering similar conduct. While this deterrence is not capable 
of measurement, it remains an important societal and governmental goal. 
Congress also has recently recognized the importance of deterring 
crimes. See BCRA  314(b)(1) (mandating a new sentencing guideline for 
campaign financing crimes that would reflect ``the need for appropriate 
and aggressive law enforcement action to prevent such violations''). 
The 2007 manual also incorporates the Department's additional 
enforcement experiences prosecuting election crimes over the past 
decade, and recognizes that there are situations where prosecution of 
an individual act of election fraud or campaign fraud may be warranted. 
Rather than providing what is in essence a blanket immunity for an 
individual who commits a federal crime, this approach allows 
prosecutive decisions to be made on a case-by-case basis, as is the 
case in other areas of criminal law enforcement.
    Moreover, there has been no substantive change in the Department's 
policy regarding noninterference with elections. For over two decades, 
the Public Integrity Section and its Election Crimes Branch have 
counseled United States Attorneys' Offices against taking overt 
criminal investigative measures involving alleged election fraud, such 
as interviewing voters or issuing grand jury subpoenas for ballot 
documents, until the election in question has been concluded and its 
results certified. This policy reduces the risks of chilling legitimate 
voting, interfering with the administration of elections by the states, 
or transforming a criminal investigation into a campaign issue by 
appearing to legitimize unsubstantiated allegations. Rather than being 
``watered down'' or weakened, the text was expanded in the updated 
manual to provide additional guidance and assistance as a result of the 
Department's ongoing criminal enforcement efforts in this area.
    Election crimes strike at the heart of our democratic form of 
government and the Department is committed to the vigorous and 
impartial enforcement of the federal criminal statutes enacted by 
Congress to combat these serious crimes.
    Question. One of the most disturbing features of the Justice 
Department in this Administration has been the complicity of the 
Department's supposedly independent and impartial Office of Legal 
Counsel in providing secret legal memoranda defining torture down to 
meaninglessness, excusing warrantless spying on Americans contrary to 
our laws and, more recently, justifying the absolute immunity of White 
House employees from Congressional subpoenas without reference to a 
single legal precedent. Jack Goldsmith, a conservative former head of 
the Office of Legal Counsel who found many of these opinions to be 
``deeply flawed and sloppily reasoned'' rescinded several of the most 
extreme of them, only to see some reinstated in other forms after his 
departure. In response to questions from Senator Schumer at your 
confirmation hearing, you committed to this Committee that you would 
conduct a review of OLC opinions in several areas, including detention 
policies, interrogation policies, and policies relating to warrantless 
wiretapping. Have you conducted this review and in what areas? If not, 
why not?
    Answer. As the Attorney General committed in his letter to the 
Committee, dated October 30, 2007, he has reviewed the Office of Legal 
Counsel's legal analysis of practices that are currently authorized for 
use in the CIA's interrogation program. The Attorney General has found 
those practices to be lawful and has found the Office's analysis and 
conclusions concerning those practices to be correct and sound. The 
Attorney General has not found it necessary to go further and to review 
Office of Legal Counsel opinions, or portions of those opinions, that 
do not address matters currently before him.
    Have you determined that any OLC opinions are suspect? If so, what 
action have you taken?
    Answer. No, the Attorney General has reviewed the Office of Legal 
Counsel's legal analysis of practices that are currently authorized for 
use in the CIA's interrogation program. The Attorney General has found 
those practices to be lawful and has found the Office's analysis and 
conclusions concerning those practices to be correct and sound.
    Question. Congress cannot legislate in the dark. With this 
Committee, in particular, that means we must know how the Executive 
Branch interprets the law on critical national security issues. Yet 
this Administration has steadfastly refused to provide the Congress 
with key opinions from the Office of Legal Counsel on electronic 
surveillance and their interpretation of the laws on torture. Will you 
commit to providing this Committee, under appropriate security 
protections, the OLC legal opinions that we have been requesting for 
years and that we require in order to fulfill our constitutional 
responsibilities?
    Answer. The Administration has made extraordinary accommodations in 
recent months to accommodate Congress' interest in these matters. 
Highly classified opinions concerning the Terrorist Surveillance 
Program have been made available to, among others, the Intelligence and 
Judiciary Committees of both Houses of Congress. As to the CIA's 
interrogation program, the Intelligence Committees briefed on both the 
classified details of and the legal basis supporting the program, and 
unclassified briefings also have been provided to Congress. Since the 
Attorney General's testimony, the Administration has further 
accommodated congressional interest in this subject by making available 
to the Intelligence Committees the classified OLC opinions on the CIA 
program. In addition, the Administration has made available to the 
Judiciary Committees three of those opinions, with limited redactions 
necessary to protect intelligence sources and methods.
    Question. In 2004, Congress passed and the President signed the 
Justice for All Act. That bipartisan bill included the Innocence 
Protection Act, a piece of legislation I worked on for years providing 
important reforms to help reduce the risk of error in capital cases. A 
key component of that Act was a grant program for post-conviction DNA 
testing. The program is named in honor of Kirk Bloodsworth, the first 
death row inmate exonerated as a result of DNA testing. To ensure that 
other innocent people avoid the ordeal Mr. Bloodsworth went through and 
that the guilty are caught and convicted, it is crucial that states 
receive the funding authorized and appropriated for the Bloodsworth 
program. Instead, the Department of Justice has interpreted the very 
reasonable evidence preservation requirements that Congress included 
for this program so stringently, and contrary to Congress' intent, that 
all applications to the program have been rejected and not a dime has 
been awarded. This Committee held a hearing last month on this issue, 
and the Department's representative assured us that he would work to 
award the grant money that has been sitting unused these past three 
years. Will you make sure that the Department does everything it can 
this year to get the money appropriated to the Bloodsworth program out 
to the states that can use it for good?
    Answer. Yes. In the fiscal year 2007 postconviction DNA 
solicitation, in accordance with section 413 of the Justice for All Act 
and the fiscal year 2006 and fiscal year 2007 appropriations, 
applicants were required to demonstrate compliance with certain 
stringent eligibility requirements set by section 413. Language in this 
year's (fiscal year 2008) appropriation has the effect of allowing the 
Department of Justice's National Institute of Justice (NIJ) to ease the 
section 413 requirements with respect to funds appropriated for fiscal 
year 2006-fiscal year 2008. The fiscal year 2008 solicitation--which 
was posted on January 22, 2008, and updated in response to concerns 
expressed in connection with a Senate hearing--accordingly eases the 
requirements of section 413, in a manner that we believe remains 
consonant with the policy objectives of section 413.
    Question. Congress gave the Department an out in this year's 
appropriations bill that allows the Department to loosen the 
requirements for the Bloodsworth program. Will you nonetheless make 
sure that the Department does not ignore Congress's clear intent that 
states be held to reasonable standards of evidence preservation since 
money for DNA testing does no good if the evidence is not there to 
test?
    Answer. The fiscal year 2008 solicitation eases the requirements in 
a manner that we believe remains consonant with the policy objectives 
of the statute. Under the fiscal year 2008 solicitation to establish 
eligibility, the chief legal officer of the State must certify that the 
State ``[p]reserves biological evidence secured in relation to the 
investigation or prosecution of a State offense of forcible rape, 
murder, or nonnegligent manslaughter under a State statute, local 
ordinances, or State or local rules, regulations, or practices, in a 
manner intended to ensure that reasonable measures are taken by all 
jurisdictions within the State to preserve such evidence.'' We believe 
that this requirement, which includes language derived generally from 
section 413 of the Justice for All Act itself, calls for a meaningful 
certification. We will rely on the chief legal officer of each State to 
accurately assess whether the certification properly can be made based 
on the State's particular circumstances. We note that the certification 
template explicitly states that ``I am aware that a false statement in 
this certification may be subject to criminal prosecution, including 
under 18 U.S.C.  1001.''
    Moreover, the fiscal year 2008 solicitation for these funds puts 
States on notice that funding in future fiscal years may be contingent 
on the more stringent requirements regarding evidence retention 
established by section 413 of the Justice for All Act. In addition, 
through the DNA and Coverdell programs, NIJ provides significant 
assistance to States and units of local government to purchase 
equipment and other resources to provide for retention of biological 
evidence. Finally, NIJ is studying the extent of evidence preservation 
in DNA laboratories generally to identify ways to improve evidence 
storage practices.
    Question. The Judiciary Committee's hearing last month also looked 
into Inspector General Glenn Fine's highly critical review of the 
Department's implementation of the Coverdell grant program for forensic 
improvements. The Justice for All Act required that states receiving 
money under the Coverdell program certify that they have an independent 
entity to investigate allegations of serious negligence or misconduct. 
Inspector General Fine's report found many problems with the 
Department's implementation of this provision. Perhaps most 
astonishing, he found that the Department has taken the legal position 
that, while agencies must certify they have an independent entity where 
they can refer allegations of misconduct or serious negligence by 
forensic labs, the agencies have no obligation to actually refer such 
allegations for investigation. So they need to have a process, but they 
do not need to use it. This is clearly contrary the bi-partisan intent 
of Congress in the Justice for All Act. Why would the Justice 
Department would take a legalistic position that is so clearly contrary 
to the intent of the Justice for All Act?
    Answer. The Department of Justice agrees that allegations of 
serious negligence or misconduct in forensic programs should be 
appropriately investigated. In its recent fiscal year 2008 solicitation 
for the Coverdell program, the National Institute of Justice strongly 
encouraged the reporting of allegations of serious negligence or 
misconduct to the appropriate government entity. The Department is 
currently working collaboratively with the Office of the Inspector 
General to further clarify, in the best way possible, the grantees' 
responsibilities when they receive allegations of serious negligence or 
misconduct.
    Question. Do you agree with me that the Justice Department must 
encourage the reporting of serious allegations of lab misconduct for 
investigation in order to ensure that any federally-funded forensic 
labs have the highest level of integrity?
    Answer. Yes, the Justice Department believes that allegations of 
serious negligence or misconduct should be appropriately investigated. 
Beginning with the upcoming fiscal year 2008 solicitation, Coverdell 
program solicitations will strongly encourage the reporting of this 
misconduct.
    Question. What are you proposing for rural areas and the smaller 
cities where crime has risen the most?
    Answer. DOJ is committed to providing the technical assistance 
necessary to ensure that applicants need not employ professional grant 
writers to successfully compete for funding. But more, objective 
criteria such as crime rates allow communities and grantees to compete 
on equal footing.
    This has been borne out in practice. A total of 18 sheriffs offices 
were funded in the fiscal year 2007 Targeting Violent Crime Initiative 
Program--all that applied were successful. While several large 
sheriffs' offices applied and were funded, many small agencies also 
applied and received funding (some with as few as 20 or 30 sworn 
staff). Awards to larger agencies often included support for smaller 
agencies in the surrounding areas, including sheriffs' offices (showing 
multi-jurisdictional character was an important factor in this 
program).
  --Tulsa, Oklahoma--the Tulsa Police Department will partner with the 
        Tulsa County Sheriffs Office, the local community services 
        council, the FBI and ATF to address gang- and drug-related gun 
        crime in the greater Tulsa area.
  --Wilmington, North Carolina--this town will use TVCI funds to 
        address a violent drug gang problem using long and short term 
        investigative strategies and relying on a partnership with the 
        local FBI task force.
  --Moss Point, Mississippi--this Gulf Coast community (population 
        15,512) will use TVCI funds in addition to building on existing 
        DEA and FBI task forces to address local violence, which 
        appears to be drug- and gang-related.
  --Redding, California--this Shasta area community will address local 
        gang problems using TVCI funds in collaboration with federal 
        agency support.
  --Lowell, Massachusetts--this suburban community will use TVCI funds 
        to support an analytical, intelligence-driven ``Ceasefire'' 
        approach to address gun, gang, and drug violence in the 
        community.
  --Akron, Ohio--this Midwest community will broaden an anti-gang 
        initiative with Summit County Sheriff's Office and the Greater 
        Akron High Intensity Drug Trafficking Area project. Funds will 
        also be used to support prevention and prosecution of crimes in 
        that area.
  --Leech Lake Tribe in Minnesota.
    The Bureau of Justice Assistance within OJP also has a program of 
training and technical assistance designed exclusively for small law 
enforcement agencies (those with less than 50 sworn staff). This 
program provides assistance to small departments in developing anti-
crime strategies, managing departments, and accessing resources such as 
grants. This program is administered by the International Association 
of Chiefs of Police.
    Question. Will you commit to working with me during the regular 
fiscal year 2009 appropriations cycle and on the upcoming emergency 
supplemental appropriations bill to restore the hundreds of millions in 
funding cuts to the COPS Program, the Byrne grant program, and other 
programs that have proven effective in cutting crime?
    Answer. We appreciate the support shown for the Department by the 
Senate Appropriations Subcommittee on Commerce, Justice and Science and 
pledge, consistent with the President's budget request, the 
Department's assistance to the subcommittee in getting the information 
it needs to formulate its fiscal year 2009 appropriations bill. If 
Congress were to pass a supplemental appropriations bill in 2008, the 
Department would be glad to consider supporting the request so long as 
it was consistent with Administration priorities.
    Question. Sixteen years after Congress authorized the National 
Motor Vehicle Title Information System (NMVTIS), there are still major 
loopholes in the system that allow crooked mechanics and sellers to 
``wash'' data from car titles that would alert prospective buyers if a 
car has been totaled in an accident or stolen. Consumers face dangers 
when they unknowingly buy improperly repaired vehicles with a history 
of serious damage. An article about airbag scams published last month 
in Reader's Digest documents several deaths due to nonfunctioning 
airbags in vehicles whose titles had been ``washed'' and whose repairs 
were fraudulent. Due to gaps in NMVTIS reporting, the owners did not 
know that their cars had been previously totaled, much less improperly 
repaired. They delay in full implementation of NMVTIS is the result of 
the Justice Department's failure to issue long-overdue rules requiring 
insurers and junkyards to provide data about totaled vehicles. Why, 
when consumer safety is at stake, has the Department failed for over a 
decade to issue these rules? When will the rules be issued?
    Answer. The key to an effective vehicle titling system is the 
cooperation and participation of all of the states. Since 
responsibility for the National Motor Vehicle Title Information System 
(NMVTIS) was transferred from the Department of Transportation (DOT) to 
the Department of Justice, the Department of Justice has been working 
with the American Association of Motor Vehicle Administrators (AAMVA) 
to implement NMVTIS. AAMVA is a nonprofit, tax exempt, educational 
association representing U.S. and Canadian officials who are 
responsible for the administration and enforcement of motor vehicle 
laws. AAMVA has been acting in the capacity of NMVTIS operator since 
1992, when DOT was responsible for the system. The focus of the efforts 
of the Department of Justice and AAMVA has been to set up a working 
system and to get all of the states to participate in NMVTIS. 
Unfortunately, many states have been slow to participate because of 
competing demands on their resources.
    Currently, 35 states are actively involved with NMVTIS. Thirteen 
states are participating fully in NMVTIS, 12 states are regularly 
providing data to the system, and an additional 10 states are actively 
taking steps to provide data or to participate fully. The 13 states 
participating fully in NMVTIS are Arizona, Florida, Indiana, Iowa, 
Kentucky, Massachusetts, New Hampshire, Nevada, Ohio, South Dakota, 
Virginia, Washington, and Wisconsin. The 12 states providing regular 
data updates to NMVTIS are Alabama, Georgia, Idaho, Louisiana, 
Nebraska, New Jersey, New York, North Carolina, Pennsylvania, 
Tennessee, Texas, and Wyoming. The 10 states actively taking steps to 
provide data or participate fully are Arkansas, California, Delaware, 
Missouri, Montana, New Mexico, Oklahoma, South Carolina, Vermont, and 
West Virginia. States that participate fully in the system provide data 
regularly and make NMVTIS inquiries before issuing a new title. These 
states also send updates to the system when necessary. States that 
regularly provide data to the system do so through a batch upload 
process but do not check NMVTIS before issuing a new title. Currently, 
more than 60 percent of the U.S. vehicle population is represented in 
the system. The Department of Justice's goal is to have more than 75 
percent of the U.S. vehicle population represented in the system by the 
end of 2008.
    The Department of Justice has recently submitted a proposed rule to 
implement NMVTIS to the Office of Management and Budget. That rule is 
currently under review.
                 telecommunication carrier compensation
    Question. We are engaged in a debate in the Senate about this 
Administration's proposal to grant retroactive immunity to 
telecommunications carriers who participated in secret warrantless 
surveillance efforts for more than 5 years in violation of the Foreign 
Intelligence Surveillance Act, presumably some of the same carriers 
that later disconnected wiretaps when the bills were not paid. What 
payments were made to telecom companies to compensate for their 
participation in surveillance efforts including that which came to know 
as the President's program and the Terrorist Surveillance Program?
    Answer. The Senate and House Intelligence Committees have conducted 
extensive oversight of operational aspects of the National Security 
Agency activities described by the President and the 2005 Act now 
commonly known as the Terrorist Surveillance Program. The Judiciary 
Committees of both Houses have also been provided with documents, held 
hearings, and have been briefed on this Program. The specifics of any 
arrangement between the Government and a telecommunications carrier to 
provide classified assistance with surveillance efforts cannot be 
further discussed in an unclassified setting.
    Question. As of May last year, the Justice Department declined to 
identify for the Judiciary Committee the number of civil false claims 
cases that have been referred to or remain pending at the Justice 
Department, and only identified one case where the Justice Department 
has joined a qui tam relator in a case involving allegations of 
contracting fraud in Iraq or Afghanistan. Will you provide the 
Committee with an update on the status of these unresolved civil false 
claims cases? Please identify how many false claims cases have been 
referred to the Justice Department for investigation, how many the 
Justice Department has joined, and how many cases the Justice 
Department has declined to join. Also, please identify any new public 
settlements under the False Claims Act related to allegations of 
contracting fraud in Iraq or Afghanistan, and briefly describe the 
facts of these cases.
    Answer. As of June 2, 2008, fifty-three qui tam actions have been 
filed under the False Claims Act against private contractors that 
provided support for U.S. government activities in the Middle East, 
including Iraq and Afghanistan. Of these fifty-three cases, the 
Department has intervened in and is litigating one case, has settled, 
at least in part, three other cases, and has declined to intervene in 
another eighteen cases. The Department continues to investigate the 
remaining matters. The Department is also investigating a number of 
non-qui tam matters involving the Middle East that have been referred 
to the Department by other governmental agencies.
    As noted, the Department has resolved three qui tam actions, at 
least in part, relating to the Middle East, which resulted in four 
separate settlements. Additionally, the Department has settled one non-
qui tam matter under the False Claims Act involving the Middle East. 
These five settlements are briefly described below:
  --Houston-based EGL, Inc., operating as Eagle Global Logistics, a 
        subcontractor for Kellogg Brown and Root, settled for $4 
        million on August 6, 2006. The settlement resolved allegations 
        that EGL inflated invoices for shipments under government 
        contracts for support of military operations in the Balkans, 
        Afghanistan and Iraq. This settlement resolved in part a qui 
        tam case that remains sealed.
  --In a second settlement arising out of the same sealed qui tam case 
        discussed in the prior paragraph, EGL, Inc. paid the United 
        States in June, 2007, an additional $300,000 to settle 
        allegations that the company's local agent in Kuwait 
        overcharged the military for rental charges on shipping 
        containers to Iraq for the period from January through June, 
        2006.
  --Force Protection Industry, Inc., of Ladson, South Carolina, agreed 
        on August 23, 2006, to pay the United States $1.8 million to 
        settle fraud claims related to the manufacture and delivery of 
        armored vehicles for use in Iraq. These allegations were the 
        subject of a qui tam action captioned United States ex rel. 
        Chomyn v. Force Protection Industry, Inc., No. 2:05-1906 
        (D.S.C.).
  --Northrop Grumman settled a voluntary disclosure case on July 18, 
        2007, by paying $8 million in connection with deficient testing 
        of night vision goggles and sniper scopes used throughout the 
        military.
  --On December 18, 2007, the Department settled with Sioux 
        Manufacturing Corp. for $1.9 million the allegations in United 
        States ex rel. Kenner v. Spirit Lake Tribe, No. 2-06-CV-48 (D. 
        N.D.). This qui tam case alleged that the defendant failed to 
        follow specifications in making protective cloth material for 
        military helmets.
    Finally, as noted, the Department is currently litigating one case 
relating to the Middle East. On June 11, 2007, the United States 
intervened in the qui tam case captioned United States ex rel. Dye v. 
ATK Thiokol, Inc., No. 1:06CV39 (D. Utah). The lawsuit alleges that ATK 
delivered defective illumination flares used in search and rescue, and 
combat operations critical to the U.S. military, including operations 
in Iraq and Afghanistan.
                                 ______
                                 
             Question Submitted by Senator Byron L. Dorgan
                         tribal justice funding
    Question. The Justice Department dedicated 102 Federal Bureau of 
Investigations agents to investigate violent crimes in Indian country 
in 1998. Congress provided funding for an additional 30 agents in 
fiscal year 1999, and an additional 27 agents in fiscal year 2005. As a 
result of these appropriations, there should be 159 FBI agents 
dedicated to violent crime in Indian country. However, there are only 
114 FBI agents dedicated to Indian country today. Can you please 
explain this discrepancy?
    Answer. As of June 2008, there are 104 FBI Special Agents working 
on Indian Country (IC) matters. Of this total, 30 were appropriated in 
fiscal year 1997, 30 in fiscal year 1999, and 10 in fiscal year 2005 
(the FBI's fiscal year 2005 appropriation included 27 positions, 10 of 
which were Special Agents). The remaining 34 Special Agents currently 
working IC matters have been assigned by their respective field offices 
to address specific IC issues.
                                 ______
                                 
            Questions Submitted By Senator Richard C. Shelby
    Question. Is the Department of Justice pleased with all of the DHS 
charges in present and past budget requests? If so, please explain why. 
If not, please explain why. Please list all services received from the 
DHS charge since its inception.
    Answer. The Department of Homeland Security charges three types of 
security costs to the Department of Justice (DOJ): basic security 
charges, building-specific security charges, and reimbursable 
collections. Basic security charges are required for all Federal 
Protective Service (FPS)-protected facilities and are based on a per-
square footage basis. Building-specific security charges are based on 
specific security needs of the building in question. The building-
specific security charges are comprised of two elements: operating 
expenses and amortized capital costs. Building specific charges, 
whether operating expenses or capital costs, are distributed over all 
federal users by building or facility in direct proportion to each 
customer agency's percentage of federal occupancy. Reimbursable 
collections include any agency-specific requirement or requirement 
above the building security survey recommendation. We cannot confirm 
what precise building security measures the Department has in place, as 
it would jeopardize building security. We are happy to provide this 
information to you in a more secure manner, however.
                      department of justice agents
    Question. Two years ago (May 2006), the Administration's 
supplemental budget request included $2 billion to secure the Nation's 
border of which only $20 million, or 1 percent, was for the Department 
of Justice. Since September 11th, the Administration has increased the 
number of Border Patrol agents by 122 percent, from 9,000 in fiscal 
year 2000, to 20,000 in their fiscal year 2009 request.
    Provide a detail breakout by bureau the number of agents hired and 
the percentage increase by each since September 11th.
    Answer. The following chart indicates the authorized agent levels 
for the core DOJ law enforcement agencies.

----------------------------------------------------------------------------------------------------------------
                                                                          Fiscal year--
                                                ----------------------------------------------------------------
                 DOJ Component                                               Percent        2009       Percent
                                                   Enacted        2008      2008 over   President's   2009 over
                                                                enacted        2001        budget        2001
----------------------------------------------------------------------------------------------------------------
FBI............................................       11,375       13,027         14.5       13,313         17.0
DEA............................................        6,080        5,838         -4.0        5,868         -3.5
ATF............................................        2,671        2,482         -7.1        2,482         -7.1
USMS...........................................        2,671        3,412         27.7        3,570         33.7
----------------------------------------------------------------------------------------------------------------
Reflects direct and reimbursable authorized agent positions.

                                 other
    Question. Concerns have been raised with the Subcommittee that S&E 
funds have been used for construction projects at DEA. Has DEA used any 
S&E funding for anything other than its intended purpose, without 
notifying Congress, in the past three years?
    Answer. DEA has not used any S&E funding for anything other than 
its intended purpose, without notifying Congress in the past three 
years.
    Question. Last year, DEA used the term hiring freeze while 
soliciting increased funding over the Presidents requested budget. Was 
anyone hired at DEA last year? Does the Attorney General agree that DEA 
had an actual hiring freeze? If anyone was hired at DEA, please explain 
how this is a hiring freeze. If the Attorney General agrees that DEA 
was in the midst of a hiring freeze and DEA had hired, please explain 
the Attorney General's position. If the Attorney General disagrees with 
DEA saying it was a hiring freeze, please explain that position.
    Answer. DEA did not fill positions that were funded through its 
base Salaries and Expenses Account. However, DEA did not have to limit 
hiring for positions funded through the Diversion Control Fee Account. 
DEA was able to hire a limited number of positions in the Salaries and 
Expense Account due to funding provided by Congress specifically for 
new hires. The fiscal year 2007 Joint Resolution included funding for 
57 new DEA positions to support the Intelligence Community. Congress 
also provided funding in the fiscal year 2007 GWOT Supplemental, which 
allowed DEA to fill 184 positions.
    DEA lost 663 employees through attrition (including 251 Special 
Agents) from August 2006 through December 2007. Over the same time 
period, DEA hired 281 new employees (including 96 Special Agents), 
resulting in a net reduction of 382 employees (including 155 Special 
Agents).
    The Department of Justice remains fully informed of DEA's progress 
in hiring over the past year and a half. The Department has been 
engaged from the beginning in dialogue with DEA to ensure that the 
managed hiring initiative is implemented appropriately.
                      southwest border enforcement
    Question. Two years ago (May 2006), the Administration's 
supplemental budget request included $2 billion to secure the Nation's 
border of which only $20 million, or 1 percent, was for the Department 
of Justice.
    Thousands of new Border Patrol agents have placed a tremendous 
strain on the federal criminal justice system and significantly 
increases the workload of the Department of Justice. The end result is 
that DOJ agencies must further sacrifice its limited resources to 
respond to fiscal and human resource pressures created by other federal 
agencies. Do you really think $100 million is enough for the Department 
of Justice when the Border Patrol alone is asking for four times that 
amount at $442 million?
    Answer. The Attorney General has requested $100 million in new 
funding as a part of the fiscal year 2009 budget for the 
Administration's Southwest Border Enforcement Initiative. If funded by 
Congress, the new resources will better enable the United States to 
combat the flow of illegal immigration, drugs, and weapons across our 
Southwest Border, and to arrest, detain, prosecute, and incarcerate 
violent criminals, drug offenders, and immigration violators along the 
Southwest Border. These funds will support the full range of law 
enforcement operations along our Southwest Border. The requested funds 
for fiscal year 2009 included enhancements to the Bureau of Alcohol, 
Tobacco, Firearms, and Explosives, the Drug Enforcement Administration, 
Interagency Crime and Drug Enforcement, the U.S. Marshals Service, the 
Office of the Federal Detention Trustee, the Executive Office for 
Immigration and Review, and the border U.S. Attorneys' Offices. As that 
list indicates, the issues associated with border enforcement are 
multifaceted and involve many entities, not only in the Department of 
Justice but across the Executive Department, as well as the Judiciary. 
Any legislative responses to issues associated with border law 
enforcement need to address the system as a whole.
                     fugitive apprehension program
    Question. Provide background on the OIG review on Adam Walsh. In 
December 2007, the USMS was notified that the Office of the Inspector 
General was initiating a review of the Department of Justice's efforts 
to implement the Sex Offender Registration and Notification Act 
(SORNA), Title 1 of the Adam Walsh Child Protection and Safety Act of 
2006. What is the status of this investigation?
    Answer. It is an inspection (rather than an investigation) being 
conducted by the Evaluation and Inspections Division of the Office of 
the Inspector General (OIG). The purpose of the review is to determine 
the status of the Department's efforts to prevent convicted sex 
offenders from committing additional crimes by locating, apprehending, 
and prosecuting fugitive sex offenders. This inspection is currently in 
progress.
    Question. What other agencies in Justice were asked to participate?
    Answer. The following offices were asked to participate: The Office 
of Justice Programs' Sex Offender Sentencing, Monitoring, Apprehending, 
Registering, and Tracking (SMART); the Federal Bureau of 
Investigation's National Crime Information Center (NCIC), Crimes 
Against Children Unit, and Integrated Statistical Reporting and 
Analysis Application (ISRAA); the Criminal Division's Child 
Exploitation and Obscenity Section (CEOS); and the Executive Office for 
United States Attorneys' Transactional Informational Government 
Accounting System (TIGAS).
    Question. Who at the Department is coordinating this effort for the 
Federal Government?
    Answer. Paul Price, Assistant Inspector General for Evaluations and 
Inspections, Office of the Inspector General, is coordinating this 
inspection at the behest of the Department of Justice's Inspector 
General, Glenn A. Fine.
    Question. Provide the statistics on the number of shootings the 
DEA, ATF, FBI and USMS had in fiscal year 2007 versus the number of 
fugitives apprehended.
    Answer. The USMS apprehended or cleared 75,812 federal fugitives 
and cleared 84,944 state and local fugitive cases in fiscal year 2007. 
The USMS had 20 shooting incidents in fiscal year 2007 during fugitive 
apprehensions. Shooting statistics involving other law enforcement 
agencies must be obtained directly from DEA, ATF, and FBI.
    Question. Does the USMS have a plan for the expansion of the USMS 
Foreign Field Offices and does the Department of Justice support that 
expansion?
    Answer. The USMS has a five-year plan for the expansion of the USMS 
Foreign Field Offices which was approved by the Director in July 2005 
and by a previous Attorney General.
    Question. What is the long term plan for the International Fugitive 
Apprehension Program?
    Answer. The USMS International Fugitive Apprehension Program five-
year plan proposes the establishment of country-specific and regional 
offices strategically placed in host countries to best address fugitive 
workload throughout the world. The USMS will determine the most 
strategic locations to expand the foreign field offices based on 
fugitive workload, extradition activity, political factors, and 
geographic location.
    Since the approval of the foreign expansion plan, the Adam Walsh 
Child Protection and Safety Act became law. Adding the requirements of 
this new mission may change the order in which new foreign offices are 
added.
    Question. The Department was directed in the 2005 conference report 
to submit a five year plan that included a time-line and cost estimate 
to open additional international offices that are critical to the USMS 
fugitive apprehension mission. Provide the Committee with the plan 
directed in the 2005 Conference report.
    Answer. The USMS was directed by the Conference Report (H.R. 108-
792) accompanying the fiscal year 2005 Consolidated Appropriations Act 
to submit a five-year plan for the International Fugitive Program. The 
plan was approved by DOJ and OMB on December 23, 2005 and is attached 
as submitted.
    Question. Where is the department in implementing that plan?
    Answer. The USMS currently has three foreign offices in the 
following locations: Mexico City, Mexico; Kingston, Jamaica; and Santo 
Domingo, Dominican Republic.
    Question. Provide the plan for 2008 and 2009.
    Answer. No new resources were included in the fiscal year 2008 
enacted, but there is a pending request for one position in Mexico in 
the fiscal year 2009 USMS S&E President's budget request and one 
additional position in Mexico in the fiscal year 2009 OCDETF budget 
request for the USMS.
    Question. How many new foreign offices will be opened by the 
Marshals to catch international fugitives in the 2009 budget?
    Answer. The fiscal year 2009 President's budget does not include 
resources to open a new foreign field office.
    Question. The Organized Crime Drug Enforcement Task Forces (OCDETF) 
is funded at $498 million this year. Most of the funding is for the 
1,629 law enforcement personnel including: 1,048 DEA agents, 489 FBI 
agents, 53 ATF agents, and 39 Deputy U.S. Marshals. The fiscal year 
2009 request seeks an additional 6 Deputy Marshals which would bring 
them up to 45 OCDETF Deputy Marshals. There is a memorandum of 
understanding (MOU) between the Marshals Service and DEA to work 
fugitive warrants. Under this MOU, after seven days, most DEA warrants 
are transferred over to the Marshals Service. No USMS warrants are 
transferred to DEA. If the Marshals Service is identifying and 
arresting DEA fugitives, why don't they get more OCDETF resources?
    Answer. The level of USMS funding within the OCDETF Program is 
established by the ICDE Appropriations; it is not a matter of 
discretion for the OCDETF Program. Over the last several budget cycles, 
OCDETF has gradually requested and received additional resources to 
expand the USMS's ability to assist in the OCDETF mission. The 
President has not requested additional new resources, because the 
USMS's OCDETF resource allocation already takes into account that it 
will assume responsibility for unexecuted DEA warrants once 
investigations are completed.
    The OCDETF Program provides reimbursable funding for the Drug 
Enforcement Administration, Bureau of Alcohol, Tobacco, Firearms and 
Explosives, Federal Bureau of Investigation, United States Marshals 
Service, United States Attorneys, and the Justice Department's Criminal 
and Tax Divisions. OCDETF funding augments the direct budgets and 
appropriations of the participating agencies and these funds are 
restricted to OCDETF program expenses. The allocation of OCDETF 
resources among these participating agencies takes into account the 
level of resources needed to fulfill each agency's role in the handling 
of OCDETF drug cases. Each OCDETF agency, including the DEA and the 
USMS, has unique capabilities and expertise that are deployed in 
individual cases to maximize productivity and avoid duplication of 
effort. The USMS's contributions, while critical to the success of the 
mission, are typically more limited than the DEA's in scope and 
expense. In most OCDETF cases, the DEA's role is to investigate the 
drug trafficking organizations, and the USMS's role is to find and 
arrest the traffickers who escape the first round of arrests. Recently, 
with the addition of new USMS resources, the OCDETF Program has begun 
using the USMS in a more proactive basis during the initial arrest and 
take-down process to limit the number of traffickers who become 
fugitives. The agencies' respective OCDETF funding levels take into 
account that division of labor and expertise. Warrants are not moved 
from USMS to DEA as that is not DEA's role in the OCDETF Program.
    OCDETF funding allocations developed annually during the regular 
budget process are included in the President's budget request to 
Congress each February. The OCDETF resource requests that are submitted 
are developed within the overall National Drug Strategy and constraints 
provided by the Department of Justice and the Administration. During 
this process all aspects of each of the OCDETF components are reviewed 
with regard to the task force's mission. As the budget environment has 
become more restricted, only the highest priority budget increases have 
been approved. Over the last few years, in recognition of the need for 
the USMS's unique capabilities and expertise, the OCDETF Program has 
made it a priority to request increases for the USMS. In fiscal year 
2005, OCDETF requested and received 28 new deputies, an increase of 215 
percent. The current fiscal year 2009 President's budget includes a 
request for 6 new deputies, a 17 percent increase including the first 
full-time deputy who will be assigned to a foreign duty station. The 
OCDETF Program will continue to request additional deputies until the 
appropriate balance between investigations, prosecutions, and fugitive 
apprehensions has been met.
    Question. How much money has been provided to the Marshals from 
OCDETF for extraditions?
    Answer. The OCDETF Program does not specifically designate any of 
the funding provided to the USMS. Historically, the USMS has not 
designated any of its OCDETF funding for returning extradited fugitives 
to the United States and instead has focused its OCDETF funding on its 
highest priority of identifying, locating and apprehending fugitives, 
including those that have fled the country. Shifting resources to 
support the administrative and logistical costs associated with 
extraditions would greatly diminish fugitive apprehension efforts.
    Question. Can the USMS use OCDETF funding to support the expansion 
of the USMS Foreign Field Offices?
    Answer. Yes. The USMS can use OCDETF funding to help the expansion 
of USMS foreign field offices. The fiscal year 2009 OCDETF President's 
budget contains a request for one position for the USMS to expand 
violent narcotics case fugitive apprehension in Mexico. This is in 
addition to the aforementioned Mexico position in question right before 
this one.
    Question. Can't OCDETF money be used to augment the Foreign Field 
Office in Mexico City, Mexico and Bogota, Colombia? If not, why not? Be 
specific.
    Answer. Yes, OCDETF money could be used to augment the foreign 
field offices. There were no program enhancements in fiscal year 2007 
and the USMS OCDETF budget decreased in fiscal year 2008. The fiscal 
year 2009 OCDETF President's budget contains a request for one USMS 
position to expand violent narcotics case fugitive apprehension in 
Mexico. The USMS is in the process of initiating a temporary duty 
assignment to Bogota, Colombia using OCDETF resources, in conjunction 
with the Drug Enforcement Administration, to assess the USMS in-country 
capabilities on fugitive apprehension and extradition efforts. The 
temporary duty start date is scheduled for the Summer of fiscal year 
2008.
    Question. How many narcotics related or narco-terrorism related 
extraditions does the USMS do each year?
    Answer. In fiscal year 2006, 301 narcotics/narco-terrorism related 
extraditions were completed costing $1,068,728. In fiscal year 2007, 
347 narcotics/narco-terrorism related extraditions were completed 
costing $1,166,500.
    Question. Can funding be utilized from the Organized Crime Drug 
Enforcement Task Force (OCDETF) to support narcotics related 
extraditions?
    Answer. Yes. The USMS has requested $100,000 in the fiscal year 
2009 OCDETF President's budget to support narcotics related 
extraditions. The USMS has also sought funding through the Asset 
Forfeiture Program and OCDETF to cover the costs incurred by the USMS 
for extraditing these targets and will continue to pursue future 
funding for this essential mission.
    Question. If so, has it been used for this purpose?
    Answer. The USMS has not previously used any outside funding 
resources for this purpose.
    Question. If not please describe in detail why.
    Answer. Funding was allocated to maximize performance output. 
Domestic OCDETF fugitive operations would have been markedly reduced by 
any spending priority shift to extradition funding.
    Question. Isn't it true that in fiscal year 2006 and fiscal year 
2007 approximately half of the extradition missions were conducted on 
subjects wanted in major narcotics cases, including criminal 
indictments filed under the Organized Crime Drug Enforcement Task Force 
(OCDETF)?
    Answer. Yes. Please see stats in next question.
    Question. Specifically in fiscal year 2006, 301 of the 685 missions 
completed were for narcotics, 72 of which were specifically for OCDETF 
violators. In fiscal year 2007, 347 of the 772 missions completed were 
for major narcotics violators, 51 of which were OCDETF cases. How much 
funding has OCDETF given to the Marshals to support these efforts from 
fiscal year 2004 to today? Be specific.
    Answer.

----------------------------------------------------------------------------------------------------------------
                                                             Positions   Investigators      FTE         Amount
----------------------------------------------------------------------------------------------------------------
Fiscal year 2004..........................................           13            13            13   $2,125,000
Fiscal year 2005..........................................           41            39            27   $6,345,000
Fiscal year 2006..........................................           41            39            36   $6,932,000
Fiscal year 2007..........................................           41            39            39   $8,447,000
Fiscal year 2008..........................................           41            39            41   $8,272,000
Fiscal year 2009 President's request......................           47            45            44  $10,221,000
----------------------------------------------------------------------------------------------------------------

    Question. Provide a detailed list of all funding provided by OCDETF 
to support the extraditions and deportations carried out by the 
Marshals Service.
    Answer. OCDETF does not limit the activities that USMS can use 
OCDETF funding for as long as the costs are related to an OCDETF 
fugitive. The USMS has historically chosen not to allocate OCDETF 
funding for the logistical and administrative costs of extraditions and 
deportations.
    Question. Provide all of the requests since fiscal year 2005 from 
the U.S. Marshals Service to OCDETF for funding assistance? Be specific 
as to why each was approved or rejected. Be specific about all higher 
priorities funded.
    Answer. As noted in the above response, the OCDETF Program provides 
the USMS funding on an annual basis through the budget process. This 
process allows the USMS to submit budget enhancements to the OCDETF 
Program for inclusion in its annual President's budget request. The 
details of these requests are pre-decisional and not releasable.
    However, since fiscal year 2005, the following program enhancement 
requests were requested by the Administration for the OCDETF USMS 
Program: an additional 28 positions and $4,320,000 in fiscal year 2005 
to create OCDETF fugitive apprehension units throughout the nine OCDETF 
regions and assume responsibility for all OCDETF fugitives; 9 positions 
and $2,072,000 in fiscal year 2006 to increase the capacity of the USMS 
to apprehend OCDETF fugitives; and an additional 6 positions and 
$1,714,000 for the USMS to address OCDETF fugitive apprehension by 
adding a Deputy U.S. Marshal to each of the border Districts; one 
Deputy U.S. Marshal in Mexico City, addressing the apprehension of 
OCDETF fugitives that are linked to CPOTs and Gatekeepers; and funding 
to assist in defraying the costs of extradition incurred by the USMS 
when bringing a fugitive out of Mexico back to the United States to 
face prosecution. These requests are on top of the mandatory 
inflationary cost requests by the Program. When compared to the other 
OCDETF components' requests, the USMS has grown at a significantly 
higher rate. Only DEA and USAs have also received enhancements during 
this time frame. While the USMS OCDETF budget has increased 289 percent 
since fiscal year 2004, the USA OCDETF budget grew 32 percent, and the 
DEA OCDETF budget grew only 12 percent.
    In addition, during this period the OCDETF Program has relied upon 
reprogrammed funds from prior year balances to supply requisite funding 
for short-term, targeted fugitive apprehension missions, called Special 
OCDETF Response Teams, or SORT Operations. Nearly $1.2 million in 
reprogrammed monies were provided to the USMS by the OCDETF Executive 
Office during this time. The OCDETF Program continues to support the 
USMS, as they are an integral part of the Program.
    Question. How much will OCDETF be assisting the marshals with 
funding in fiscal year 2008?
    Answer. The USMS resource assistance by OCDETF in fiscal year 2008 
is 41 positions, including 39 Deputy Marshals, totaling $8,272,000.
    Question. Provide all requests since 2001 made by the Marshals for 
assistance from OCDETF, how much funding assistance was provided for 
each request, and the metrics used to determine what requests to 
support and reject?
    Answer. See table below.

------------------------------------------------------------------------
                                  Positions   Investigators     Amount
------------------------------------------------------------------------
Fiscal year 2001...............           13            13    $1,980,000
Fiscal year 2002...............           13            13    $2,049,000
Fiscal year 2003...............           13            13    $2,095,000
Fiscal year 2004...............           13            13    $2,125,000
Fiscal year 2005...............           41            39    $6,345,000
Fiscal year 2006...............           41            39    $6,932,000
Fiscal year 2007...............           41            39    $8,447,000
Fiscal year 2008...............           41            39    $8,272,000
Fiscal year 2009 President's              47            45   $10,221,000
 request.......................
------------------------------------------------------------------------

    The United States Marshals Service (USMS) plays a significant role 
in the OCDETF Program. The USMS is responsible for approximately 90 
percent of all OCDETF fugitive investigations. Currently, there are 
over 7,200 OCDETF fugitives nationwide, 32 percent of which are 
considered leaders in their organization. In fiscal year 2007, the USMS 
arrested 1,449 OCDETF fugitives--an average of 42 arrests per OCDETF 
U.S. Marshal FTE, clearing 1,492 warrants by arrest.
    When the OCDETF Program began in 1982, the Marshals received an 
allocation of 13 positions and this allocation remained unchanged for 
over twenty years. Fugitive apprehension is a critical element of the 
OCDETF Program's success. However, while other OCDETF member agencies 
increased their workforce generating many new OCDETF investigations and 
thereby increased the workload of the USMS, the USMS OCDETF resources 
remained fixed. In fiscal year 2003, a management study was done on the 
participation levels of the OCDETF Components which indicated that the 
level of participation by the USMS should be 113 positions given the 
current workloads. The OCDETF Program determined that this level of 
increase needed to be implemented in phased process. The fiscal year 
2005 President's request represented the first phase of the process 
resulting in the USMS receiving 28 new positions a 215 percent 
increase. Each year since, the OCDETF Program has sought to 
incrementally increase the USMS to reach the ultimate goal of 113 
positions.

                                       USMS HISTORICAL OCDETF ENHANCEMENTS
                                             [Dollars in thousands]
----------------------------------------------------------------------------------------------------------------
                                                               Enhancement requests      Enhancements received
                        Fiscal year                         ----------------------------------------------------
                                                              Positions     Funding     Positions      Funding
----------------------------------------------------------------------------------------------------------------
2005.......................................................           37       $5,801           28        3,932
2006.......................................................           67       13,024  ...........          450
2007.......................................................           34        7,181  ...........        1,940
2008.......................................................           20        8,032  ...........         (175)
2009.......................................................           19        4,690      ( \1\ )       ( \1\ )
----------------------------------------------------------------------------------------------------------------
\1\ Pending.

    Question. What are the participation levels in OCDETF among the DOJ 
agencies? What are the overall percentages that each agency initiates 
and participates in OCEDTF cases?
    Answer. Please see table below.

                                                                          AGENCY PARTICIPATION IN OCDETF INVESTIGATIONS
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                   Fiscal year 2001    Fiscal year 2002    Fiscal year 2003    Fiscal year 2004    Fiscal year 2005    Fiscal year 2006    Fiscal year 2007    Fiscal year 2008
                                 ---------------------------------------------------------------------------------------------------------------------------------------------------------------
                                   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
ATF.............................       305      22.8       212      23.5       165      23.4       212      24.0       261      25.6       258      26.7       273      26.9       211      30.1
DEA.............................     1,117      83.6       781      86.6       623      88.5       803      91.0       925      90.6       870      89.9       918      90.4       625      89.2
FBI.............................       566      42.4       333      36.9       247      35.1       309      35.0       344      33.7       325      33.6       334      32.9       233      33.2
ICE.............................       655      49.0       504      55.9       387      55.0       467      52.9       465      45.5       390      40.3       424      41.7       289      41.2
IRS.............................       526      39.4       419      46.5       378      53.7       451      51.1       438      42.9       356      36.8       469      46.2       276      39.4
USCG............................        15       1.1        19       2.1         9       1.3        16       1.8        11       1.1        16       1.7        21       2.1        11       1.6
USMS............................       307      23.0       263      29.2       209      29.7       300      34.0       340      33.3       406      41.9       511      50.3       325      46.4
State & Local...................     1,205      90.2       806      89.4       617      87.6       768      87.1       922      90.3       867      89.6       901      88.7       647      92.3
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                           AGENCY SPONSORSHIP OF OCDETF INVESTIGATIONS
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                   Fiscal year 2001    Fiscal year 2002    Fiscal year 2003    Fiscal year 2004    Fiscal year 2005    Fiscal year 2006    Fiscal year 2007    Fiscal year 2008
                                 ---------------------------------------------------------------------------------------------------------------------------------------------------------------
                                   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent   Number    Percent
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
ATF.............................        60       4.5        41       4.5        27       3.8        42       4.8        54       5.3        71       7.3        59       5.8        49       7.0
DEA.............................       908      68.0       624      69.2       536      76.1       710      80.5       816      79.9       784      81.0       821      80.8       568      81.0
FBI.............................       310      23.2       182      20.2       124      17.6       152      17.2       168      16.5       164      16.9       179      17.6       135      19.3
ICE.............................       168      12.6       146      16.2        86      12.2       143      16.2       137      13.4       132      13.6       127      12.5        93      13.3
IRS.............................        95       7.1        80       8.9        77      10.9        80       9.1        70       6.9        52       5.4        85       8.4        49       7.0
USCG............................         1       0.1         1       0.1  ........  ........         1       0.1  ........  ........  ........  ........         2       0.2  ........  ........
USMS............................         1       0.1         2       0.2  ........  ........         2       0.2         1       0.1         8       0.8  ........  ........  ........  ........
State & Local...................       163      12.2       100      11.1        81      11.5       106      12.0       153      15.0       136      14.0       140      13.8       126      18.0
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Question. Do they receive adequate/appropriate funding in support 
of their contributions to the OCDETF program?
    Answer. Yes, the USMS receives appropriate funding for its 
participation in the OCDETF Program. The OCDETF Program was established 
to ensure that an appropriate level of participation from all of its 
member agencies were directed at the Department of Justice/
Administration's highest priority long-term and complex drug 
trafficking and money laundering investigations so that individual 
agencies could not redirect these funds to their respective short term 
priorities. This strategy has been hugely successful with the 
dismantlement of many of the infamous drug cartels from around the 
world who once thought they were untouchable by U.S. law enforcement.
    This Departmental funding priority is carefully balanced each year 
during the development of the President's budget against the other 
priorities within the Department and the availability of new funds. 
This has become more difficult in recent years due to budget 
constraints and the war on terror. Given all of these factors, the USMS 
OCDETF Program has grown at a faster rate than the other OCDETF 
components in recognition of the increasing USMS serves within the 
Program.
    Question. The USMS currently supports the U.S. National Central 
Bureau of Interpol (USNCB) with management positions in the Alien/
Fugitive Division and also holds the current Deputy Director position. 
What funding does the USMS receive to support this participation?
    Answer. The salaries, benefits, and overtime of these positions are 
funded by the USMS salaries and expenses (S&E) base. Over and above the 
position costs, the USMS receives an annual operating budget of 
approximately $44,000 to support the USNCB.
    Question. How much does the USMS International Extradition Program 
cost each year and how is the program funded? Provide a detail breakout 
of the real costs associated with this program by fiscal year from 
2006-08 and proposed for fiscal year 2009 and the money actually 
allocated to this program by the Department.
    Answer. The International Extradition Program is funded from the 
operational base of the USMS S&E appropriation. The Department does not 
directly allocate funding for USMS extraditions. The following table 
shows historical extradition expenses, not including the salaries and 
benefits of the USMS participants:

                        USMS EXTRADITION EXPENSES
                        [In thousands of dollars]
------------------------------------------------------------------------
                                                               Cost of
                        Fiscal year                         extraditions
------------------------------------------------------------------------
2006......................................................         2,481
2007......................................................         2,705
2008......................................................     \1\ 3,600
2009......................................................     \2\ 3,600
------------------------------------------------------------------------
\1\ Estimate.
\2\ Projection.

    Question. The USMS Extradition Program has increased the number of 
missions completed every year since 2001. Has there been any comparable 
increase in personnel to support the increase in workload over that 
same period of time? Provide a detail list of workload increase and the 
number of positions increased for this program.
    Answer. The USMS has the statutory responsibility for conducting 
all extraditions to the United States from foreign countries, as well 
as supporting extraditions to foreign countries from the United States. 
This includes all individuals ordered extradited and/or surrendered, 
regardless of whether they are wanted by a federal, state, or local 
jurisdiction. As crime and wanted fugitives become more global, and the 
efforts of the USMS Domestic and International Fugitive Programs become 
more successful, the numbers of international fugitives apprehended and 
extradited to face justice has and will increase. Currently the USMS 
International Branch is responsible for coordinating all extraditions 
with the Department of Justice, State Department, and foreign 
governments. The International Branch has two full-time employees in 
the Extradition Program: an Extradition Program Manager, and one 
Extradition Specialist--a position that was initially created in the 
early 1980's. Personnel who conduct the actual extraditions are most 
often provided by the local district office where the extradited 
fugitive is being returned or is being held pending surrender to a 
foreign authority. The additional cost of the program is primarily due 
to the travel expenses of the prisoner and the USMS escorts dispatched 
to conduct the mission.

                        USMS EXTRADITION HISTORY
------------------------------------------------------------------------
                                                                Total
                                                            extraditions
                        Fiscal year                              and
                                                            deportations
------------------------------------------------------------------------
2002......................................................           340
2003......................................................           521
2004......................................................           541
2005......................................................           653
2006......................................................           685
2007......................................................           772
------------------------------------------------------------------------

    Question. What is the impact on the USMS Extradition Program when 
extradited subjects charged with ``extra-territorial'' narcotics or 
terrorism statutes (i.e., 21:959 or 21:960) are returned to the United 
States?
    Answer. The primary use of USMS-contracted dedicated flights in the 
past two fiscal years have been fugitives charged under 21 USC  959, 
or ``959'' indictments. They must be brought back to the United States 
under escort directly to the demanding jurisdiction. If the U.S. Port 
of Entry is a location other than the charging district, the subject 
must be tried in the district of formal entry to the United States. 
This causes great concern to the Department and U.S. Attorneys as their 
prosecutors, case preparation, files, agents, and witnesses are usually 
in the charging district and substantial resources would be needed to 
move the case to another district. The USMS faces several challenges in 
performing these extradition missions. For example, if no commercial 
flights exist from the country of origin, a contracted dedicated flight 
is the only option. If international flights can be identified from the 
country of origin, or a country will grant the USMS transit authority 
for a connecting flight, the USMS will utilize the most cost effective 
means. Since most of the individuals extradited on ``959'' indictments 
are high-level drug traffickers or individuals associated with narco-
terrorism, security for the prisoner and escorts is always a concern. 
These complicating factors increase the average cost of these ``959'' 
fugitive extraditions, especially if chartered aircraft are the only 
option available to support the mission, to an average of three times 
the cost of a non-959 extradition. The total cost of all ``959'' 
indictments completed in one fiscal year has risen from $53,040 in 
fiscal year 2004 to $688,450 in fiscal year 2007.
    Question. In fiscal year 2007, 53 missions were completed at a 
direct cost to the USMS of $688,450 or approximately 25.8 percent of 
the total extradition budget what is the Department doing to assist the 
Marshals Service with these spiraling expenses? Be specific.
    Answer. The Department takes increasing costs into account in 
determining priorities regarding law enforcement missions.
    Question. How will the implementation of the new Adam Walsh Child 
Protection and Safety Act of 2006 affect the USMS International 
Extradition Program?
    Answer. The number of extradition missions generated as a result of 
the Adam Walsh Child Protection and Safety Act (AWA) investigations is 
expected to drastically affect the Extradition Program. It is believed 
that many child predators travel internationally in pursuit of the 
child sex trade. Many of those predators are previously convicted sex 
offenders who are not in compliance and have failed to report that 
travel. They could readily retreat to familiar foreign locations once 
they are the focus of federal apprehension.
    Question. What is the estimated number of sex offenders who travel 
internationally to pursue and engage in illegal sex activity?
    Answer. There is no mechanism at this time to capture how many sex 
offenders (compliant or non-compliant) travel abroad. The DOJ Child 
Exploitation and Obscenities Section and the Sex Offender Management 
Apprehension Research and Tracking (SMART) office are working on 
guidelines to address the issue.
    Question. What are we doing to encourage our international partners 
to increase their commitment to assist us with non-compliant sex 
offenders who will be charged and eventually located internationally in 
countries such as Costa Rica, Thailand, Cambodia, the Philippines, and 
other Far East locations that cater to the underage sex business?
    Answer. In 2005, the USMS formulated a 5-year plan to expand the 
number of foreign postings that would help facilitate assistance with 
pursuing non-compliant sex offenders overseas. Currently, the USMS has 
a strong relationship with entities such as INTERPOL, NCMEC, and the 
Department of State that provides a framework to track and apprehend 
sex offenders traveling abroad. The USMS will work closely with these 
departments to create the National Sex Offender Targeting Center 
(NSOTC). NSOTC will assist law enforcement in tracking sex offenders 
both domestically and internationally.
    Question. What is the Justice Department doing to ensure that the 
Marshals Service has the resources and the manpower in these countries 
to assist in the hunting down of these predators?
    Answer. As stated above, the Justice Department works closely with 
partner agencies to apprehend these individuals overseas and supports 
the plan developed by the USMS to expand overseas presence to 
facilitate assistance in the pursuit of non-compliant sex offenders.
    Question. The Congressional Budget Office (CBO) conservatively 
estimates that the Marshals Service would need to hire at least 350 new 
Deputy Marshals to take a lead role in executing a significant number 
of additional warrants for unregistered sex offenders. CBO estimates it 
would cost $25 million year one and $220 million over a five-year 
period, including costs for space training, supervision and support 
staff. What new resources are requested by the Department in fiscal 
year 2009 to reduce the number of sex offenders from our streets?
    Answer. USMS actively assists state, local, and tribal territories 
in tracking and apprehending non-compliant sex offenders. No new 
resources have been requested for fiscal year 2009 for additional 
Deputy Marshals in the execution of this mission.
    Question. If the answer is zero what kind of message does this 
send?
    Answer. The USMS wants to send the message that we take our role 
that is outlined in the AWA very seriously. We want to ensure that the 
entire law enforcement community is aware that we will assist them in 
their efforts to track and apprehend non-compliant sex offenders. We 
want the public to be aware that we are uniting with state and local 
law enforcement in order to protect our children and our community from 
sexual predators.
    Question. Is this giving sex offenders a ``free ride''?
    Answer. The USMS recognizes the danger of having over 100,000 sex 
offenders roaming our communities with no supervision. There is no 
toleration of sexual abuse or exploitation by the USMS. USMS actively 
works with all levels of law enforcement to track and apprehend sexual 
predators.
    Question. How many DUSMs would you need to fully implement Adam 
Walsh?
    Answer. The USMS will work with DOJ and other agencies within the 
Administration to determine the appropriate level of resources to 
address its responsibilities as assigned by the Act.
    Question. How many are requested in the fiscal year 2009 budget?
    Answer. USMS resource requests for the AWA were included in the 
fiscal year 2008 budget submission to Congress; however, it was not 
part of the enacted appropriation. The fiscal year 2009 USMS 
President's budget does not contain any additional resources for sex 
offender enforcement.
    Question. The Presidential Threat Protection Act of 2000 authorized 
the Marshals Service to establish Regional Fugitive Task Forces (RFTFs) 
to locate and apprehend the most violent federal, state, and local 
fugitives. Over the years this Subcommittee has provided resources to 
the Marshals Service to establish six of these task forces. Results 
have been very impressive. Before there were RFTFs, the Marshals 
Service apprehended around 46,000 fugitives a year. Five years later, 
and with six RFTFs, the Marshals apprehended close to 95,000 felony 
fugitives--an increase of 106 percent. These fugitives are the ``worst 
of the worst,'' averaging more than four prior arrests each. Our 
communities are safer because taking these criminals off the streets 
prevented 378,000 crimes from being committed. How many new resources 
are requested in this budget for this program?
    Answer. The fiscal year 2009 USMS President's budget contains no 
enhancements to establish new RFTFs.
    Question. Even though the Marshals Service arrests more fugitives 
than all other federal agencies combined, DOJ in this budget request 
fails to recognize that the Marshals Service is one of its 
investigating agencies. Why are requests for more investigative 
resources not provided in this request?
    Answer. The USMS, in coordination with the DOJ, develop resource 
requests that reflect the Administration's priorities across all law 
enforcement components.
                           judicial security
    Question. The Court Security Act gives new responsibilities to the 
USMS, yet no additional funds were requested in fiscal year 2009. The 
Act authorized $20 million each year through 2011, but no additional 
funds are part of the fiscal year 2009 request.
    On March 11, 2008, ABC News and CNN reported that threats against 
federal judges and prosecutors are growing at an alarming rate. Threats 
against the federal judiciary and prosecutors have increased 69 percent 
over the past five years. Threats are on track to rise this year for 
the fifth straight year. The Congressional Budget Office (CBO) 
conservatively estimates that it would take $409 million over five 
years to provide sufficient resources to the USMS to provide increased 
court security.
    If the Marshals Service is under-staffed to perform its core 
mission of judicial security, how will they meet this mission 
requirement? Will these agents be pulled from the regional task forces? 
Provide a detailed breakout of where these manpower resources will come 
from.
    Answer. The USMS will continue to rely on District Security 
Officers (off-duty or retired law enforcement officers that the agency 
hires on an hourly or daily basis), overtime, and Deputy Marshals 
detailed from other district offices to meet mission requirements. 
Individual district offices are responsible for providing the staffing 
necessary to meet daily mission requirements; however, USMS 
Headquarters assists in coordinating travel for out-of-district Deputy 
Marshals when mission requirements exceed available resources in a 
district office.
    As an example, in fiscal year 2007, 307 out-of-district Deputy 
Marshals were utilized in order to staff protection details where there 
was inadequate staffing in the home district. The districts providing 
the resources then used Detention Enforcement Officers, District 
Security Officers (who work under personal services contracts), and 
overtime to meet their individual mission requirements.
    Deputy Marshals assigned to a district office may also be pulled as 
needed from any task force duties, including a Regional Fugitive Task 
Force, in order to staff critical judicial security missions. Deputy 
Marshals permanently assigned to Regional Fugitive Task Forces are 
pulled from their task force duties only in rare or exceptional 
circumstances, such as post-Hurricane Katrina duties in Mississippi and 
Louisiana.
    Question. The Committee understands that the Secret Service has 140 
people who analyze threats made against 40 officials. The Marshals 
Service has 35 people to analyst threats made against 7,700 judges and 
federal prosecutors. How do you address this disparity?
    Answer. The USMS Office of Protective Intelligence (OPI) presently 
has 25 people to analyze threats made against the 7,700 judges and 
prosecutors. Both the USMS and the U.S. Secret Service (USSS) 
proactively investigate threats and inappropriate communications 
directed at their protectees by conducting protective investigations. 
The USSS assigns full-time protective details for all of their 
protectees; however, the USMS does not assign full-time protective 
details to 7,700 individuals.
    If a judge or prosecutor is threatened, the USMS conducts a 
protective investigation to assess the severity of the threat. If 
required, a protective response is initiated and a protective detail 
assigned. Prior to and during the protective response, a Deputy Marshal 
conducts a protective investigation to mitigate the threat and any 
danger to the protectee. Judges are protected primarily only when they 
are at a U.S. Courthouse.
    Question. Without resources to improve the timeliness of threat 
assessments, how will you effectively predict who the next attacker is 
or who the next judicial victim will be?
    Answer. The USMS uses a behavior-based approach in conducting 
investigations. Predicting exactly who the next attacker or victim will 
be is difficult. USMS relies on statistical analysis to identify 
probable attackers. Studies have shown that individuals who pose a 
threat often do not communicate a warning in advance of their actions. 
Based on these studies, a methodology has been developed to look at a 
subject's behavior rather than strictly at the substance of what they 
may be communicating to the protectee or to law enforcement. The 
methodology includes an analysis of what actions they have taken to 
carry out an attack, statements they have made to others around them, a 
subject's individual criminal history, history of approaching possible 
victims, possession of weapons, and any life-changing experiences the 
subject may have undergone. When a subject comes to the attention of 
the judiciary or the USMS, proactive protective investigations pay 
attention to these indicators in their threat assessments.
    Identification of the next attacker or victim can be aided through 
enhancements in information technology. The threat management database 
currently used by the USMS was primarily designed for fugitive 
investigations rather than protective investigations, and as such the 
search capability and the automated analysis tools specific to 
protective investigations are limited. Four of the recommendations by 
the 2007 DOJ Office of Inspector General's (OIG) review of the USMS 
Judicial Security Process related to improving the threat assessment 
process and the databases that identify and track potential threats.
    An additional information technology tool that is used in the 
identification of potential attackers or victims is link analysis. The 
USMS has acquired a link analysis tool to interface with and search 
numerous USMS databases. A subsequent phase could expand the search 
capabilities of this analysis to include searches of other agencies' 
databases, court records, and open source data to aid in the 
investigation and identification of potential attackers.
    Question. How many DUSMs would you need to fully implement the 
Court Security Act?
    Answer. The USMS will work with DOJ and other agencies within the 
Administration to determine the appropriate level of resources to 
address its responsibilities as assigned by the Act.
    Question. How many are requested in the 2009 budget?
    Answer. The fiscal year 2009 request does not include any increases 
for the Court Security Act, but instead anticipates that the USMS will 
continue to rely on District Security Officers (contract guards with 
prior law enforcement experience), overtime for existing employees, and 
Deputy Marshals detailed from other districts to meet the requirements 
of the Act.
    Question. What challenges do you face in court security based on 
the fiscal year 2008 funding levels?
    Answer. The greatest challenge faced by the USMS is to provide a 
minimum standard of protection for judges, prosecutors, the court 
family and the public. Limited resources to address the constant 
pressure to produce and house more prisoners, investigate and apprehend 
more fugitives and sex offenders, and investigate and mitigate more 
risks posed to protectees is a tremendous challenge.
    Since 2005, the USMS has updated and appropriately raised the 
standards for judicial security. The USMS has changed polices and 
procedures related to everything from threat investigations to personal 
security details, re-engineering judicial security in the USMS.
    To address these challenges the USMS has combined the use of JSIs 
and PIIs to focus expertise on judicial threat analysis and 
investigation.
    Question. List by protectee the number of agents and vehicles 
assigned to each detail.
    Answer. Protectee detail information is sensitive information that 
could reveal USMS staffing levels and lead to security vulnerabilities 
affecting our protective mission. Therefore, specific details are not 
released outside the agency. In general, the number of Deputy Marshals 
and vehicles assigned to a protection detail varies and is determined 
on a case-by-case basis. The level of protection detail, depending on 
the severity of the threat, can range from an escort detail of a single 
Deputy Marshal to a full protection detail of a dozen or more Deputy 
Marshals. An escort detail is the minimum level of protection and a 
full protection detail is the maximum level of protection for USMS 
protective missions.
    Question. The cost of each protectee detail in 2007, to date in 
2008 and the projected year end cost.
    Answer. The USMS expended $1,857,000 for the operational cost of 
protection details in 2007 and $595,000 to date in 2008 with a 
projected total of $865,000 for the entire year. Totals exclude the 
regular payroll costs of Deputy Marshals.
    Question. How many agents in each shift of each detail?
    Answer. All protective details are staffed by Deputy U.S. Marshals. 
The number of Deputy Marshals and vehicles assigned to a protection 
detail varies and is determined on a case-by-case basis. The level of 
protection detail, depending on the severity of the threat, can range 
from an escort detail of a single Deputy Marshal to a full protection 
detail of a dozen or more Deputy Marshals. An escort detail is the 
minimum level of protection and a full protection detail is the maximum 
level of protection for USMS protective missions.
                         courthouse renovations
    Question. In 1997, the U.S. Marshals Service proactively designed 
and implemented a National Security Survey to determine how well our 
400 federal courthouses measured up to security standards. Assaults and 
injuries in cellblocks place Deputy Marshals, pretrial and probation 
officers, and public defenders at grave risk. These same personnel are 
routinely exposed to airborne pathogens including hepatitis and 
tuberculosis due to improper heating and ventilation systems within 
cellblocks. The risk of escape is high when there are no segregated 
prisoner movement areas because Deputy Marshals must move prisoners 
through public corridors, stairwells, and elevators. Recent estimates 
suggest that $88 million would be needed over the next four years to 
renovate and remedy existing security deficiencies in cellblocks, 
vehicle sally ports, prisoner elevators, secure circulation areas, and 
holding cells. Another $30 million would be needed for cameras, alarms, 
and courthouse security systems.
    The 2009 request provides only $2 million for construction. A $2 
million request doesn't even cover the inflationary cost of maintenance 
and minor repairs. How will you allocate the $2 million to address what 
is identified as a $100 million problem?
    Answer. The $2 million included in the fiscal year 2009 request 
will be used to help meet expenses for those construction and 
renovation projects that are already in progress and that have the most 
pressing and immediate needs.
    Additionally, the 2009 budget proposes to consolidate the 
construction account within the larger salaries and expenses account. 
This proposal will increase the USMS flexibility to reprogram funds to 
address emergent construction needs and better prioritize funding.
    Question. Is the safety of the federal judiciary and all its 
participants a priority?
    Answer. Yes, it is the primary role and mission of the USMS to 
protect the Federal judiciary (28 U.S.C. 566(a)). The USMS Director's 
priority to ``Enhance Judicial Threat Management and Analysis'' fully 
supports the Department of Justice Strategic Goal 3.1.1 to ``Protect 
judges, witnesses, and other participants in federal proceedings, and 
ensure the appearance of criminal defendants for judicial proceedings 
or confinement.''
    Question. Is the health and safety of the federal agents who handle 
these prisoners addressed in this budget request? If the answer is yes 
explain why.
    Answer. The $2 million included in the fiscal year 2009 request 
will be used to help meet expenses for those construction and 
renovation projects that are already in progress and that have the most 
pressing and immediate needs.
    Additionally, the 2009 budget proposes to consolidate the 
construction account within the larger salaries and expenses account. 
This proposal will increase the USMS flexibility to reprogram funds to 
address emergent construction needs and better prioritize funding.
    Question. When the Administration requests only $2 million for 
construction each fiscal year, how long will it take to make sure that 
all courthouses are up to the latest security standards?
    Answer. At $2 million per year to renovate courthouse facilities, 
USMS-occupied space will continue to raise National Security Survey 
scores, which have significantly improved between 1999 and 2007. In 
1999, only 21 facilities met minimum standards. In 2002, 65 facilities 
met minimum standards. In 2006, 94 facilities met minimum standards. 
This improvement was the direct result of increasing funding in the 
Construction Appropriation and the S&E funding designated for 
courthouse security systems. Security scores for USMS facilities 
increased 4 percent-10 percent in many areas between the 2002 and 2006 
surveys. Security scores increased 15 percent-22 percent in major 
categories between the 1999 and 2006 surveys. The USMS utilizes a 
National Security Survey (originally developed in 1997 and refined 
every three years) to prioritize construction and renovation projects.
                      southwest border enforcement
    Question. Two years ago (May 2006), the Administration's 
supplemental budget request included $2 billion to secure the Nation's 
border of which only $20 million, or 1 percent, was for the Department 
of Justice.
    When DHS ICE agents raid a plant and hundreds of illegal workers 
are detained, who is responsible for transporting these aliens to 
holding facilities?
    Answer. USMS does not participate in the detention of workers 
charged with administrative violations. However, upon arrest for 
Federal criminal offenses, DHS ICE agents transport detainees to 
holding facilities and to their initial court appearances. At the 
initial appearances, the judge remands detainees to USMS custody after 
which USMS Deputy Marshals perform all prisoner transports.
    Question. Why has DOJ not actively pursued reimbursement from DHS 
entities who summon the U.S. Marshal Service to transport mass amounts 
of illegal aliens who are detained?
    Answer. The USMS will work with DOJ and the affected DHS components 
to ensure that the proper funding mechanism is in place to fulfill the 
USMS responsibilities.
    Question. Are you unaware of the Border Patrol's enforcement 
efforts? Why does the Department not receive full reimbursement for all 
Border Patrol arrests that are then handed over to DOJ custody?
    Answer. The USMS is aware of the Customs and Border Protection's 
enforcement efforts that are conducted on the Southwest Border. The 
USMS will work with DOJ and the affected DHS components to ensure that 
the proper funding mechanism is in place to fulfill the USMS 
responsibilities.
    The USMS and Customs Border Protection (CBP) are exploring options 
to integrate the DHS IDENT automated booking system with the DOJ JABS 
automated booking system. Rather than establish a reimbursable 
agreement involving funding, the hope is that CBP would provide 
personnel to work alongside USMS staff on a temporary duty basis to 
integrate the systems. Providing CBP personnel (both government and 
contractors) to assist the USMS may be a way to improve 
interoperability without a establishing a reimbursable agreement.
    Question. ICE is requesting $30 million more for worksite 
investigations in areas no where near the Southwest Border. ICE arrests 
those who violate workforce rules involving document fraud, illegal 
workers, drug and human smuggling, as well as violent crime. These 
people are being prosecuted in federal court, which places further 
strain on DOJ resources and personnel and creates an immediate 
infrastructure crisis. What new resources are requested in this budget 
to address this?
    Answer. None. At the time the USMS was preparing its fiscal year 
2009 budget submission, the scope of ICE worksite enforcement efforts 
was unknown. The $12.7 million requested in the fiscal year 2009 budget 
was based on Southwest Border initiatives alone.
    Question. When will the Department request resources to respond to 
other immigration-related enforcement initiatives that are not on the 
border?
    Answer. The USMS will work with DOJ and the Administration to 
determine the appropriate level of funding for immigration-related 
enforcement initiatives, including those impacting the interior parts 
of the country.
                     law enforcement communications
    Question. In March 2007, the Inspector General reported that, of 
the 30,000 DOJ radios, 79 percent are not airwave compliant; 95 percent 
lack federally mandated security; and 73 percent are obsolete. The 
report found that this failure to upgrade DOJ components' antiquated 
communications represent an unnecessary risk to the safety of agents. I 
have heard cost estimates to seriously address this issue are in the 
$20 billion range. Do you believe that $20 billion is a reasonable 
estimate of the cost?
    Answer. No, $20 billion is not a reasonable estimate. The 
Department has never asked for nor estimated the size of the program to 
be $20 billion. The Department estimates that the implementation of the 
modernized Integrated Wireless Network (IWN) across the four DOJ Law 
Enforcement Components--Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF), Drug Enforcement Administration (DEA), Federal Bureau 
of Investigation (FBI), and United States Marshals Service (USMS)--will 
cost $1.23 billion over 6 years. Previously submitted estimates were 
well over $2 billion for a ten year implementation, but as we have 
briefed Appropriations staff within the last two months, we have worked 
with the components to streamline and simplify the implementation to 
cut cost estimates significantly and to reduce implementation time 
estimates by 40 percent.
    This estimated cost would meet all security and narrowband 
requirements and improve existing coverage for the four components. In 
addition there will be operational costs (maintenance of legacy radio 
systems, maintenance of the modernized IWN, technical refresh, and 
programmatic support) of $462 million over the six year period. This 
O&M funding covers more than just break/fix costs, it also pays for the 
management of the program, site rental fees, monitoring of the network 
and most importantly, it covers the expenses of special events such as 
the Super Bowl and the political conventions.
    Question. Do the DOJ components have adequate LAND Mobile Radio 
communications capability to carry out their core missions?
    Answer. The components are carrying out core missions with existing 
legacy LMR equipment. However, this capability is limited by the age of 
their legacy communications systems. As cited in the March 2007 DOJ 
Office of the Inspector General Report, the majority of the 
Department's LMR communications systems are over 10 years old and 
function in an analog mode rather than a digital mode, which means they 
have limited functionality and diminished voice communications quality. 
Most DOJ legacy radio systems: Are not narrowband compliant; do not 
provide appropriate encryption to protect sensitive information; are no 
longer supported by the manufacturer; provide little to no 
interoperability with any other agencies; and cannot facilitate 
wireless data transfers.
    Question. Are current communications systems in compliance with 
presidential narrow band mandates and/or National Institute of 
Standards and Technology (NIST) security guidelines?
    Answer. No. The DOJ Inspector General's report on IWN from March of 
2007 estimated that 21 percent of the Department's radios are compliant 
with presidential narrowband mandates and 5 percent are capable of 
meeting NIST security guidelines. Since March of 2007, the limited 
funds have been prudently used to improve narrowband compliance to 30 
percent and NIST security compliance to 15 percent.
    Question. Is the IWN [pronounced ``I win''] Seattle Blaine pilot 
project a feasible model for the future?
    Answer. The Seattle Blaine pilot is a feasible model for major 
metropolitan areas with high federal agent user densities. Areas with 
large numbers of agents typically compete for limited spectral 
resources. These areas would benefit from the implementation of the 
trunking technology solution implemented in the IWN in Seattle. The 
Department would like to remind the Committee that the Seattle project 
was a pilot and as such we expected to learn what worked and what did 
not work. As a result of our experience there, we now have a plan for 
where trunking solutions should be implemented, and where it is not 
cost effective.
    Question. In the event of another attack, absent communications 
interoperability, how will federal law enforcement officers communicate 
with each other?
    Answer. At the direction of the Congress, DOJ started the 25 Cities 
High Risk Metropolitan Area Interoperability Project in 2005. This 
effort is nearly complete and has greatly improved communications 
capabilities in 25 of America's largest cities. The program encourages 
the preparation of local communications plans for use in emergency 
situations, the design and implementation of shared interoperability 
radio channels, and the standardization of technical solutions that 
contribute to interoperability. Federal law enforcement officers are 
able to use, where they exist, the 25 Cities interoperability 
solutions. More information about the successful, and nearly complete, 
program can be provided upon request.
    Short of an installed and fully functional communications system 
that allows for seamless interoperability between federal, state, and 
local users, federal law enforcement officers generally depend upon 
locally prepared and distributed communications procedures that 
describe emergency communications practices and protocols that enable, 
albeit and possibly in a limited fashion, law enforcement and public 
safety entities to interoperate. In the case of a major unplanned 
event, officers will generally default to their locally prepared 
communications plans for interoperability.
    Local emergency communications plans often call for the exchange of 
communications devices between agencies, the setting up of shared 
dispatch and command centers to facilitate information exchange, the 
designation of common ``hailing'' channels, the sharing of re-
designated radio channels for various types of emergency communications 
traffic, the use of pre-planned and/or pre-staged ``patching'' 
facilities that can be used to cross-connect radio traffic, and the use 
of ``cached'' communications devices which are held specifically for 
distribution during emergencies.
                     wireless communication program
    Question. Are DOJ component operations and maintenance budgets 
clearly defined and supported equitably amongst the components?
    Answer. DOJ component legacy communications systems operations and 
maintenance (O&M) requirements are funded through budget requests 
submitted to the WMO for inclusion in the overall Law Enforcement 
Wireless Communications (LEWC) budget submission. Component O&M budget 
requests are clearly delineated by specific categories. The WMO 
centrally manages the LEWC account and provides funding allotments to 
the Department's law enforcement components which are responsible for 
the O&M of legacy systems. O&M allotments are dispersed annually 
(through reimbursable agreements) by the WMO once appropriations have 
been received. If operating under a Continuing Resolution (CR) or if 
annual appropriations have not been received, the components will 
receive incremental allotments based on the availability of funds.
    Question. Are resources allocated effectively in and amongst the 
DOJ WMO and the respective components? Are the components receiving 
adequate support considering the operational size and expense of the 
WMO?
    Answer. Yes. The concept of creating a centralized program 
management office was to save on overhead and redundant expenses. The 
centralized WMO was conceived of and approved by Appropriations staff. 
We believe that significant overhead cost savings (nearly $35 million) 
have been realized over the past four years.
    The WMO currently employs 19 Government and 39 contractor staff 
across the nation in support of Law Enforcement Wireless Communications 
(LEWC) to include the modernized Integrated Wireless Network (IWN) 
design, deployment, operations and maintenance (O&M). Of the numbers 
listed above, 1 government (Bothell, WA) and 13 contractor personnel 
(9--Seattle/Spokane 4--San Diego) support O&M and the Federal Bureau of 
Investigation (FBI) consolidated dispatch center for the modernized 
program.
    Question. If the WMO currently invests a large portion of its 
budget into the Seattle Blaine IWN pilot isn't that investment at the 
expense of thousands of failing antenna sites elsewhere? Who makes 
these investment decisions about priorities?
    Answer. The Department and the components manage approximately 
4,400 radio sites across the country. While a number of these sites are 
aged and require upgrades, they are not all in danger of failure. In 
fiscal year 2007, 74 percent of the Law Enforcement Wireless 
Communications account appropriation was directed to the components for 
legacy O&M and special requests. For fiscal year 2008 the amount 
directed to the components increased to 80 percent with additional 
reallocations pending.
    A program of this size and scope requires a solid foundation for 
moving forward. At the direction of Congress, we have invested a 
significant amount of time and effort to conduct a full and open 
procurement and to plan for a multi-year, nationwide system development 
and deployment program that efficiently leverages our existing base of 
legacy technologies while ensuring we continue to support ongoing law 
enforcement communications needs. While at the same time we must manage 
the major risks inherent within a large scale communications system 
deployment/conversion program.
    The WMO reports to the Department's Chief Information Officer who 
is ultimately responsible for LEWC investment decisions. However, the 
components have significant input to the investment decisions through 
their wireless offices and through their CIOs. These decisions are made 
with full visibility to the components. In addition, LEWC investment 
priorities are established and reviewed by the Wireless Communications 
Board (WCB) which is comprised by senior executives from each of our 
components. The WCB evaluates the priorities established by each of the 
component agencies and identifies the recipient based on a consensus of 
what is in the best interest of the component agencies and what systems 
are most at risk of jeopardizing agent safety.
    The funding allocated in support of the Seattle Blaine IWN pilot 
and Pacific Northwest Expansion has tested and validated the business 
goals and objectives necessary to move the program forward from a 
design, implementation, and operations standpoint. The Seattle Blaine 
IWN pilot proved the viability (and certain limitations) of the IWN 
design, technology, site consolidation, site build-out, and 
implementation process. Significant improvements in communications 
capabilities and system efficiencies were realized; with dramatic 
reductions in spectrum resources (50 percent reduction) and facilities 
(60 percent reduction) needed to meet law enforcement operational 
requirements. Additionally all of our law enforcement components now 
have the same (and larger) communications coverage ``footprint'' across 
the region.
    The Seattle Blaine pilot has been successful and further geographic 
expansion and system enhancements are regularly requested by the local 
users. However, due to inadequate funding, we have not been able to 
fully support such requests. The Seattle Blaine pilot, along with the 
25 Cities Program, has proven the effectiveness of federal, state, and 
local interoperability through the successful execution of many mission 
critical operations.
    Question. It has come to the Committees attention that the 
components have identified this concern and requested reallocation of 
resources repeatedly. Provide all of the requests for reallocation of 
resources in this program and the outcome of those requests.
    Answer. The WMO receives hundreds of funding requests each year 
from the components. Funding them all is not possible due to limited 
resources. Recognizing that the components receive 74 percent and 80 
percent respectively of the WMO budget for O&M and special projects, 
the Department is very judicious in funding all component requests. 
Mindful of the congressional language supporting consolidation of 
narrowband activities within DOJ, a careful balance is struck between 
funding plans for the future and continuing to invest in component-
specific systems. In July 1998, the U.S. House of Representatives, 
Committee on Appropriations Subcommittee Report on Fiscal Year 1999 
Appropriations Bill stated,

    ``The Committee supports the consolidation of this activity under 
the Attorney General, as such a consolidation will ensure maximum 
coordination and system compatibility . . . Given the scale of the 
investment that may be required, the Committee believes that any 
Department of Justice narrowband conversion initiatives must be based a 
comprehensive strategy which achieves the following goals: (1) 
increased spectrum efficiency; (2) interoperability among all 
Department components, as well as Federal law enforcement agencies; and 
(3) maximized efficiencies and savings through shared infrastructure 
and common procurement strategies. The Committee is concerned that 
currently, the Department of Justice lacks such a [consolidation] 
strategy. In fact, the current approach appears to be fragmented and 
agency-driven, emphasizing individual agency requirements or 
initiatives, which may or may not accomplish the goals outlined above 
in the most strategic, and efficient manner. Therefore, the Committee 
intends that this critical initiative be coordinated and implemented by 
the Department, rather than through individual DOJ components.''

    Working with the components the Department has developed a strategy 
that satisfies the goals identified by Congress and demonstrated in the 
IWN Seattle Pilot/Pacific Northwest Expansion and Department 
procurement strategies. In Seattle and the surrounding area the 
Department has realized a 50 percent reduction in spectrum and a 60 
percent reduction in facilities. These savings have been factored into 
our overall cost model. The Department has also awarded a Systems 
Integration contract to General Dynamics to implement the program 
across the nation. Additionally contracts that facilitate bulk 
purchases of subscriber equipment (hand sets) have been extremely 
beneficial in achieving savings to the government.
    Question. Why is the WMO program management budget two times 
greater than the components budgets combined?
    Answer. We do not know the source of the Component budgets you 
refer to, but we believe a simple match of respective budgets results 
in an ``apples to oranges'' comparison. The WMO undertakes a number of 
network management and financial management functions on behalf of the 
Components, freeing them of the need to perform these tasks. In 
addition, the scope of WMO management responsibility spans across all 
the Components--something for which no individual Component has a 
similar function.
    DOJ was tasked to establish a WMO to consolidate four separate and 
individually run Component wireless programs, realize operating 
synergies, and then plan and direct the design, development and 
implementation of a multi-billion dollar and multi-year advanced 
network solution. If one compares the WMO's size to other program 
management offices at other agencies, the WMO is too small to manage 
the nationwide deployment effort of a new advanced solution. Because of 
a lack of funding, the modernization effort is not moving forward at 
the previously planned pace. The tasks done by the WMO are very 
different from the tasks of the components.
    The LEWC account provides a funding vehicle to manage all DOJ 
tactical wireless communications through a single established program 
management office necessary to support a large, nationwide 
implementation program. This office is charged with planning, 
implementing, and sustaining a system that replaces the existing 
tactical communications services operated by DOJ components in fifty 
states. In addition, WMO centrally manages funding allotments to the 
Department's law enforcement components for the O&M of Legacy 
Communications Systems. The LEWC Joint Program Office (WMO) currently 
employs 19 Government and 39 contractor staff in support of the 
modernization design, deployment, operations and maintenance. The 
component agencies have radio communication offices focused on current 
mission operations and technical support rather than the IWN 
modernization.
    The components receive the majority of the Law Enforcement Wireless 
Communications Appropriation. In fiscal year 2007 and fiscal year 2008, 
this represented 74 percent and 80 percent of the funding, 
respectively.
    Question. This budget request primarily funds O&M for TWO radio 
systems in San Diego and Seattle at the expense of all others. Is it 
true that the WMO currently employs more full time employees and 
contractors than three of the four components in support of Land Mobile 
Radio? What is the justification for this inequity that leaves the 
smaller component staff managing nationwide radio programs with a 
fraction of the budget and human resources the WMO uses to manage 2?
    Answer. We're not sure of the headcount numbers you refer to, but 
we believe this may be another case of comparing very different 
organizations, responsibilities, and scope of operations. The 
Department indeed manages shared radio systems in San Diego and 
Seattle. However, the LEWC budget does more than fund two radio 
systems. In San Diego and Imperial County, CA there are over 7,800 DOJ 
and DHS radios affiliated with the system. In the Seattle/Pacific 
Northwest system there are approximately 1,000 radios representing DHS, 
DOJ, Treasury, and Commerce users. These systems accommodate a far 
greater number of users and have a larger footprint than individual 
component systems that serve only the needs of the specific component. 
In an effort to consolidate operations, the Department has worked with 
the FBI and USMS to transition the USMS onto the FBI systems around the 
country. This effort is 90 percent complete and provides the USMS with 
enhanced coverage. The remaining components have much smaller systems 
although deployed around the nation and use different O&M approaches 
(contracting out or using government FTE).
    It is not accurate to compare the WMO to the component offices as 
they have different missions. Per Congressional guidance, DOJ is trying 
to streamline maintenance through a central office. Until the 
modernized solution is rolled out, it is unfair to compare functions of 
one office to the functions of the mission office. If funding is not 
going to be provided to modernize the radios, then the role of the WMO 
should be re-examined. Additionally, many (14) of the contractors in 
the WMO are working directly in the field for the components, 
especially in San Diego and Seattle.
    The components receive the majority of the Law Enforcement Wireless 
Communications Appropriation. In fiscal year 2007 and fiscal year 2008 
this represented 74 percent and 80 percent respectively. With the funds 
remaining, the WMO pays personnel salaries and benefits, conducts 
modernization planning, pays O&M for the Pacific Northwest and San 
Diego systems, pays NTIA fees, and manages the 25 Cities program and 
continues the expansion efforts in the Pacific Northwest. In addition, 
all funding for special events like the political conventions and the 
Super Bowl come from the LEWC account.
    The fiscal year 2009 budget request, and past budget requests, 
includes much more than O&M for two radio systems. The fiscal year 2009 
President's budget request totals $121,651,000, which continues support 
of all component legacy systems and operations across the country, 
including but not limited to, San Diego and Seattle. As important, the 
fiscal year 2009 budget request has a program increase of $43 million 
to (1) begin implementing IWN in the DC metropolitan area and (2) for 
equipment replacement to address high priority component equipment 
needs.
    Question. Do the components have adequate LAND Mobile Radio 
communications capability to carry out their core missions?
    Answer. The components are carrying out core missions with existing 
legacy LMR equipment. However, this capability is limited by the age of 
their legacy communications systems. As cited in the March 2007 DOJ 
Office of the Inspector General Report, the majority of the 
Department's LMR communications systems are over 10 years old and 
function in an analog mode rather than a digital mode, which means they 
have limited functionality and diminished voice communications quality. 
Most DOJ legacy radio systems: Are not narrowband compliant; do not 
provide appropriate encryption to protect sensitive information; are no 
longer supported by the manufacturer; provide little to no 
interoperability with any other agencies; and cannot facilitate 
wireless data transfers.
    Question. Are current communications systems in compliance with 
presidential narrow band mandates and/or NIST security standards?
    Answer. No. The DOJ Inspector General's report on IWN from March of 
2007 estimated that 21 percent of the Department's radios are compliant 
with presidential narrowband mandates and 5 percent are capable of 
meeting NIST security guidelines. Since March of 2007, the limited 
funds have been prudently used to improve narrowband compliance to 30 
percent and NIST security compliance to 15 percent.
    Question. The 2007 IWN OIG audit pointed out, the majority of DOJ 
Land Mobile Radio Infrastructure is antiquated and failing. Does DOJ 
have radio communications operability?
    Answer. DOJ radio communications capability is limited by the 
composition of the DOJ component legacy communications systems. The 
Department's LMR communications systems currently in use are over 10 
years old and function in an analog mode rather than a digital mode, 
which means they have limited functionality and diminished voice 
communications quality. Additional legacy operability challenges faced 
by components include; federal-to-federal, and federal-to-state 
interoperability, and lack of support for over the air re-keying (OTAR) 
security encryption standards. The components have basic capabilities, 
but do need a modernized system to support their needs.
    Question. What percentage of DOJ users are not NIST security 
standard compliant? Be specific.
    Answer. Currently 86 percent of ATF radios, 91 percent of DEA 
radios and 84 percent of FBI radios are not compliant with NIST 
security standards. These percentages reflect an improvement since the 
DOJ OIG report of March 2007 which reported 100 percent of ATF and DEA 
radios and 93 percent of FBI radios were not compliant. Updated figures 
for the U.S. Marshals Service are not available but it is safe to 
assume that their percentages are similar to the other components. DOJ 
has consistently reported our lack of compliance in testimony and in 
staff briefings.
    Question. Does this mean Federal Agents enforcing federal law and 
providing domestic security are using encryption that has been 
compromised and should not considered secure?
    Answer. Yes. Our legacy wireless systems employ encryption 
technology that is out-dated and could be subject to compromise.
    Question. How do DOJ communications capabilities compare to DHS?
    Answer. This is a very complicated question and the Department 
encourages you to ask Department of Homeland Security (DHS) about their 
capabilities. At a high operational level, both agencies face similar 
mission challenges. However, there is a significant difference in how 
the two Departments manage their respective wireless programs. Most 
notably, DHS funding for its radio programs is not centrally managed by 
a WMO as done at DOJ. Rather, DHS law enforcement components get their 
radios funded at the component level, which would typically lead to the 
individual (and possibly separate) prioritization of investment 
decisions (something that we were tasked by Congress to remedy with the 
establishment of our WMO).
    It is not clear what type of inter-operability exists between their 
components and with state and locals. The modernized IWN is being 
designed to allow for inter-connectivity between DOJ assets, DHS assets 
and local assets.
    Question. Is there a central dispatch or information center within 
DOJ?
    Answer. As it relates to radio dispatching, the answer is no. As 
part of the plans for the modernized system, we envision a central 
network operations center to manage the backhaul networks across the 
country and to serve as a focal point for support to the agents (and 
their support staff) in the field.
    Question. Does DHS have a higher level of operability than DOJ?
    Answer. Yes. Many of the DHS components have modernized their radio 
systems in the past five years. We cannot assess how well coordinated 
or financially effective these investments have been. However, the 
average age of their typical radio unit is much lower than the typical 
DOJ radio.
    Question. Is the IWN Seattle Blaine pilot a feasible model for the 
future? Is trunking technology a requirement for DOJ?
    Answer. The Seattle Blaine pilot is a feasible model for major 
metropolitan areas with high federal agent user densities. Areas of 
high user densities typically coincide with scarcity of spectrum 
resources. While the relative spectral efficiency of trunking radio 
technologies can be debated in remote or low-density rural areas, high 
user-density areas always benefit from the implementation of trunking 
technologies.
    A few design criteria from the Seattle Blaine pilot have been re-
evaluated and probably would not be implemented nationwide. The 
criteria include radio tower site improvements and backhaul redundancy. 
While overall system reliability in a trunked system is improved, 
nationwide implementation may be too costly. Selective application of 
redundancy at the most vulnerable system nodes, and site improvements 
commensurate with the equipment being installed would be the two major 
deviations from the Seattle Blaine model.
    The differences in ease-of-use between conventional and trunking 
radio are substantial. The WMO continually receives positive feedback 
from users on the Seattle Blaine IWN system regarding usability and 
roaming capabilities. The use of trunking technologies is not an 
explicit stated requirement for IWN, however, we feel the minimal 
incremental cost (estimated to be 30 percent) is well worth the 
significant improvement in radio usability and roaming capabilities for 
many areas, especially in urban settings.
    Question. Given the lack of support from OMB for the DOJ mission 
can the Department continue to spend $200 million and seven years 
building each radio system throughout the country?
    Answer. Through the IWN program, the DOJ will provision and 
maintain a range of secure and reliable wireless communications 
services, including voice, data and multimedia services that support 
counterterrorism, counterintelligence, law enforcement and emergency 
response operations. The DOJ IWN strategy will be implemented over a 
six year period in a series of overlapping phases. The planned six-
year, four phase upgrade and replacement of legacy communications 
systems will include regional design and deployment of the new tactical 
communications systems and services focusing on urban centers. The cost 
summary for a six-year IWN deployment is approximately $200 million per 
year from 2009-2014.
    For fiscal year 2009, OMB was supportive of the Department's IWN 
program and approved a program increase of $43 million to address 
priority radio infrastructure needs. The Department intends to continue 
working with OMB in future budget cycles to ensure that all 
Departmental priorities, including IWN, are discussed and addressed.
    Question. To what degree do DOJ operational personnel and technical 
program managers influence the direction and decisions of the WMO?
    Answer. Operational and program management personnel within each 
component agency formulate requirements and staff those requirements 
through the respective management chains. Senior managers from each 
agency participate equally in the DOJ Wireless Communications Board 
(WCB). All major system deployment decisions are vetted through the 
WCB. The WMO does not act unilaterally, and in fact takes all major 
program direction from the WCB, chaired by the DOJ CIO Mr. Hitch.
    Question. Is there adequate input from the agents in need of the 
resource?
    Answer. The component agency headquarter staffs coordinate with 
their field agents in identifying and defining IWN requirements to the 
WMO. However, WMO personnel also meet quarterly with local agents using 
IWN to discuss its status, lessons learned, and operational 
requirements. When in the field and opportunities arise, the WMO meets 
as often as possible with current and future IWN users. Also, in 
September 2007, the WMO hosted the first DOJ Wireless Summit attended 
by over 100 DOJ and component agency personnel from across the country, 
ranging from management to technical staff to field agents, to discuss 
trends in wireless technology, DOJ wireless initiatives, and the future 
of the IWN architecture and deployment. The summit was a success in 
accomplishing its objectives with future summits highly endorsed by the 
component agencies.
    Question. Is there, or should there be operational oversight/
leadership at the WMO?
    Answer. The Department's Investment Review Board (DIRB) provides 
oversight of the WMO's investment recommendations/decisions. The DIRB 
is chaired by the Deputy Attorney General. In addition, the WMO 
executes the decisions from the Department CIO and Wireless 
Communications Board (WCB) based on operational priorities as defined 
by the component agencies and DOJ management. The WMO welcomes 
participation from the operational users; however, there needs to be 
one executive oversight body responsible for looking at the set of 
requirements as a whole and providing direction on what is in the best 
interest of the Department. The WCB is tasked with assessing 
Department-wide needs and requirements and making recommendations 
accordingly.
    Question. How many operational personnel are currently employed by 
the WMO?
    Answer. The WMO employs personnel with backgrounds in program 
management, budgeting, procurement, and planning. It is not designed to 
be operational, but it is designed to rely on the components for 
operational input. The WMO staff includes personnel previously employed 
by the FBI, DEA, DOD, military, and private industry who experience 
supporting operations. The WMO is an integrated program office covering 
all the disciplines required to support a large, nationwide 
implementation program.
    Question. Beyond Component surveys what operational oversight of 
the WMO exists?
    Answer. The WMO holds a project team meeting on a monthly basis to 
brief status of all project activities. The components send 
representatives to this meeting to provide insight as well as oversight 
on WMO progress. The WMO team reports directly to the Deputy CIO who 
has day-to-day oversight responsibilities. In addition, the WMO has 
been subjected to numerous audits from internal and external groups.
    Question. What law enforcement, operational or tactical 
communications experience do the employees of the WMO have?
    Answer. The WMO is tasked with developing a secure wireless, 
nationwide tactical communications network that addresses federal law 
enforcement requirements to communicate internal to and across 
agencies, allow interoperability with state and local law enforcement 
partners, and meet spectrum mandates and NIST security guidelines. To 
achieve this task the WMO actively solicits input from its law 
enforcement components and agents on requirements and operational 
missions. The WMO is staffed with the requisite experience to oversee 
and maintain accountability for the design and implementation of a 
system of systems that will meet the requirements of, and allow the law 
enforcement agents and agencies to accomplish mission operations.
    The WMO has recruited staff from the law enforcement components and 
the military that have many years of direct experience with component 
(FBI/DEA) radio communications to include engineering, operations and 
spectrum management. In addition the WMO has looked outside the 
Department to DOD, other Departments and industry for certified Project 
Managers, staff with wireless industry and large scale contracting 
experience. The WMO also has an Administrative and Financial Staff led 
by a Certified Public Accountant (CPA) and former auditor to formulate 
budget strategies and maintain an accurate accounting structure, as 
well as enhance internal controls. The staff also includes an expert in 
the field of security certification and accreditation to ensure systems 
are protected to the maximum extent possible. A contracting officer is 
also assigned to the WMO to assist the program in executing on its 
acquisition strategies and procurement requirements.
    Question. Do components have adequate human resources to progress 
into the next generation of radio communications?
    Answer. The components are fully aware of the evolutionary changes 
taking place in the tactical communications marketplace. Since this 
will be a consolidated system, there will necessarily be changes in 
business rules and how systems are managed. All of the specific skill 
sets are not known at this point, but the WMO will provide training for 
component staff in new technologies as deployed. In the Seattle model, 
the WMO has hosted infrastructure training for technical staffs as well 
as subscriber training for the Agents.
    One of the reasons for doing a major procurement with a large 
systems integrator was to leverage the knowledge of the contractor 
employees as we attempt to build the next generation of radios. 
Improvements in satellite and data transmission will impact the radios 
of the future, and therefore the design must look beyond current 
capabilities.
    Question. What efforts are being made to leverage existing 
resources such as JUTNET, other governmental resources, and further 
consolidation?
    Answer. We have evaluated Justice Unified Telecommunications 
Network's (JUTNET) capabilities and assessed the potential to leverage 
those capabilities. Unfortunately, at this time, there is little 
potential for JUTNET to satisfy the needs of our wireless networks. 
JUTNET is currently a data communications system and is not designed to 
support the voice requirements that would be demanded by our wireless 
systems. Consequently, the general scope of JUTNET and the 
communications needs of the modernized IWN are different and lack 
suitable amounts of commonality to justify re-engineering or otherwise 
modifying JUTNET. A major strategic goal of the Department's CIO is to 
effectively leverage our enterprise investments to achieve synergies 
across DOJ. As JUTNET evolves to support voice services, we will work 
closely with that management team to ensure we can further consolidate 
and share IT infrastructure to achieve operations and cost synergies.
    To take advantage of possible cost savings while satisfying our 
operational requirements, the WMO is working with our DEA component to 
leverage a DEA-recommended Department of Defense network for 
communications backhaul. The solution is being implemented in the Gulf 
Coast region. The WMO also works with other Federal partners and, State 
and Locals to leverage opportunities for sharing communications 
backhaul and facilities where possible.
    The San Diego and Seattle systems are fully consolidated and shared 
across the components. Our updated IWN Plan ($1.23 billion versus $2+ 
billion) emphasizes and requires re-use of existing radio sites to 
reduce costs. In the past, one component would pay rent across the 
street from another component's rented radio site on a downtown 
skyscraper. The systems use, for example, a single building, antenna 
system, circuit for connectivity, site license, spectrum and staff 
resources. With this consolidation of former DOJ component assets in 
San Diego and Seattle into a single consolidated ``system of systems'' 
it is far more reliable, requires fewer radio sites and less O&M is 
needed to maintain single systems. Wireline circuits are now installed 
for the benefit of all DOJ components and not the exclusive use of one.
    Question. Do current cost models and modular budgets adequately 
address components radio communications requirements? How are radios 
funded for the hundreds of state and local task force agents?
    Answer. At the current funding level for LEWC, we believe that the 
funding level for the old legacy systems and handsets is absolutely 
inadequate. For all the reasons stated in the questions, the old 
systems and handsets are at the end of their useful life and 
``throwing'' additional money at these obsolete systems is not a long 
term (or even intermediate term) strategy. We are rapidly approaching 
the time when we will not be able to find the replacement parts and 
service inventory necessary to maintain these networks. A new, more 
modern, more secure and interoperable solution is needed. The modular 
budgets spread the existing funding around in an equitable manner, but 
the funding does not meet the needs of the agents in the field.
    The WMO is not responsible nor is it funded to provide radios to 
task force officers at the state and local level. However, when 
requests for task force support are given a high priority by the 
submitting component and the WCB approves, we try to fund radios for 
use by the task force officers. If we had a modernized system, the 
locally procured (usually with federal grant dollars) and locally 
maintained handsets for the locals could work on the federal network 
(certain channels).
                       pay and benefits overseas
    Question. What efforts has the Department of Justice taken to 
ensure retention of its best and brightest, particularly in the 
enforcement agencies out in the field and those agents and employees 
working outside the United States?
    Answer. While Department of Justice law enforcement officials 
working outside the United States may be eligible for certain 
additional pay or benefits based on the location, the retention 
incentives available to those employees are the same as the incentives 
available to those located in the United States.
    The FBI continues to use the authorities it received in the 2005 
Consolidated Appropriations Act, some of which expire at the end of 
2009, to better compete with private industry and improve attrition 
rates. These authorities include recruitment, relocation, and retention 
incentives, student loan repayment, and the University Education 
Program. Recruitment bonuses allow the FBI to competitively recruit 
employees who possess special qualifications for hard-to-fill FBI 
positions, relocation bonuses increase the number of employees 
interested in hard-to-fill positions within the FBI by, in effect, 
reducing the employee's relocation costs, and retention allowances are 
used to retain current employees who possess high-level or unique 
qualifications or who fill critical FBI needs. Retention allowances may 
be provided on either an individual or group basis to help the FBI 
retain certain employees or categories of employees, such as 
intelligence analysts and police officers.
    The FBI has also used education benefits to improve the quality and 
job satisfaction of our workforce. For example, in order to improve our 
recruitment and retention of Intelligence Analysts, the FBI repaid 359 
student loans for these employees in fiscal year 2007. The FBI has also 
used the University Education Program to fund tuition expenses for 
current employees seeking to obtain certifications and academic 
degrees, approving payments for 679 participants in fiscal year 2008.
    Question. Is danger pay provided to agents and DOJ employees 
actively working along the Southwest Border?
    Answer. The FBI's Legal Attache (Legat) office in Mexico maintains 
a presence in Mexico City, Guadalajara, and Monterrey, but does not 
maintain a permanent presence along the Southwest Border. Currently, 
neither FBI employees assigned to the Mexico City Legat nor those 
assigned in the United States near the Southwest Border are afforded 
danger pay. It is the FBI's understanding that DEA personnel working in 
Mexico have been eligible to receive a danger pay allowance of 15 
percent of basic pay since approximately 1991. In April 2008 the FBI's 
Mexico City Legat asked FBI Headquarters to consider affording danger 
pay to all FBI personnel in Mexico based on the hostile environment in 
Mexico, including threats from organized crime fugitives, rebels, and 
terrorist groups, as well as street and residential crimes. This 
request is under review.
    Question. How many computer databases with similar information do 
we need before we have too many?
    Answer. Proper utilization of taxpayer funds is important and 
duplicative government programs should be avoided, however, the DOJ 
systems are not duplicative with other components/agencies.
    Question. The Department has continually had problems maintaining 
the jurisdictional integrity of the agencies it oversees. Namely the 
ATF and the FBI both have and claim jurisdiction over explosive 
incidents.
    Please explain how having yet another agency involved in explosive 
incidents is helpful and productive to preventing and solving a 
terrorist incident?
    Answer. The Attorney General, in coordination with the Department 
of Homeland Security, Department of Defense, and others, is currently 
developing the implementation plan as requested by HSPD 19. While the 
plan has not been fully developed yet, it will address the Senate's 
concerns over terrorism jurisdiction and incident management. 
Additionally, on July 8, 2008, the Director of FBI and the Acting 
Director of ATF signed a Memorandum of Understanding on ATF/FBI 
Protocols for Response to Explosives-related Incidents which delineates 
the roles of each agency when responding to bombing and explosives 
related incidents. The Department intends to make sure the HSPD 19 
implementation plan clearly identifies core Department responsibilities 
so that the involvement of another agency does not compromise our 
priorities.
    Question. If ATF and FBI have trouble sharing this jurisdiction 
within the Department how will the Federal Government manage yet 
another?
    Answer. HSPD 19, when fully developed and implemented, will ensure 
that all relevant parties within the Federal Government understand 
their role in explosive events relating to terrorist bombing incidents 
response. The policy will delineate who has jurisdictional control and 
the roles of the respective agencies.
    Question. Be specific in how these events will be managed if both 
justice agencies and the approximately 22 DHS agencies show up?
    Answer. HSPD 19, when fully developed and implemented, will ensure 
that all relevant parties within the Federal Government understand 
their role in explosive events relating to terrorist bombing incidents 
response. The policy will delineate who has jurisdictional control and 
the roles of the respective agencies. Also, DHS' Office of Bombing 
Prevention is not an operational response organization. The Department 
has the responsibility for operational response. We are committed to 
ensuring this important delineation. Therefore, response from a third 
party is not expected to be an issue.
    Question. What will the decision process be if all three respond to 
an incident? Be specific.
    Answer. The Department is working with the White House and DHS to 
develop the implementation plan for HSPD 19. When completed, the lines 
of authority will be clear as to who will have the lead in addressing 
different types of bombing incidents. At this point and time it is not 
possible to be overly specific about the decision process if all three 
organizations respond. For further explanation, see the answer to the 
next question. However, the Department is sensitive to and fully 
engaged on this issue with the White House and DHS to ensure our 
interests are considered and protected as the implementation plan for 
HSPD 19 is being developed.
    Question. Identify the role of each in an example when at one 
incident ATF is the lead, another incident when FBI is the lead and yet 
another incident when DHS is the lead?
    Answer. On July 8, 2008, the Director of FBI and the Acting 
Director of ATF signed a Memorandum of Understanding on ATF/FBI 
Protocols for Response to Explosives-related Incidents which delineates 
the roles of each agency when responding to bombing and explosives 
related incidents. DHS' Office of Bombing Prevention is not an 
operational response organization. DOJ has the responsibility for 
operational response. Therefore, the response from a third agency 
should not be an issue. However, once HSPD 19 is fully implemented, the 
lines of authority will be reflected as to who will have the lead in 
addressing different types of terrorist related bombing incidents.
    Question. If the lines of authority are unclear who will the State 
and locals call for assistance?
    Answer. The Department continues to work with the White House and 
DHS to ensure that the HSPD 19 implementation plan will ensure that 
clearly defines the lines of authority for differing terrorist related 
bombing incidents are clearly defined. Once that policy is fully 
implemented state and local officials will know which agency to contact 
for assistance during an incident.
    Question. Why are we paying 2 federal agencies to do research on 
explosives?
    Answer. The role of explosives research varies by agency. While it 
is important to ensure the proper expenditure of taxpayer funds and 
avoid duplication of efforts it may not be possible for a single agency 
to do the entirety of explosives research. Within the Department the 
FBI operates a number of explosives research programs at Quantico as 
well as at Redstone that address areas such as render safe techniques 
and bomb disposal. ATF on the other hand manages research projects and 
programs such as the National Center for Explosives Training and 
Research (NCETR) as well as post-blast research intended to foster ATFs 
abilities and techniques for post-blast investigations. The Department, 
however, is unable to comment on the program activities of DHS and any 
research activities that might be underway there.
    Question. Should we transfer this authority to the Department of 
Homeland Security since it seems to fit their mission statement? Be 
specific.
    Answer. No. The Department continues to have legitimate reasons for 
pursuing explosives research. ATF's research in explosives, for 
example, is vital to the accomplishment of their mandate. Such research 
not only benefits ATF in addressing explosives incidents but also 
enables them to better train state and local organizations as well as 
the U.S. military in Iraq. It also provides important data that is 
regularly used in ATF's investigative proceedings. The FBI continues 
their focus on the development of diagnostic and render safe 
technologies and tools. The FBI participates with ATF as active members 
in the DOD Technical Support Working Group (TSWG).
    Question. Do not agree on the information given out over the secure 
network? Do not agree on the terrorist explosive tactics? Do not agree 
on the proper response and handling by the state and locals?
    Answer. Please provide further clarification as to what this 
question asks.
    Question. Homeland Security is going to develop multi-
jurisdictional improvised explosive devices security plans for high-
risk jurisdictions. Isn't this something that the FBI should be using 
their JTTFs for?
    Answer. The Joint Terrorism Task Forces (JTTFs) are operational 
units, and are not responsible for developing comprehensive response 
plans. These plans include program areas outside the criminal 
investigation responsibilities of the JTTF. DHS is responsible for 
providing input for the National Response Framework, which outlines how 
the Nation manages response to terrorism incidents. In essence, the 
efforts of DHS mirror those that were previously performed by the DOJ 
National Domestic Preparedness Office, which was transferred to DHS in 
the 2002 Homeland Security Act. The JTTFs, in concert with other 
relevant elements of the Department of Justice, will work as 
appropriate to coordinate with the DHS.
    Question. Section 318 of the bill provides that the Secretary, 
shall--

    ``(1) evaluate and assess nonmilitary research, development, 
testing, and evaluation activities of the Federal Government relating 
to the detection and prevention of, protection against, and response to 
explosive attacks within the United States; and
    ``(2) make recommendations for enhancing coordination of the 
research, development, testing, and evaluation activities described in 
paragraph (1).''

    Does the Department of Justice believe that this oversight and 
assistance from the Homeland is necessary?
    Answer. The Department of Justice has not taken an official 
position on the Bill. Therefore, we cannot answer this question at this 
time.
    Question. What expertise does the Department of Homeland Security 
have that would give them the expertise to evaluate and assess 
nonmilitary research, development, testing, and evaluation activities 
of the Justice Department relating to the detection and prevention of, 
protection against, and response to explosive attacks within the United 
States?
    Answer. The Department of Justice believes it would be 
inappropriate to comment on the expertise of another federal agency. 
While multiple organizations across the Federal Government have 
programs to address this threat, the Department of Justice continues to 
work with all stakeholder agencies to avoid any redundancy or 
duplication of effort while best leveraging the unique expertise of 
each agency.
    Question. I am concerned to see the Department's position or lack 
thereof on IED training. It's only a matter of time before terrorists 
will begin detonating improvised explosive devices in the United 
States. The ATF and FBI are the premier experts in handling explosives 
and responding to an explosives incident, yet the Department of Justice 
is somehow ceding this jurisdiction to a fledgling agency that has 
endured embarrassing failure after failure.
    The Department of Homeland Security failed miserably in handling 
hurricane response, contracting Coast Guard ships that aren't 
seaworthy, the virtual fence, baggage-screening systems, the biometric 
entry-exit tracking system, and now Justice leadership has quietly 
watch the newly created DHS Office of Bombing Prevention begin seeping 
into its explosives jurisdiction. The Department of Homeland Security 
has its hands full with the border, among other problems. I would 
prefer the world's best and most experienced professionals in the ATF 
and FBI handle explosive prevention and training.
    Why has the Department idly sat by as the Office of Bombing 
Prevention has grown?
    Answer. By no means is the Department sitting idly on this issue. 
In fact, we The Department continue to train State, local, federal and 
international partners on render safe, post blast, disposal, prevention 
and detection. Training is an important component in ensuring a 
successful defense against IEDs. Facilities like the National Center 
for Explosives Training and Research (NCETR) will continue the 
Department's efforts in this important component. The Department is not 
aware of DHS' specific IED training curriculum and cannot comment 
specifically on that but we are working with the White House and DHS to 
make sure our interests are protected.
    Question. The establishment of the Office for Bombing Prevention, 
is to address terrorist explosive threats, and for other purposes. This 
proposal contains language that would provide yet another computer 
database that would provide ``a secure information sharing system that 
allows the sharing of critical information relating to terrorist 
explosive attack tactics, techniques, and procedures.''
    Why is it necessary to create yet another explosives data base?
    Answer. ATF's Bomb Arson Tracking System (BATS) is a case 
management system used by federal, State, and local agencies 
investigating arsons, bombings, and other explosives incidents. The 
system provides law enforcement and fire service officials with access 
to information collected in ATF's U.S. Bomb Data Center (USBDC), the 
repository for all domestic bombing and arson incidents.
    To avoid duplication of effort and allow more efficient use of 
Department resources, the FBI no longer tracks domestic law enforcement 
bomb incident data. However, in support of its intelligence and counter 
terrorism missions, the FBI continues to collect bombing-related 
intelligence and information as well as requests for FBI assistance 
from other law enforcement agencies. This information is entered into 
the FBI's enterprise case management system; all data is eventually 
archived.
    EXPeRT is the FBI's document management system and electronic 
reference library for organizing and making available for future 
reference all the documents, reference material, photos, and other 
information related to explosives forensic examinations conducted by 
the FBI Lab Explosives Unit and the Department's Terrorist Explosive 
Device Analytical Center (TEDAC). EXPeRT is used within the FBI to 
share case data and reference material that support forensic exams and 
investigations, within TEDAC in the DOJ/DOD/INTEL Community to share 
information.
    DOJ's explosives data and information sharing systems (EXPeRT, and 
BATS) are now hosted, or in the alternative hyperlinked, on the Law 
Enforcement Online (LEO) portal.
    The DHS database referenced in proposed legislation already exists 
as the National Capability Database (NCAD). The DHS database collects 
and shares information about federal, state, and local law enforcement 
and emergency service capabilities including bomb squad, dive teams, 
explosives detection canine teams, and SWAT teams. State and local 
planners use NCAD to identify gaps and apply ``best practices'' to 
improve their security posture and develop multi-jurisdiction plans to 
respond to emergencies.
    Question. Is this an agency looking for a mission?
    Answer. The Attorney General is the chief law enforcement officer 
of the United States with the duty to protect, deter, prevent and 
respond to terrorist attacks. Missions and functions of DHS are 
mandated in other laws. DOJ cannot address the missions currently 
assigned to the Department of Homeland Security.
    Question. Doesn't the Department already maintain 2 databases 
related to explosive incidents?
    Answer. ATF maintains the Department's sole database on arson and 
explosives incidents. ATF's Bomb Arson Tracking System (BATS) is a case 
management system used by federal, State, and local agencies 
investigating arsons, bombings, and other explosives incidents. The 
system provides law enforcement and fire service officials with access 
to information collected in ATF's U.S. Bomb Data Center (USBDC), the 
repository for all domestic bombing incidents.
    To avoid duplication of effort and allow more efficient use of 
Department resources, the FBI no longer tracks domestic law enforcement 
bomb incident data. However, in support of its intelligence and counter 
terrorism missions, the FBI continues to collect bombing-related 
intelligence and information as well as requests for FBI assistance 
from other law enforcement agencies. This information is entered into 
the FBI's enterprise case management system; all data is eventually 
archived.
    EXPeRT is the FBI's document management system and electronic 
reference library for organizing and making available for future 
reference all the documents, reference material, photos, and other 
information related to explosives forensic examinations conducted by 
the FBI Lab Explosives Unit and the Department's Terrorist Explosive 
Device Analytical Center (TEDAC). EXPeRT is used within the FBI to 
share case data and reference material that support forensic exams and 
investigations, within TEDAC in the DOJ/DOD/INTEL Community to share 
information.
    DOJ's explosives data and information sharing systems (EXPeRT, and 
BATS) are now hosted, or in the alternative hyperlinked, on the Law 
Enforcement Online (LEO) portal.
    Question. Does the FBI or ATF system already do this? If not, why 
not?
    Answer. The DHS database referenced in proposed legislation already 
exists as the National Capability Database (NCAD). The DHS database 
collects and shares information about federal, state, and local law 
enforcement and emergency service capabilities including bomb squad, 
dive teams, explosives detection canine teams, and SWAT teams. State 
and local planners use NCAD to identify gaps and apply ``best 
practices'' to improve their security posture and develop multi-
jurisdiction plans to respond to emergencies.
    Question. The Administration has indicated that one of its 
priorities surrounding the violence occurring along the SWB is to stop 
the flow of firearms into Mexico.
    While interdiction at the border is one way to deal with the 
problem, it seems that we also need to identify and disrupt the sources 
of these weapons.
    What is the Department doing to ensure that illegal firearms 
trafficking investigations are a priority along the SWB?
    Answer. Since 1972, because of its specific statutory authorities 
over firearms and explosives, ATF has played a strategic role in 
addressing violent crime along the Southwest Border--investigating 
criminal organizations that traffic firearms and explosives from the 
United States into Mexico and regulating Federal firearms licensees 
(FFL) and Federal explosives licensees (FELs) In April 2006, ATF 
created Project Gunrunner to enhance resources and focus efforts 
strategically on the Southwest Border to deny firearms, the ``tools of 
the trade,'' to criminal organizations in Mexico and along the border 
and to combat firearms related violence affecting communities on both 
side of the border.
    Intelligence gathered by ATF and other domestic Federal law 
enforcement entities strongly suggests that drug trafficking 
organizations have tasked their money laundering, distribution and 
transportation apparatuses--all of which reach across the border into 
the United States--to acquire firearms for illegal transfer back to 
Mexico for use in facilitating narco-trafficking and other criminal 
activities. ATF has developed an extremely effective real-time 
intelligence and evidence sharing network with the Mexican government. 
Given current circumstances and increasing volume, however, the system 
has been overwhelmed on both sides of the border.
    ATF is working with Mexican officials to increase their current 
usage of ATF's eTrace system. eTrace provides web-based access to ATF's 
Firearms Tracing System to allow law enforcement both domestically and 
internationally the ability to trace firearms seized in connection with 
criminal investigations. From fiscal year 2006 to fiscal year 2008, ATF 
has experienced more than a 100 percent increase in the number of trace 
requests from Mexico. With the deployment of eTrace to the nine 
consulates and the eventual implementation of Spanish eTrace, these 
numbers should continue to increase in the coming years. ATF's goal is 
to deploy eTrace software to all 31 states within the Republic of 
Mexico.
    Under Project Gunrunner, ATF has approximately 148 special agents 
dedicated to working firearms trafficking investigations on a full time 
basis and 56 industry operation investigators (IOI) responsible for 
conducting regulatory inspections of FFLs. ATF is also expanding its 
presence at the El Paso Intelligence Center (EPIC) which serves as the 
central repository and ``clearinghouse'' for all weapons related 
intelligence collected and developed by ATF's field personnel and 
attaches in Mexico as well as by all other Federal, State and local law 
enforcement entities involved in narcotics interdiction and 
investigation along the U.S./Mexico border.
    ATF's industry operations strategic plan under Project Gunrunner 
includes an outreach component to both the firearms industry and law 
enforcement at the Federal, State, and local level. ATF's outreach 
includes firearms seminars conducted within the border region to 
educate the firearms industry concerning schemes associated with 
firearm trafficking. An integral part of this outreach is ATF's ``Don't 
Lie for the Other Guy'' public awareness campaign that educates both 
FFLs and the general public on their responsibilities as it relates to 
purchasing firearms. ATF also partners with the National Shooting 
Sports Foundation (NSSF) on a retailer education program that includes 
a public awareness component with public service messages warning 
persons not to purchase firearms for others. Plans are underway to take 
this initiative to several cities along the Southwest Border. ATF also 
continues to provide training on SWB gun trafficking to law enforcement 
agencies both in the United States and abroad.
    ATF is pursuing funding to establish firearm trafficking groups 
within each of its four border field divisions. The groups would be 
staffed by one group supervisor, eight special agents, two IOIs and one 
investigative analyst. These trafficking groups would be fully 
dedicated to firearm trafficking investigations. ATF is also seeking 
funding from the Organized Crime Drug Enforcement Task Force (OCDETF) 
Executive Office for five positions to expand ATF's Gun Desk at the El 
Paso Intelligence Center (EPIC)--three intelligence research 
specialists (IRS), one investigative analyst and one full-time special 
agent. An additional four IRS positions have been requested to support 
the field divisions on the Southwest Border. The team at EPIC will 
coordinate with the IRSs in the field divisions to gather, analyze, and 
disseminate intelligence from ATF investigations targeting firearms 
trafficking cases that involve OCDETF CPOT- and RPOT-linked along the 
Southwest Border. The teams will also liaison with all participating 
agencies at EPIC to ensure intelligence gathered is coordinated.
    ATF is further collaborating with the Mexican government by 
deploying special agents to U.S. Consular offices in Mexico City and 
Monterrey, with additional deployments planned for Hermosillo, Baja 
California, Ciudad Juarez, and Tijuana in the near future, if funding 
is available. In this way, ATF will be able to work directly with 
Mexican counterparts, taking advantage of real-time intelligence that 
will benefit drug-related firearms trafficking investigations on both 
sides of the border. Intelligence sharing and transnational 
collaboration will provide valuable additional resources for ATF and 
its law enforcement partners. Those resources will be directed to 
identifying violent gangs and firearms traffickers that are also 
associated with OCDETF targets.
    Question. The Committee was under the impression that determining 
technology to be used in the field by bomb squads was part of the role 
for the Hazardous Devices School. How will this new initiative at the 
Dept of Homeland Security merge with the efforts of the FBI and the 
ATF?
    Answer. The Department of Justice is unable to comment on another 
Department's initiatives. The Hazardous Devices School (HDS) is not 
designed to serve as a research and development agency; however, the 
HDS is integral to the identification and transmission of operators' 
requirements and assists in the test and evaluation of emerging 
technologies developed through the efforts of the DOD Technical Support 
Working Group (TSWG) and others. TSWG is an interagency and 
international research and development organization focused on short 
term, quick turn around, fielding of equipment to meet operators' 
requirements. Both FBI and ATF, as well as OBP, are members of the TSWG 
and the National Science and Technology Council for Counter IED 
Research. As it stands, the Department continues to determine the 
technology best suited for bomb squad field use.
    Question. How much has the taxpayer already expended to create and 
maintain the current 2 systems?
    Answer. The cost to the taxpayers for the creation and maintenance 
of ATF's current database system is $13.8 million, with the first 
database being created in 1996.
                                 ______
                                 
             Questions Submitted by Senator Mitch McConnell
    Question. What are the authorized and the current staffing levels 
for the Bureau of Prisons facilities within the Commonwealth of 
Kentucky, including FMC Lexington, USP Big Sandy, FCI Ashland, FCI 
Manchester, and USP McCreary?
    Answer.

------------------------------------------------------------------------
                                          S&E Authorized    S&E Current
                                               Level      Staffing Level
------------------------------------------------------------------------
FMC Lexington...........................             501             430
USP Big Sandy...........................             385             337
FCI Ashland.............................             289             258
FCI Manchester..........................             308             273
USP McCreary............................             376             330
------------------------------------------------------------------------

    Question. What are the current inmate-to-staff ratios at each of 
the Bureau of Prisons facilities within the Commonwealth of Kentucky, 
including FMC Lexington, USP Big Sandy, FCI Ashland, FCI Manchester, 
and USP McCreary?
    Answer. The current (June 5, 2008) inmate-to-staff ratios are as 
follows:

------------------------------------------------------------------------
                                                               Ratio
------------------------------------------------------------------------
FMC Lexington...........................................        3.9 to 1
USP Big Sandy...........................................        5.2 to 1
FCI Ashland.............................................        6.0 to 1
FCI Manchester..........................................        6.1 to 1
USP McCreary \1\........................................        3.8 to 1
------------------------------------------------------------------------
\1\ USP McCreary is transitioning from Medium Security to High Security
  Programming. The inmate population will continue to increase until the
  transition is complete and thereby increase the Inmate to Staff Ratio.

    Question. What are the authorized, optimal, and minimally-safe 
inmate-to-staff ratios at each of the Bureau of Prisons facilities 
within the Commonwealth of Kentucky, including FMC Lexington, USP Big 
Sandy, FCI Ashland, FCI Manchester, and USP McCreary?
    Answer. The Bureau of Prisons (BOP) does not have an optimal or 
minimally safe inmate to staff ratio, particularly for individual 
prisons. For fiscal year 2007, the BOP's inmate to staff ratio was to 
4.92 to 1, whereas 10 years ago, this ratio was at 3.57 to 1.
    Question. What steps is the Bureau of Prisons taking to increase 
security and safety at each of its facilities within the Commonwealth 
of Kentucky, including FMC Lexington, USP Big Sandy, FCI Ashland, FCI 
Manchester, and USP McCreary, regarding current staffing levels and 
inmate-to-staff ratios?
    Answer. Ensuring the safety and security of all facilities 
including the facilities in Kentucky is the highest priority of the 
Bureau of Prisons (BOP). The BOP ensures institution security through a 
combination of factors that include the classification of inmates based 
on risk factors; physical security features at BOP's institutions, 
including the structure of inmate living quarters, security 
technologies, and perimeter security measures; internal controls for 
inmate movement and accountability; direct staff supervision of 
inmates; and inmate involvement in correctional programs.
    The graduated classification system allows the BOP to assign an 
inmate to an institution in accordance with his or her likelihood of 
engaging in disruptive behavior. Inmates who require high levels of 
security are confined in higher-security facilities. Inmates who are 
able to function with relatively less supervision, without disrupting 
institution operations or threatening the safety of staff, other 
inmates, or the public, are confined in lower security level 
institutions.
    Architecture and security technology also help maintain the safety 
and security of BOP institutions, and the BOP continues to evaluate and 
add technological innovations to increase the physical security of 
facilities. To facilitate direct supervision of inmates, structural 
barriers between staff and inmates are minimized where possible, and 
staff offices are located near the areas where programs and services 
are delivered. Staff circulate freely and constantly through all areas 
of the institution, continually interacting with inmates. This promotes 
a more normalized environment within an institution and places staff in 
a better position to observe inmate behavior. Frequent and constructive 
interaction and communication between staff and inmates is critical to 
ensuring security, maintaining accountability, and managing inmate 
behavior. Staff are encouraged to talk with and be available to inmates 
and to be receptive to inmate concerns. Most institutions also rely on 
closed-circuit cameras and monitors to augment staff observation of 
inmates.
    Question. Why has the Bureau of Prisons facility at USP McCreary 
not staffed certain security towers while its stun/lethal fence 
remained incomplete and nonoperational? What steps to ensure the safety 
of staff, inmates, and the community has the Bureau taken while the 
towers remain unstaffed?
    Answer. The BOP is piloting a stun-lethal fence system at seven of 
its high security facilities. During the construction phase of these 
fence systems, Wardens have established adequate procedures to provide 
perimeter security. At USP McCreary, the Warden determined that while 
the stun-lethal fence is being installed, the certain towers will 
continue to be staffed to control access to and from the institution. 
In addition to this, perimeter patrols are being used for perimeter 
security. It should be noted that electrified fence systems have been 
in operation at several state correctional facilities for a number of 
years, and their perimeter security is very similar to those 
established at Bureau institutions.
    Question. On March 14, 2008, Bureau of Prisons Director Harley 
Lappin testified before the U.S. House of Representatives Committee on 
Appropriations, Subcommittee on Commerce, Justice, Science, and Related 
Agencies. In response to a question from U.S. Representative Hal Rogers 
of Kentucky, Director Lappin described his concern about an increase in 
the severity of incidents of violence or disorder as the Bureau's 
inmate-to-staff ratio has worsened. He testified that the Bureau seeks 
to identify perpetrators and shift them into higher-security 
institutions. Given current staffing levels and inmate-to-staff ratios, 
what steps is the Bureau taking to ensure the security and safety of 
the staff, inmates, and community affiliated with the higher-security 
institutions that receive the violent inmates? What steps is the Bureau 
taking to retain and recruit staff at the higher-security institutions?
    Answer. As with the Department's answer to your previous question, 
ensuring the safety and security of staff, inmates, and the public is 
the highest priority of the Bureau of Prisons. The BOP ensures 
institution security through a combination of factors that include the 
classification of inmates based on risk factors; physical security 
features at our institutions, including the structure of inmate living 
quarters, security technologies, and perimeter security measures; 
internal controls for inmate movement and accountability; direct staff 
supervision of inmates; and inmate involvement in correctional 
programs.
    The graduated classification system allows the BOP to assign an 
inmate to an institution in accordance with his or her likelihood of 
engaging in disruptive behavior. Inmates who require high levels of 
security are confined in higher-security facilities. Inmates who are 
able to function with relatively less supervision, without disrupting 
institution operations or threatening the safety of staff, other 
inmates, or the public, are confined in lower security level 
institutions.
    Architecture and security technology also help maintain the safety 
and security of BOP institutions, and the BOP continues to evaluate and 
add technological innovations to increase the physical security of 
facilities. To facilitate direct supervision of inmates, structural 
barriers between staff and inmates are minimized where possible, and 
staff offices are located near the areas where programs and services 
are delivered. Staff circulate freely and constantly through all areas 
of the institution, continually interacting with inmates. This promotes 
a more normalized environment within an institution and places staff in 
a better position to observe inmate behavior. Frequent and constructive 
interaction and communication between staff and inmates is critical to 
ensuring security, maintaining accountability, and managing inmate 
behavior. Staffs are encouraged to talk with and be available to 
inmates and to be receptive to inmate concerns. Most institutions also 
rely on closed-circuit cameras and monitors to augment staff 
observation of inmates.
    BOP staffs are a key component to effective security and inmate 
management. Regardless of the specific discipline in which a staff 
member works, all BOP employees are ``correctional workers first.'' 
This means that everyone is responsible for the security and good order 
of the institution. All staff are expected to be vigilant and attentive 
to inmate accountability and security issues, to respond to 
emergencies, and to maintain a proficiency in custodial and security 
matters, as well as in their particular job specialty. This approach 
allows the BOP to maximize emergency preparedness and to operate in the 
most cost-effective manner (with fewer correctional officers) and still 
maintain direct supervision of inmates.
    Finally, the BOP operates a broad variety of programs to keep 
inmates constructively occupied and provide them opportunities to learn 
important skills. Research has shown that keeping inmates productively 
involved in appropriate correctional programs and activities is 
critical to ensuring both a safe and secure prison and public safety. 
Correctional programs and activities reduce inmate idleness and the 
stresses associated with living in a prison, and these programs are 
important to public safety by assisting inmates to return to the 
community as productive, law-abiding citizens.
    Question. What steps is the Bureau of Prisons taking to increase 
security and safety at each of its facilities within the Commonwealth 
of Kentucky, including FMC Lexington, USP Big Sandy, FCI Ashland, FCI 
Manchester, and USP McCreary, regarding the transfer of non-English-
speaking or bilingual violent inmates (including gang members) from 
other regions of the country and the attendant need to monitor inmate 
communications in foreign languages for threats to staff and 
institutional security?
    Answer. Ensuring the safety and security of our staff, inmates, and 
the public is the highest priority of the Bureau of Prisons. The BOP 
ensures institution security through a combination of factors that 
include the classification of inmates based on risk factors; physical 
security features at our institutions, including the structure of 
inmate living quarters, security technologies, and perimeter security 
measures; internal controls for inmate movement and accountability; 
direct staff supervision of inmates; and inmate involvement in 
correctional programs.
    During July 2007, the Bureau of Prisons established a Blanket 
Purchase Agreement to provide foreign language translation services for 
all institutions. The agreement incorporates language proficiency 
standards, security background requirements that the translators must 
meet, and an aggressive turnaround response time requirement 
(ordinarily two business days) for the contractor to complete the 
translation and return it to the Bureau of Prisons.
    At the same time guidance was provided to all institutions that all 
social communications (correspondence and telephone calls) for inmates 
meeting specific identified criteria, one of which was disruptive group 
affiliation or gang involvement, would be translated if written in 
foreign language. Social correspondence prepared in a foreign language 
by identified inmates would be held, translated and analyzed for 
intelligence value prior to mailing out of the institution. Incoming 
correspondence written in a foreign language would also be held, 
translated and analyzed for intelligence value prior being delivered to 
the inmate. Audio recordings of telephone calls are currently 
translated after the calls occur, but a new agreement currently under 
development will include the ability for simultaneous translation of 
inmate telephone calls.

                          SUBCOMMITTEE RECESS

    Senator Mikulski. This subcommittee stands in recess until 
Wednesday, April 16, at 2 p.m., when we'll take testimony from 
the Director of the FBI.
    We thank the Director for coming and for his forthcoming 
statements and look forward to working with his team.
    This subcommittee stands in recess.
    Attorney General Mukasey. Thank you very much.
    Senator Mikulski. As the prerogative of the Chair, the 
subcommittee's officially recessed. We would thank the 
advocates from the Y for coming today.
    I'm going to ask my staff, and I'm sure the Shelby staff 
would join, so that they can have a brief conversation with you 
and bring you up to date on what our efforts will be, but we 
thank you for your advocacy and, most of all, we thank you for 
the hundred years of good work empowering women and fighting 
racism and bigotry in our society.
    God bless you.
    [Whereupon, at 10:56 a.m., Thursday, April 10, the 
subcommittee was recessed, to reconvene at 2 p.m., Wednesday, 
April 16.]

</pre></body></html>
